<html>
<title> - TRANSPORTATION AND BORDER SECURITY</title>
<body><pre>[Senate Hearing 108-824]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-824

                   TRANSPORTATION AND BORDER SECURITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 9, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
97-098                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 9, 2003....................................     1
Statement of Senator Breaux......................................     4
Statement of Senator Dorgan......................................    31
Statement of Senator Hollings....................................     2
Statement of Senator Hutchison...................................    26
Statement of Senator Lautenberg..................................    28
    Prepared statement...........................................    30
Statement of Senator McCain......................................     1
Statement of Senator Smith.......................................    21
    Prepared statement...........................................    23
Statement of Senator Wyden.......................................     3

                               Witnesses

Ridge, Hon. Tom, Secretary, Department of Homeland Security......     5
    Prepared statement...........................................     8

                                Appendix

Response to written questions submitted to Hon. Tom Ridge by:
    Hon. Maria Cantwell..........................................    77
    Hon. Ernest F. Hollings......................................    53
    Hon. Frank Lautenberg........................................    52
    Hon. John McCain.............................................    35
    Hon. John D. Rockefeller IV..................................    74

 
                   TRANSPORTATION AND BORDER SECURITY

                              ----------                              


                        WEDNESDAY, APRIL 9, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:00 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. The Committee meets today to examine issues 
relating to transportation and border security. I welcome 
Secretary Ridge, who is here to update the committee on the 
Department of Homeland Security's ongoing homeland security 
efforts and progress made in organizing the new department.
    I would like to congratulate Secretary Ridge for the job 
that he has done. He has gained the confidence of the American 
people in the very difficult task that he has undertaken since 
September 11th, and I know that he has major challenges ahead, 
many of which he will describe to us this morning.
    Secretary Ridge, I would just like to mention one aspect of 
your responsibilities this morning and as you know, it is not 
often that I discuss issues that relate to my home State. But I 
did have the privilege of accompanying Deputy Under Secretary 
Asa Hutchison, another outstanding public servant, to the 
Arizona-Mexico border a few weeks ago, with other Members of 
the delegation, including Senator Kyl and House Members. And I 
invite you to come when things calm down a bit because I think 
it is important for you to be able to see long, long distances 
of border which are unsecured between our two countries.
    There are many dimensions to this problem, ranging from the 
incredible healthcare costs that our healthcare facilities on 
our border and across the State are forced to bear, to the 
human tragedy of 134 Mexican citizens dying in the desert 
trying to cross into the United States last year, to the plight 
of the ranchers and citizens who live down there who are 
constantly subjected to an incredible situation where people in 
SUVs are just driving through the fences and across their 
property. Some of them are drug smugglers, some of them we have 
no idea who they are.
    And I know you agree with me that one of our first 
responsibilities is to secure our borders.
    And may I just add an additional comment. If it were just 
securing our borders, then I think your task would be easy. But 
like the case with drugs, we are creating a demand. There are 
jobs that Americans will not do, so Mexican citizens will try 
to come across, and Central Americans and others, will try to 
come across our borders so they can be able to feed themselves 
and their families. This consequently argues for amnesty 
programs, guest worker programs, et cetera. And I think that 
this has to be a priority of the Congress and the 
Administration, because I do not believe, as we have proven in 
the war on drugs, that we are ever going to keep people from 
crossing our borders as long as there is an incentive for them 
to come across.
    But I do not have to tell you, Mr. Secretary, the potential 
this has for the ability of people with evil intentions to come 
into the United States of America and do bad things. So, I hope 
that you will join me in your appreciation, I know you do, and 
maybe make a few comments today about that necessity. But it is 
not simple, because of this demand that is going on which is 
creating the trafficking, not only of drugs but of human beings 
and perhaps other things.
    And in addition to that, I think it is important to praise 
the work our very brave Customs, INS, and Border Patrol agents 
are doing. We have had people killed, we have had gunfights 
down there. We have had people with AK-47s. Recently there were 
some smugglers that painted vehicles exactly like Border Patrol 
vehicles so they could help disguise their intentions. And they 
are in a war down there, and at great risk, and they are 
performing heroically, and we are all proud of them.
    So, I do not usually make that long an opening statement, 
but I do think that it is a very serious issue. I am sure that 
there are equal challenges along our northern border, but it is 
one that I think we need to address if we are going to assure 
the American people that we are indeed providing them with 
homeland security.
    And I thank you for coming today, and I thank you for your 
continued willingness to serve the Nation.
    Senator Hollings.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Let me thank you, Mr. Chairman, and join 
in your commendation of our distinguished Secretary. I'm 
looking forward to working with him.
    Mr. Secretary, you are the Chairman of the Joint Chiefs for 
the terror war, and in that light we have just, for example, 
appropriated $180 million for those Code Oranges and so forth, 
just for the rest of this fiscal year. We find no money in the 
04 budget for those particular alerts back at the local State 
level.
    Otherwise, with the Coast Guard. By law, we've found--well, 
the Coast Guard has estimated some $4.8 billion necessary to 
comply with the requirements of homeland security.
    Otherwise, the States have $1.2 billion requested right 
there before the Coast Guard, but we don't have the monies to 
do those things. And yet at the same time, we have the 
President in the White House this morning, he's just steaming 
to get tax cuts and spending to stimulate the economy, whereas 
we've got required spending over here that we're not providing 
for. We could easily provide for the troops in the terror war, 
namely your troops that we're not providing for, rather than 
causing a deficit, that loss of revenue, that waste of 
increasing the deficit and the high interest costs.
    I just don't understand why we just don't calm down and say 
wait a minute, we've already required--by the way, it's 
bipartisan, like port security. We passed it 100 to nothing, 
all Republicans, all Democrats. Chairman Breaux here has all 
the hearings all over the country, and Admiral Loy was joining 
in, Administrator Bonner from Customs. There's a lot of work 
that has been done, but they're looking for the help in 
Washington because by June, you're supposed to have those 
security cards.
    We argued with the unions ad nauseam, and we finally got 
them to come around, they've agreed to it, we've got the 
requirement, and they've got to have that card by June. They 
don't see your department responding.
    Otherwise, you've got to comply by July of next year with 
not only the assessments but the compliance of all these, 
particularly the 55 major ports. You only provide in your 
budget for some 13 assessments. Instead of a 6-day or 6-week 
war, we're going to have a 100-year war for the terror war at 
that rate. And I just can't understand why we're just 
determined to lose the revenue that could easily be spent to 
stimulate the economy with your terror war, and I need to say 
it, everybody agrees on it, it's required by law. And I'll get 
my chance to ask some questions.
    But I welcome you, because I think you are going to be able 
to get around Ridge, I think he's headed to Indiana or 
whatever, to go back home. Or not Ridge, what's his name?
    Staff: Daniels.
    Senator Hollings. Daniels, Mitch Daniels, yeah, that 
fellow. I think you are with us but you can't get past him. But 
get that new fellow Johnson or something that's coming on, and 
let's start working and doing the Lord's work.
    You are the chairman of the joint chiefs in this terror 
war, and we're not backing the troops. We're not backing the 
troops and the troops are out there struggling.
    The Chairman. May I say, Mr. Chairman, Senator Hollings, 
that's quite a promotion from a former Sergeant, as Secretary 
Ridge was.
    Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. I too 
want to welcome an old friend, Tom Ridge, and have a number of 
areas I want to talk with him about, but I want to mention one 
specifically that I hope our colleague will talk about in his 
opening statement.
    That is this question of privacy. The American people 
clearly want their Government to fight terrorism ferociously, 
and at the same time to do it in a way that doesn't gut our 
civil liberties, our basic freedoms. And I'm very concerned 
when you look at some of the programs that have been rolled out 
recently, the total information awareness program, the CAPPS II 
program with respect to airline screening, that our Government 
is not striking the right balance.
    For example, in the homeland security legislation, it calls 
for the establishment of a privacy officer. I'm not clear as to 
whether even that person has been named at this point, and 
perhaps you can enlighten us on it.
    But what concerns me is, I want to make sure that privacy 
issues are dealt with up front, that they don't just become an 
afterthought and basically after all the policies are made, 
then somebody says well, holy Toledo, we ought to think about 
civil liberties questions at some point before we roll 
everything out. And if you could, address your approach with 
respect to privacy.
    There will be other issues that I want to ask you about, 
particularly some of the reports of waste and mismanagement, 
and I'll get into that in questions. But I'm particularly 
concerned about how we're going to strike a balance between 
pulling out all the stops to fight terrorism and protecting our 
citizens, while at the same time being sensitive to these 
questions of privacy.
    Thank you, Mr. Chairman.
    The Chairman. Senator Breaux.

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Thank you, Mr. Chairman, for having these 
hearings. Mr. Secretary, thank you for coming before the 
Senate.
    We had made an effort last week when the Appropriations 
Supplemental Bill was on the floor to try and spell out in 
greater detail how the funds were going to be spent for 
homeland security. There were many who felt that, I think the 
President had requested $1.5 billion for counterterrorism, I 
think the Committee mark was about $1.35 billion, but the 
concern that some of us had was that it was not really 
designated as to where it was going to go.
    As an example, I think with regard to the Coast Guard, the 
President requested $580 million and the Committee included 
$580 million for the Coast Guard, but $400 million of it was 
going to Operation IRAQI FREEDOM overseas. There were many of 
us who felt that we have some obligations right here at home.
    We looked at, as Senator Hollings said, port security 
problems right here at home in all the major ports. They are 
immense. And while I know it is necessary to have money for the 
Coast Guard's involvement in Iraq, it is also critically 
important to have enough money involved in the Coast Guard here 
in America's defense, and I think that it is not sufficient 
what we have.
    And I think the other thing is not that anyone mistrusts 
you or the Department, but I mean, some of them likened it to 
the fact that we were just going to take $1.35 billion and toss 
it up in the air in the general direction of homeland security, 
and hope that it falls down in the right places. And there are 
many in Congress who felt that we have the obligation to 
appropriate funds, but we also have an obligation to help 
direct where those funds that we are asking the taxpayers to 
pay are going to be spent. This is an age old argument about 
who decides where the money is going to be spent.
    I mean, we lost that fight. I hope that you will pay 
attention to the debate and look at what we were encouraging 
these monies to be spent for. It may be that you would agree 
with us totally, and that's fine. But what we have basically 
given you is a lot of money to spend on homeland security. And 
as many of us had felt that certain amounts should be allocated 
clearly to the Coast Guard, the border security, to the Bureau 
of Customs, et cetera, we were trying to say here's what these 
various departments, or agencies within your department needed. 
So, we hope that that debate is noticed, and hopefully we can 
work together on that.
    Thank you, Mr. Chairman.
    The Chairman. General Ridge.
    [Laughter.]

            STATEMENT OF HON. TOM RIDGE, SECRETARY, 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Ridge. Thank you, Mr. Chairman. Good morning, 
Chairman McCain, Senator Hollings, and my former colleagues, 
distinguished Members of the Committee. Thank you for the 
opportunity to join you this morning to describe the efforts of 
the Department of Homeland Security to secure our Nation's 
transportation systems, borders, and ports of entry. And thank 
you for the opportunity to hear your concerns, many of which 
you have addressed in your opening remarks, and I suspect will 
get into a little deeper during interrogation and questioning. 
And thank you for the opportunity to discuss with you the 
substantial challenges that the Department and Congress face in 
the months and years ahead as we set up the Department and work 
together to secure America.
    We at the Department of Homeland Security are committed to 
working closely with the Congress of the United States, State 
and local Governments, as well as private industry, to address 
these challenges and ensure that America's future is both 
prosperous and secure.
    In protecting our systems of commerce and transportation, 
we basically face a two-pronged challenge. Safeguard our 
homeland, but at the same time ensure that the free flow of 
people, goods and commerce is not disrupted. The Department of 
Homeland Security is leading the effort to reach this objective 
but it will not be achieved strictly within the new Department.
    It will require, from our view, a sustained and coordinated 
effort by Government and private partners. It will require 
investment by all parties, the development of new approaches, 
and the application of new technologies. It will require us to 
make difficult decisions, critical assessments, and work to 
find the elusive balance point between the substantial and 
measurable costs of security and the even more substantial and 
immeasurable costs of insecurity.
    Since the terrorist attacks on September 11th, we have made 
significant strides to protect the national transportation 
system. Congress created the Transportation Security 
Administration and empowered it to manage transportation 
security in all modes of transportation. TSA will play a 
strategic role in developing the national transportation system 
security plan, a key portion of the national strategy for 
homeland security.
    Two other key components within the Department include the 
United States Coast Guard as lead in the maritime domain, and 
the Bureau of Customs and Border Protection in dealing directly 
with the movement of people, goods and cargo across our 
borders.
    In February, Admiral Loy appeared before this Committee and 
provided you with a comprehensive overview of TSA's progress on 
aviation security. I would like to add several recent 
successes.
    Under the purview of the FAA, approximately 95 percent of 
the 6,000 commercial airliners will have hardened cockpit doors 
as of today. On February 25th, we initiated the Federal Flight 
Deck Officer Program. The first training session will begin 
next Monday at the Federal Law Enforcement Training Center.
    Additionally, we continue to make progress in deploying 
explosive detection systems at the few remaining airports where 
not all baggage is screened using this technology.
    We continue to develop the next generation of computer 
assisted passenger prescreening system, and I suspect this will 
be a matter of discussion with the individual Members of the 
Committee, but particularly Senator Wyden, I think you're 
referring to that, and it's a critical discussion that we have. 
That's one of the things about the democracy in which we live, 
these discussions are transparent, they're public, and very 
appropriately so. And I would just assure you that while we 
have not identified a privacy officer publicly, we've got a 
good one in mind and we are just making sure that all the paper 
work is in order before we submit her name to you and to the 
public.
    We will continue to work with the TSA and the CAPPS II 
program because we think it's a critical element in their 
system of systems of protection, and we believe it will 
effectively enhance the screening of airline passengers, moving 
the screening further from the gate, but at the same time 
safeguarding their civil liberties.
    Along our Nation's coasts and in our seaports, the Coast 
Guard, TSA, the Bureau of Customs and Border Protection, the 
Department of Transportation's Maritime Administration, and the 
St. Lawrence Seaway Development Corporation, all play a role to 
provide increased security at our ports. These efforts were 
furthered with the passage of the Maritime Transportation 
Security Act last November. I assure you we will be taking 
steps to ensure that the Act is implemented in an integrated 
and timely manner.
    The Coast Guard and TSA continue their progress on 
conducting port security assessments in coordination with our 
Directorate of Information Analysis and Infrastructure 
Protection. TSA, in conjunction with the Coast Guard and MARAD, 
awarded an initial round of $92 million in port security grants 
last summer to 51 different seaports.
    In the cargo container security arena, the Department is 
providing security for the nearly 6 million containers that 
enter our ports each year by partnering with other countries 
and the private sector to push our zone of security outward. We 
would like to push that perimeter of safety further and further 
offshore.
    One program to implement this strategy includes the 
Container Security Initiative, or CSI, which identifies high 
risk cargo containers and partners with other Governments to 
prescreen those containers at foreign ports before they are 
shipped to America.
    The Department has been working with and will continue to 
work closely with the Department of Transportation and the many 
stakeholders in the railroad industry to enhance rail security. 
We will leverage the industry's relationships and regulatory 
structure that the Federal Railway Administration has long 
developed. As an example of this cooperation, TSA and the FRA 
recently collaborated in reviewing Amtrak's security plan and 
advised this committee of the results of that review.
    The Department of Homeland Security is following a similar 
approach for mass transit security, including rail, inner city 
buses, and ferries. Security in these modes presents a 
continuing challenge due to the general lack of security, as 
well as the public's desire and the public's need for the 
freedom to move through each mode of travel.
    Highway security is an additional challenge that we are 
beginning to address, and cooperation with the Federal Highway 
Administration and the States is absolutely critical. The 
enhancement of the Critical Infrastructure Information Act of 
2002 assists this effort by protecting information that is 
voluntarily submitted to the Federal Government.
    The thousands of miles of pipeline throughout America 
represent another unique challenge. In order to secure a vast 
network, the communications between our Federal, State and 
industry partners has been streamlined. The TSA and the 
Department of Transportation's Research and Special Programs 
Administration continue to focus on implementing coordinated 
risk based protocols to ensure operators are putting security 
practice into place at critical facilities.
    Mr. Chairman, transportation security is a collaborative 
effort, and must be a collaborative effort between our 
Department, other Federal agencies, State and local 
Governments, the private sector, as well as individual 
Americans. Together we have made great advances in securing our 
transportation systems while protecting civil liberties and 
insuring the free flow of people and commerce. But clearly 
clearly, we recognize as you do that more needs to be done.
    The Department of Homeland Security is dedicated to 
accomplishing the objectives set forth in the President's 
national strategy. This strategy provides the framework to 
mobilize and organize the nation. We are proud of our efforts 
thus far and are eager to press forward with the mission of 
building a safer and more secure future for our country.
    This concludes my prepared statement. I certainly thank you 
for the opportunity to speak before you, and look forward to 
the continuing opportunity as well as responsibility that we 
have in the Department to shape the new Department, with the 
assistance and collaboration and input from our colleagues in 
the legislative branch who were so instrumental in accepting 
the President's proposal and creating the Department in the 
first place. So I am very pleased to be here, and look forward 
to responding to questions that you might have.
    [The prepared statement of Secretary Ridge follows:]

           Prepared Statement of Hon. Tom Ridge, Secretary, 
                    Department of Homeland Security

    Good morning Chairman McCain, Senator Hollings and other 
distinguished Members of the Committee. It is a pleasure to be here 
with you this morning to discuss the efforts of the Department of 
Homeland Security to secure our nation's transportation systems, 
borders and ports of entry. Thank you for providing the opportunity to 
discuss the Department's efforts on these fronts.
    As the President has stated, ``the United States government has no 
more important mission than that of protecting the homeland from future 
terrorist attacks. The threat to America takes many forms, has many 
places to hide, and is often invisible. Terrorists wish to attack us 
and exploit our vulnerabilities--as we saw in the attacks of 9/11--
because of the freedoms we hold dear.'' Your good efforts last year 
significantly advanced our ability to meet the terrorist threat by 
creating the Department of Homeland Security (DHS). We at the 
Department are committed to working closely with you, the Congress, 
state and local governments, and private industry to continue this 
effort and ensure the security of the Homeland.
    The Department was created in order to bring the 22 agencies with a 
homeland security mission under one roof, to focus their activities, 
achieve efficiencies and eliminate redundancies. DHS has a two-pronged 
challenge in the transportation and border arenas--protecting the 
homeland while ensuring that the flow of goods and commerce that makes 
our economy strong is not disrupted. This is crucial in the 
transportation sector, where changes in the environment can have 
significant impact on local, regional and even national economies. 
Because we recognize this reality, DHS is fostering a communicative 
approach with our state and local, and private sector partners. We 
routinely engage in discussions with those potentially affected by 
heightened enforcement measures, and are developing partnerships with 
public and private sector entities to tap their extensive expertise and 
technological resources to advance our security mission without unduly 
impacting commerce. Much must be done in the months and years ahead, 
and fostering these partnerships will prove invaluable in achieving our 
goals and protecting the homeland.
    Mr. Chairman, you have asked me here this morning to discuss the 
security of our transportation sector, borders, and ports of entry. As 
you are keenly aware, since the terrorist attacks on 9/11, the Federal 
Government has taken great strides toward effectively protecting the 
national transportation system, including our ports and borders. We now 
have all of the key component agencies under one roof to manage this 
effort effectively. The U.S. Coast Guard and Bureau of Transportation 
Security (BTS), including the Bureau of Customs and Border Protection 
and the Transportation Security Administration, will all play key 
roles, as will the new Information Analysis and Infrastructure 
Protection Directorate.
    The U.S. Coast Guard, reports directly to me and serves as lead 
agency in the maritime security domain, and the BTS Directorate is 
working to ensure the safe and secure passage of people, goods and 
cargo across our borders. The Information Analysis and Infrastructure 
Protection (IAIP) Directorate supports the effort to secure our 
transportation sector by undertaking vulnerability assessments and 
mitigation measures for critical infrastructure components of our 
transportation system, ports and borders. IAIP will utilize requested 
funding to work across infrastructure sectors and address the highest 
priority assessment and mitigation initiatives. The Science and 
Technology (S&T) Directorate will support this effort by assessing and 
developing technologies that will meet our security needs.
    TSA will continue to focus on aviation security and work with other 
DHS organizations to develop and implement an effective transportation 
security program in other areas. TSA has been and will continue to work 
closely with the Department of Transportation and its constituent 
Operating Administrations. I want to personally thank Secretary Mineta 
for the devotion that he has shown toward ensuring that this endeavor 
succeeds.
    I am aware that ADM Loy appeared before this Committee in early 
February, and provided you with a comprehensive overview of the 
progress that TSA has made in the area of aviation security. I refer 
you to his detailed written testimony to describe those efforts. Since 
his appearance though, I would like to add several additional 
successes. Under the purview of the Federal Aviation Administration, 
approximately 95 percent of 6,000 passenger airlines will have hardened 
cockpit doors by April 9, 2003. Those that do not have the hardened 
doors will not fly. On February 25, the Federal Flight Deck Officer 
(FFDO) program was initiated to permit the arming of pilots. The first 
training session will begin next Monday at the Federal Law Enforcement 
Training Center (FLETC), also within the BTS Directorate, leading to 
the first group of deputized pilots. After reviewing the effectiveness 
of the training program for this initial class, TSA will begin regular 
training in July and will be able to train more pilots this fiscal year 
based on what funds are available. The President has requested $25 
Million for this program in FY04.
    In the General Aviation arena, on April 1, the so-called ``12-5'' 
rule took effect. It applies to operators of aircraft with a maximum 
certificated takeoff weight of 12,500 pounds or more in scheduled or 
charter service, carrying passengers, cargo, or both. The 12-5 Rule 
requires the implementation of a standard security program to include 
restricted access to the flightdeck and a fingerprint-based criminal 
history records check on flight crewmembers.
    As you are aware, TSA did meet the 12/31/02 deadline to screen all 
checked bags for explosives and is using electronic screening, or other 
congressionally approved methods. Now, as TSA reports to you each month 
in a classified report, the agency continues to make progress in 
deploying electronic explosives detection systems at the few remaining 
airports where 100 percent electronic screening was not in place by 
January 1. We fully intend to meet the revised deadline of December 31, 
2003 to install necessary remaining electronic EDS machines.
    We continue to address the additional security issues that exist in 
the aviation sector. As an example, TSA is in the process of developing 
a strategy to ``right-size'' its workforce. In some airports there is 
overstaffing and in other locations understaffing. The staffing needs 
of the more than 400 commercial airports must be harmonized, even as 
TSA works to also develop a model workplace.
    We recognize the threat of Man Portable Air Defense Systems 
(MANPADS) to commercial aircraft. We have completed preliminary 
vulnerability assessment maps of all major airports in the United 
States and sent interagency teams to 22 of the largest airports to 
provide detailed vulnerability assessments. In conjunction with other 
Federal law enforcement agencies, we are reviewing the results of these 
vulnerability assessments and working through our Federal Security 
Directors with airport authorities and local law enforcement agencies 
to identify specific areas of concern and to minimize the risk around 
the airports. That translates to more effective surveillance including 
more frequent and focused patrols keyed to available intelligence. TSA 
has also developed training materials and guidelines for identifying 
and reporting possible MANPADS threats, and TSA is distributing this 
information to its Federal Security Directors to share with airport 
security officials and local law enforcement officials. We will 
continue to work closely with these officials in order to ensure that 
any and all information concerning this threat is quickly shared and 
that our efforts to prevent a missile attack are well coordinated. I am 
aware of calls for the immediate installation of countermeasures on all 
commercial aircraft. An interagency working group has been developing 
the appropriate strategy to address this continuing threat. The group 
is exploring all tactical and technical solutions to the MANPADS 
threat.
    I would also like to address an issue that has received much 
attention lately--the development of the next generation of the 
Computer-Assisted Passenger Prescreening System (CAPPS II). TSA staff 
has previously met with some of the Members of this Committee, and 
staff to most of this Committee's personal offices, to highlight, to 
the extent possible in an open briefing, what CAPPS II is, and is not. 
TSA has also met with advocates of privacy rights and civil liberties 
to listen to their concerns and gather their input, and will continue 
to do so.
    Our goal is for CAPPS II to enhance the screening of airline 
passengers. CAPPS II will not degrade the civil liberties of Americans. 
TSA will rarely see the background information checked by the computer. 
TSA will have access to this information in the extremely rare 
instances that a particular traveler has been identified as having 
known links to terrorism. TSA will only see the aggregated threat 
assessment of the data used to determine whether, based on current 
information on foreign terrorist activities, the passenger is a 
possible terrorist threat to civil aviation security. This assessment 
will be synthesized into easily understood color codes--Green, Yellow, 
and Red, which will be transmitted to TSA only shortly before the 
passenger's flight, and purged from the computer immediately after the 
passenger's flight is completed.
    Not only will the CAPPS II system improve aviation security, but 
the system will reduce the likelihood of innocent persons being 
misidentified or confused with similarly named persons who may have 
foreign terrorist links. CAPPS II will dramatically reduce the number 
of passengers required to undergo additional screening at airports as 
``selectees'' under the current CAPPS system. DHS and TSA will continue 
to work with this Committee as CAPPS II is further developed.
    As a final note in the area of aviation security, I would like to 
address the need for additional efforts in the air cargo security 
arena. Recognizing that this is an area of that needs to be addressed, 
the President requested a total of $30 million for an air cargo 
security pilot program in FY2004. Of this amount, $20 million is 
requested for the design and development of a random, risk-weighted 
freight screening process and the expansion of the TSA ``known'' 
shipper program. An additional $10 million is requested for further 
research and development to explore new air cargo technologies. As ADM 
Loy advised you in his February 5 testimony, TSA has established a 
working group that is using a threat-based and risk-managed approach, 
in coordination with the cargo industry.
    I would now like to turn to the other 80 percent of the 
transportation sectors, maritime and surface transportation. Their 
reach is vast. There are 3.9 million miles of public roads, which 
account for 2.7 trillion miles of travel by car and truck each year. 
There are 11.2 million trucks and almost 2.4 million rail cars coming 
into the U.S. each year. There are 120,000 miles of rail owned by the 
major railroads accounting for 700 million rail freight miles annually. 
There are 2.2 million miles of pipelines. Mass transit accounts for 9 
billion commuter trips each year. The United States has 25,000 miles of 
commercial navigable waterways. Finally, there are 51,000 port calls 
made by 7,500 foreign flag ships to our 361 ports.
    The Department has adopted a risk management approach as a 
cornerstone policy for developing risk-based regulatory standards for 
the various modes of transportation. Under this approach, there are 
three primary elements of good risk management: a threat assessment, a 
vulnerability assessment, and a criticality assessment. In support of 
its risk-based regulatory approach, the Department, through IAIP, the 
Coast Guard, and BTS will continue to develop consistent vulnerability 
templates not only across the various transportation modes, but also 
across all critical infrastructure sectors, such as utilities and food 
and water supply. The very long-term goal of future security standards 
will be to link vulnerability model-generated relative risk to the 
homeland security advisory system (e.g., the color coded threat 
system).
    DHS's plan for maritime homeland security has three major 
components:

 <bullet>   Container security, to facilitate trade while improving 
        security;

 <bullet>   Coast Guard operations, to ensure the safety of our ports 
        and waterways; and

 <bullet>   Vulnerability assessment and mitigation, to target 
        resources to the highest priority assessments and protective 
        measures across infrastructure sectors.

    The Maritime Transportation Security Act (MTSA), which Congress 
passed last year, addresses each of these components. The MTSA provides 
a framework for ensuring the security of maritime commerce in our 
domestic ports. Among other security measures, it requires:

 <bullet>   Vessel and facility security and response plans

 <bullet>   Foreign port assessment to ensure supply chain security

 <bullet>   Implementation of a system to collect, integrate and 
        analyze vessel, cargo and crew information
 <bullet>   Certain vessels in U.S. waters to carry automatic 
        identification systems

 <bullet>   Development of credentials to ensure only known and trusted 
        transportation workers are permitted access to our maritime 
        transportation system's sensitive areas

    The Coast Guard, BTS and our industry partners are working hard to 
meet the requirements of MTSA to improve the security of our maritime 
transportation system. However, resourcing this initiative will require 
a public-private partnership to define responsibilities clearly and 
enable us to use our limited resources wisely. Implementing MTSA is 
part of the Department's comprehensive maritime strategy, which 
implements the maritime component of the President's plan.
    In addressing container security, excellent groundwork was laid in 
the establishment, after 9/11, of a multi-agency Container Working 
Group (CWG). The Coast Guard, BTS components of TSA and BCBP, and the 
Office of the Secretary of Transportation currently participate in the 
CWG, in addition to a large number of private sector participants 
including, in part, the American Trucking Association, the Association 
of American Railroads, the World Shipping Council, the Pacific Maritime 
Association, the National Association of Waterfront Employees, the 
Marine Transportation System National Advisory Council, and the 
International Mass Retailers Association. The CWG's charter focuses on 
addressing key components of the process through which a container is 
packed, secured, loaded, and transported to the United States, ensuring 
the integrity of the shipment at all points in the international 
transportation chain.
    The result of this effort is to improve the overall security of 
containers by: establishing security standards and criteria for 
identifying high-risk containerized cargo (including trucks), 
implementing a prescreening process to target containerized cargo 
before it is shipped to the United States; developing and deploying 
technology to prescreen identified high-risk containers; developing 
procedures and deploying technology to secure containers as they are 
transported to the United States; and improving cargo security during 
domestic transportation, particularly high consequence cargoes.
    Also in the cargo container security arena, the Department is using 
an approach to ensure the security of the nearly 6 million containers 
that enter our ports each year that involves partnering with other 
countries and the private sector to push the zone of security outward 
by utilizing advance information to pre-screen all containerized cargo 
and ultimately inspect 100 percent of containerized cargo that is 
determined to be ``high-risk.''
    One program to implement this strategy is the Container Security 
Initiative, or CSI, which identifies high-risk cargo containers and 
partners with other governments to pre-screen those containers at 
foreign ports, before they are shipped to our ports and ensure they are 
not tampered with between ports. The BTS Directorate administers CSI, 
and within BTS, the Bureau of Customs and Border Patrol has the policy 
and operational lead, and the Bureau of Immigration and Customs 
Enforcement (BICE) and TSA participate by providing data that is 
reviewed by BCBP's Automated Tracking System (ATS), a sophisticated, 
rules-based system that sorts and processes vast quantities of 
information to pick up ``red flags'' and ensure that 100 percent of all 
high-risk ocean-going cargo is subjected to inspection. The U.S. Coast 
Guard not only provides data to support the CSI initiative, but also 
participates on an operational level, by interdicting vessels 
determined to be carrying high risk cargo before they reach our ports.
    The Department's efforts to provide additional security in the 
maritime arena also facilitate the sharing of information and expedite 
the movement of legitimate goods into our ports and across our borders. 
For example, the Customs-Trade Partnership Against Terrorism, or C-
TPAT, administered by BCBP, involves the trade community--U.S. 
importers, customs brokers, carriers, shippers, and others--to protect 
the entire supply chain, against potential exploitation by terrorists 
or terrorist weapons. The more than 2,000 companies that participate in 
C-TPAT perform comprehensive self-assessments of their supply chain and 
agree to make security improvements based on guidelines developed 
jointly with the trade community. Those companies then receive 
expedited processing through our land border crossings, through our 
seaports, and through our international airports. This partnership 
enables us to spend less time on low-risk cargo, so that we can focus 
our resources where they are needed most--on higher risk cargo.
    Operation Safe Commerce (OSC), a cooperative effort between the 
Federal Government and the non-federal sector that includes some of the 
top seaport ``load centers'' in the United States--Seattle/Tacoma, New 
York/New Jersey, Los Angeles/Long Beach. Its purpose is to explore 
commercially viable options that support cargo management systems that 
keep pace with expanding trade, while protecting commercial shipments 
from threats of terrorist attack, illegal immigration, and contraband. 
Using $28 million in grants, being administered by TSA, to the 
designated load centers, OSC will analyze existing supply chains and 
current security practices, and provide a test-bed for potential 
solutions and improvements in the security and movement of container 
cargo. OSC will ultimately develop procedures, practices, and 
technologies that help secure and monitor cargo from point of origin to 
point of destination. These pilot projects will provide a proof of 
concept that will ultimately improve the security of the international 
and domestic supply chain.
    The BCBP's Automated Commercial Environment (ACE) will use computer 
technology to assist with the targeting of high-risk cargo and expedite 
the vast majority of low-risk trade. One important, fully integrated 
component of ACE is the International Trade Data System (ITDS), an e-
Government strategy designed, developed, and deployed as an integrated, 
government-wide system for the electronic collection, use, and 
dissemination of the international trade transaction data required by 
the various trade-related federal agencies. ITDS will simplify and 
streamline the regulation, promotion, and analysis of international 
trade. It will also enhance enforcement of international trade and 
transportation regulations and laws, while improving commercial 
functionality to importers, exporters, carriers, and brokers through 
unified business processes. There are over 100 agencies to be 
integrated through ITDS with ACE, of which 48 have been identified as 
having admissibility and export control responsibilities at the border.
    Through ACE, the ITDS will be capable of linking the government's 
law enforcement and other databases into one large-scale relational 
database that tracks all commerce crossing our borders. ITDS will bring 
together critical security, public health, public safety, and 
environmental protection agencies under a common platform, and allow 
businesses to report data through the use of a single, harmonized data 
set.
    Successful targeting of high-risk goods transported through other 
transportation modes is as important as successful targeting of high-
risk goods transported by sea. As with oceangoing cargo, good 
information received early in the process is key to successful 
targeting and to the application of sound risk management principles. 
With the Trade Act of 2002, Congress recognized the importance of such 
advance information by mandating presentation of advance manifest data 
on all transportation modes, both inbound and outbound. The Department 
is in the process of working through the consultative process called 
for in the Trade Act of 2002 to determine the most appropriate advance 
manifest requirements for cross-border shipments by land, rail, and air 
cargo. Once the rules for cross-border shipments for land, rail, and 
air cargo are in place, we will be able to carry out the same national 
targeting strategy for those modes that we currently employ with 
respect to sea cargo.
    DHS is in a unique position to use other innovations, including 
both new and off-the-shelf technologies, to improve security and 
enhance commerce across the modes. The Department deploys a range of 
technology to effectively inspect people and goods entering our 
maritime and land ports, including Non-Intrusive Inspection 
Technology--large-scale x-ray and gamma-ray imaging systems, portal 
radiation monitors, and a mixture of portable and handheld technologies 
to include personal radiation detection devices that greatly reduce the 
need for costly, time-consuming physical inspection of containers and 
provide us a picture of what is inside the container for detecting 
weapons of mass destruction, explosives, chemicals, and contraband. The 
right equipment and systems access increases the number of inspections, 
minimizes risks to our personnel, and enables more effective 
processing.
    The Coast Guard serves as the lead federal agency for port 
security. Since 9/11/01, Coast Guard has conducted more than 36,000 
port security patrols, 3,600 air patrols, and 10,000 vessel boardings. 
It has launched two new programs to ensure the security of our ports: 
Sea Marshals, which are Coast Guard officials placed on commercial 
ships entering ports to prevent them from being hijacked, and Maritime 
Safety and Security Teams, which are deployable fast-response units to 
protect ports.
    Implementing and enforcing a security regime aligned with 
international standards is also of paramount importance in this effort. 
For that reason, the Coast Guard successfully gained adoption of 
amendments to the Safety of Life At Sea (SOLAS) Convention and the 
International Ship and Port Facility Security (ISPS) Code at the 
International Maritime Organization (IMO). These very important 
agreements contain strong, comprehensive, worldwide measures to enhance 
maritime security around the world.
    The adopted ISPS Code substantially strengthens security measure of 
ships on international voyages and port facilities serving them. It 
requires ships on international voyages and port facilities serving 
these ships to (1) conduct a security assessment, (2) develop a 
security plan, (3) designate security officers, (4) perform training 
and drills, and (5) take appropriate preventive measures against 
security incidents.
    The United States is on record as enthusiastically supporting July 
2004 as the implementation date of the new SOLAS amendments and the 
ISPS Code. The ISPS Code has a Part A--or mandatory--Section, and a 
Part B--or guidance--Section. The Department's intent is to mandate 
both Parts A and B to meet the requirements of MTSA.
    Finally, DHS is focused on vulnerability assessment and mitigation 
in the maritime environment. The Coast Guard is working to conduct port 
vulnerability assessments at the top 55 economically and militarily 
strategic ports. This effort has been underway since August 2002, and 
will be continued, in cooperation with BTS, and the Directorate of 
Information Analysis and Infrastructure Protection (IAIP), the 
organization within DHS that has overarching responsibility for 
critical infrastructure protection.
    Given the risk, importance and visibility of the Radiological 
Dispersal Device (RDD/''Dirty Nuclear Bomb'') and the Improvised 
Nuclear Device (IND), the Department of Homeland Security will also 
continue the excellent work begun by the Office of Homeland Security 
and the National Security Council's RDD/IND Working Groups. The efforts 
of these working groups will move forward as a joint effort under DHS/
HSC/NCS. I have directed Under Secretary Hutchison to coordinate the 
RDD/IND efforts currently underway in various regions of our country. 
These Federal, State, and Local RDD/IND efforts will be integrated into 
a Defense in Depth network across all modes of transportation from our 
borders inland. By coordinating current efforts, expanding our program 
to include modes of transportation that have been overlooked and then 
physically networking the system together, DHS will greatly increase 
the probability of stopping the RRD/IND threat through a Defense in 
Depth posture. However, Defense in Depth alone is not enough when 
dealing with a threat with this level of consequence. Therefore, DHS is 
also working with our Federal, State, and Local partners to improve 
preparedness, prevention, detection, response, mitigation, and recovery 
through training, equipping and coordinating from a broad perspective 
that only DHS can bring to the table.
    Moving to the land side of the equation, the approach we are taking 
to ensure the security of the containerized cargo coming into our ports 
is very similar to that used to ensure the security of goods and cargo 
coming across our borders and traveling throughout the country. In the 
area of rail security, the BTS Directorate's TSA has been working with 
and will continue to work closely with the Federal Railroad 
Administration (FRA) of the Department of Transportation, and the many 
stakeholders in the railroad industry to leverage industry 
relationships and regulatory structure that FRA has long developed. 
Now, BTS in cooperation with IAIP will establish transportation 
security regulatory guidelines for the rail sector along the principles 
of the threat based and risk management approaches that I have already 
discussed. These guidelines will be based on critical rail 
infrastructure risk assessments, and input from the FRA and industry. 
Amtrak's security plan was recently reviewed in this fashion, and this 
Committee was apprised of the results of that analysis. We have also 
reached an agreement with the Canadian Customs and Revenue Agency 
(CCRA), the Canadian National Railway (CN), and the Canadian Pacific 
Railway (CP) to implement a process for targeting, screening, and 
examining rail shipments transported into the United States from Canada 
by two major cross-border rail carriers. This is a major step forward 
in addressing the potential terrorist threat for rail shipments coming 
into the United States from Canada.
    DHS is following a similar approach in addressing mass transit 
security needs including rail, inter-city buses, and ferries, and over-
the-road buses. Again, existing relationships, assets, and authorities 
of the DOT Operating Administrations such as the Federal Transit 
Administration (FTA) and the Federal Motor Carrier Safety 
Administration (FMCSA) will be utilized by BTS (through TSA) and IAIP. 
There is much that we can do to enhance security, including assessing 
vulnerabilities, improving security at critical access points, acting 
on specific threat intelligence, monitoring conditions, improving 
emergency communications, increasing law enforcement presence where 
needed, or when the national threat level is increased, and developing 
contingency and response plans.
    Providing for security on the Nation's highway system is an 
additional challenge we are now beginning to address. Cooperation is 
essential not only with the Federal Highway Administration but with the 
state Departments of Transportation throughout the country. IAIP is 
beginning efforts to assess critical bridge and tunnel vulnerabilities. 
The enactment of the Critical Infrastructure Information Act of 2002, 
part of the Homeland Security Act of 2002, will assist this effort not 
only in the area of highways, bridges, and tunnels, but in all areas of 
critical infrastructure vulnerability by protecting information that is 
voluntarily submitted to DHS and other federal agencies.
    One area in which we have made progress is the Free and Secure 
Trade, or FAST, program, administered through the BTS Bureau of Customs 
and Border Protection. Through FAST, importers, commercial carriers, 
and truck drivers who enroll in the program and meet agreed-upon 
security criteria are entitled to expedited clearance at the Northern 
Border. Using electronic data transmission and transponder technology, 
we expedite clearance of approved trade participants to focus our 
security efforts and inspections where they are needed most--on high-
risk commerce--while ensuring that legitimate, low-risk commerce faces 
no unnecessary delays. Similar programs including NEXUS and SENTRI are 
being used to expedite the processing of people on the Northern and 
Southern borders, by enabling pre-screened travelers to use dedicated 
lanes at various ports of entry, including Blaine, Washington; Buffalo, 
New York; Detroit, Michigan; Port Huron, Michigan; El Paso, Texas; and 
San Ysidro, California.
    Security for the transport of hazardous materials, including 
explosives, over the Nation's highways by truck requires coordination 
of complex laws enacted under the Safe Explosives Act (included as part 
of the Homeland Security Act of 2002) and the USA PATRIOT Act of 2001. 
Under the Safe Explosives Act, additional restrictions on the carriage 
and receipt of explosives fall under the jurisdiction of the Bureau of 
Alcohol, Tobacco, Firearms and Explosives unless the Department of 
Transportation regulates the area. Under the provisions of Section 1012 
of the USA PATRIOT Act, the Department of Transportation is charged 
with the responsibility of overseeing issuance by the states of 
hazardous materials endorsements to Commercial Drivers Licenses (CDL). 
BTS through TSA, determines whether a CDL holder poses a security risk 
that warrants denial of the license, and will work with DOT to ensure 
this is taken into consideration for approval of a CDL license. This 
requires conducting Department of Justice background checks on the many 
HAZMAT drivers throughout the country. The Department together with 
DOT, acting through the Research and Special Programs Administration 
(RSPA) and the FMCSA, are collaborating on a series of regulations that 
will provide uniform standards for the conduct of background checks and 
threat based security determinations.
    These regulations will end the uncertainty within the trucking 
industry as to what standards and rules will apply to the 
transportation of explosives. Because I know a number of Members have 
expressed concern about the timeframe in which the rules are being 
developed, it is important to note that despite the complexity of the 
statutory requirements governing their issuance, and the sheer volume 
of background checks the governing statutes will require, we are 
seeking to ensure maximum security with minimal economic impact. These 
rules are in the process of final review within the Administration, and 
we hope to issue them in the near future.
    To keep pipelines secure to the maximum extent possible, the 
communication process has been streamlined with our Federal, State and 
industry partners to ensure that security information and threat 
warnings are available on a real-time basis. BTS, IAIP, and DOT 
continue to focus on implementing a coordinated, appropriate set of 
protocols based on threat assessments for inspectors to use to verify 
that operators are putting security practices into place at critical 
facilities. Again, the Critical Infrastructure Information Act of 2002 
will provide an added tool in assisting federal agencies, including 
DHS, to receive and assess critical infrastructure information from 
state and local governments and from the private sector.
    Mr. Chairman, as you well-know, transportation security is a 
collaborative effort between the Department of Homeland Security, other 
federal agencies, state and local governments, the private sector, and 
individual Americans. Together we have made great advances in securing 
our transportation systems, protecting civil liberties, and ensuring 
the free flow of people and commerce, but we recognize that more needs 
to be done and we will continue to make progress every day. The 
Department of Homeland Security is dedicated to accomplishing the 
objectives set forth in the President's National Strategy for Homeland 
Security. This strategy provides the framework to mobilize and organize 
the nation--Federal, state and local governments, the private sector, 
and the American people--in the complex mission to protect our 
homeland. We are proud of our efforts thus far and are confident that 
our transportation systems, ports and borders are more staunchly 
protected than ever before.
    Mr. Chairman and Members of the Committee, this concludes my 
prepared statement. I thank you for the opportunity to speak before you 
today.

    The Chairman. Thank you very much, Secretary Ridge.
    I think it is generally accepted that the efforts we've 
made on airport security have been largely successful. Would 
you agree with that?
    Secretary Ridge. Yes, I would.
    The Chairman. Secretary, I wish we could convince the 
traveling public that the enhanced measures at the airports, 
beginning with the hardened cockpit doors, the new TSA, and the 
baggage screeners, and the technology and the people at the 
airports, perimeter security, additional air marshals, that the 
commercial aviation is far safer and more secure today than it 
was on September 10, 2001. Do you believe we have made that 
same progress as far as railway stations are concerned?
    Secretary Ridge. I do not. I think one of the big 
challenges we have at the outset, Mr. Chairman, is that the 
Congress in setting up very appropriately the TSA, sent a very 
strong signal that the highest priority, almost in a 
prescriptive sense, was aviation security. But clearly, 
Congress also----
    The Chairman. Which is understandable, given the events of 
September 11.
    Secretary Ridge. Absolutely. But I think Congress was also 
clear that it's an intermodal transportation system that they 
sought TSA to work to secure, and Admiral Loy and I are 
committed to making sure that in the following months and years 
ahead, that we restore some of the balance, continue to work on 
aviation, but we've got rail freight, we've got pipelines, 
we've got highways, and we've got considerable additional 
transportation infrastructure that we need to secure.
    The Chairman. What about port security?
    Secretary Ridge. Mr. Chairman, I believe that we've made a 
great leap, a monumental difference with the support of 
Congress and some of the initiatives undertaken within the 
Department of Homeland Security by individuals and agencies 
even before they were grafted in the Department.
    The enhanced security with the Coast Guard and the 
continued commitment of Congress to the Deep Water acquisition 
program that will provide additional infrastructure vessels and 
technology and the like, the 2004 budget enables them to hire 
and bring in an additional 2,000 men and women. They have 
clearly enhanced security at the ports.
    The cargo security initiative, where through a targeting 
process, a nonintrusive technology in cooperation of our 
partners overseas, we can identify and actually inspect some of 
this cargo for security purposes before they even load the 
ships.
    The 24-hour rule that gives us the passenger lists and the 
cargo manifests, so we can do some of this targeting. And the 
enhanced sea marshal program, additional inspections of high 
interest vessels.
    So again, we have done a great deal. Is there more to do? 
Certainly. The Maritime Security Act talks about vulnerability 
assessments. We are in the process of doing that, and obviously 
down the road there will have to be physical enhancements at 
our domestic ports as well.
    The Chairman. I know that you know that there has been some 
money wasted because of the rapidity with which the TSA had to 
be set up. I hope you will work with Mr. Meade, the IG of the 
Department of Transportation. He has identified some of these 
areas. We regret when a single dollar is wasted. There has been 
some waste and some abuse, and I hope that you can come back to 
us at a certain time and make sure that these have been 
remedied and won't happen again.
    Could I talk about the border a second?
    Secretary Ridge. Yes, sir.
    The Chairman. I don't think that I have the knowledge or 
expertise that a lot of your experts do. I do believe that I 
have some knowledge because of my involvement and visits and 
information that I've received from a broad variety of sources. 
But it seems to me, that particularly on our southern border, 
although we need to hire additional personnel and some of that 
activity is already taken, that we really are going to have to 
take advantage of the high tech capabilities that our military 
has proved so effective.
    I don't think we will ever have enough vehicles of people 
to patrol the 200-mile border between Arizona and Mexico. But I 
do believe that a UAV could do a very good job in that respect. 
And I believe that some of the other technology that we have, 
that the military has developed--you know, there's a great cry 
now that they want to send the military to the border. People 
think that is an answer, and obviously it's not, for a variety 
of reasons. But I do believe that we could take advantage of a 
lot of the technology that has been developed by the military, 
particularly as far as surveillance is concerned, and use that 
equipment to great effect.
    And I don't want to keep beating on this issue, but when 
you meet the guy that's been running a wildlife refuge on the 
U.S.-Mexico border for 18 years that says Senator, I can tell 
you that I no longer have control of your wildlife refuge, and 
a park ranger is shot and killed at the Organ Pipe National 
Monument by some people who are coming through illegally, this 
gets to be a huge problem. And one of the effects of it has 
been, and a bit understandably, is vigilante groups forming 
because they believe that the Government is not doing it, so 
therefore they will, and some of them are even arming 
themselves. That sets up a potential for a very dangerous 
situation, as you know.
    So I hope, maybe you could comment on that aspect of border 
security. And my understanding is that your next priorities are 
rail and port security, after aviation and airport security. Is 
that basically correct?
    Secretary Ridge. Correct. Senator, your recommendation, or 
your reminder, that there exists some technology that has a 
military application that has a surveillance application at the 
borders is a suggestion and a recommendation that we're taking 
very seriously in the new Department.
    Our science and technology unit, just recently stood up, 
will be looking at the available technologies of the UAVs out 
there. I had a good conversation with the Undersecretary for 
Border and Transportation Security, Asa Hutchison. Because if 
we can take this technology, it certainly--and the eyes over 
the horizon, we obviously have to change tactically and 
operationally how we use the additional manpower that Congress 
has given us the past couple of years.
    But I think one of the advantages of the new Department is, 
one, at the border there is a single chain of command. As you 
know, we've got some of the INS and Customs and AFS people 
together. Border Patrol is an integral part of our operation. 
But, I think that we need to equip them with this kind of 
technology if our expectations legitimately are risen due to 
combat terrorism. And we want them to cover more territory.
    And you point out the humane side of being able to identify 
some of these men, women and children trying to work their way 
to this country for understandable reasons. And so your 
suggestion about the technology is one that we take seriously 
and we have begun the process of looking at the application, 
hopefully with a pilot or demonstration project sometime this 
year.
    The Chairman. Thank you. Senator Hollings?
    Senator Hollings. Thank you, Mr. Chairman.
    Mr. Secretary, like the Tale of Two Cities, you've got the 
best and the worst. Let me cover first the worst, and that's 
the Immigration Administration. And I'm not being critical 
because you only have an acting director there, but years back 
I even called the President and asked for a replacement.
    It's not a money problem. You can ask Senator Gregg or any 
of the others, we have been on that appropriations Subcommittee 
for years, and you keep pouring money, and it's one grand 
bureaucratic snarl. Get your hard nosed general or admiral like 
Loy, get your tough fellow like yourself, and get that thing 
cleaned up. I mean, you've got a cancerous operation there. 
Everybody will agree. That's a bipartisan comment.
    On the other hand, you've got the finest in the United 
States Coast Guard. To tell you how uninformed I was, I came up 
here in 1966 and saw all that brass up on the hall over in the 
Dirksen Building at the time and I said you all are mistaken, 
the Armed Services is back down on the next floor. And then 
when Chairman Magnuson got ready to give the promotions for the 
Coast Guard, he said where are they, and I'd sent them down to 
the wrong place. So I've learned to take care of the Coast 
Guard over the years.
    And there's an ongoing little conspiracy. You begin being 
underfunded. You will find that Chairman Ted Stevens now, and 
Senator Inouye and myself, we've served on that Defense 
Appropriations Subcommittee for the last 30-some years, and we 
have to take out of that 050 defense, and transfer $350,000,000 
back to the Coast Guard. We've been doing that for years, 
because we just don't have--you're underfunded right this 
minute.
    And they're doing, like Admiral Collins says, the finest 
job they possibly can, but taking all of those personnel, ships 
and everything else and putting them in the gulf just--in the 
newspaper, I think it was Monday, he had a column in there to 
the effect that he's 68 percent cut now from his drug task, 
from his fisheries task and everything else of that kind. So 
he's doing an outstanding job, but we just haven't put the 
money to it.
    With respect to the ports, you've got the GAO report, and 
rather than reading the whole thing, I mean, you had just this 
present year a $697 million need and only appropriated some $93 
million. So we've got to play catch-up ball financially with 
respect to the Coast Guard.
    With respect to the Immigration Service, you've got to 
catch up administrator-wise as a personnel thing.
    And you've got a difficult thing. You left the other day 
when Secretary Rumsfeld was there, and I was telling him he 
didn't have to worry about a money supplemental because 
everybody is going to give him the money. What he needed was a 
personnel supplemental. He's got 12 peacekeeping, now he's 
added the war in Iraq, and he's taking all of my National 
Guardsmen, Reserve and everything else, and he's got them, and 
then you're trying to grab them.
    Last week when you had Code Orange, the Republican governor 
of South Carolina had to get parole officers to put around the 
ports. I mean, these folks are out there struggling and they 
need money, and let's use the revenues that we're going to cut, 
and give it to Secretary Ridge. That's my main thrust, Mr. 
Chairman. Thank you very much.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. Mr. Secretary, 
obviously you have a tremendous amount on your plate and going 
back to----
    The Chairman. Senator Wyden, before--did you want to 
respond?
    Secretary Ridge. Just----
    Senator Hollings. I've got a list of questions.
    Secretary Ridge. If I just might, thank you, Mr. Chairman.
    First of all, I think the way Congress restructured the INS 
in the new Department of Homeland Security is an appropriate 
prelude to doing more and doing better. As you know, we now 
have a Citizenship and Immigration Affairs Services unit. We've 
got an extraordinary individual who's going to task that, head 
that unit, Eduardo Aguerri, who himself is a naturalized 
citizen, understands the process, and is the kind of hard 
charging leader that is necessary to bring not only discipline, 
but I think respect back to a group of people who have 
historically worked pretty hard, but you know, their successes 
are never celebrated but their failures are certainly 
publicized.
    So we know we've got some work to do there. But by in 
large, I think most of those people go to work every single day 
trying to do a good job. It's just our responsibility to help 
empower them, sometimes with more people and with better 
technology, and perhaps even some decision making authority at 
a lower level that heretofore didn't exist.
    The Congress has also helped us. I think we're in our 
second if not third year toward our goal of the six-month 
standard, that all immigration benefits regardless of kind be 
handled within six months. And I think you gave us $100 million 
last year, we're looking for that same installment in 2004.
    So you did that, and then you gave us an opportunity on the 
enforcement side, and we've got some good people that are going 
to manage that.
    So one, I think that you've given us a good structure and 
you've been supporting us with the appropriate dollars, and 
hopefully in the months ahead you can say you're beginning to 
see a noticeable and a very positive change.
    The Coast Guard in the 2004 budget, Senator, there's a 
request for a 10 percent increase. It will enable Admiral 
Collins to attract, and I'm sure he will be able to attract 
2,000 more men and women. You and I have the same high regard 
for this extraordinary agency, I think probably one of the most 
undervalued under appreciated assets in the Federal Government.
    They can do from top to bottom, from the raw recruit to the 
leadership. They are cross trained. You put the same people on 
the same vessel, and depending on the day, they can do five or 
six different things, and they do them well.
    I think that you're going to find that the supplemental 
will give us--again, I know Senator Breaux talked a little bit 
about it--one of the reasons we came up looking for about $600 
million for the Coast Guard is we felt that about $400 million 
was needed because of the deployment of ships and crew, and the 
need to bring in about 6,000 reservists during Operation IRAQI 
FREEDOM. But about $200 million was for the additional port 
security during this period of time.
    You've also given us the money and we have begun some 
procurement of about 700 more small fast boats to use for our 
port security, the contract was just a couple days ago. So 
again, I look forward to working with you to continue to 
support this extraordinary organization.
    The Chairman. Thank you. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Secretary, you've got your hands full, an enormous 
amount on your plate, and having worked with you for a lot of 
years, I know how you tackle these issues in a professional 
way, and I appreciate it.
    My concern about the CAPPS II program is really highlighted 
even by what we've talked about this morning. The CAPPS II 
program is arguably one of the biggest background checks this 
country has ever had. I mean every time you get on a plane, 
you're going to go into this color coded system, green, yellow 
and red, and as far as I can tell, the major decisions are now 
being made on CAPPS II without a privacy officer being on deck. 
And that in effect reflects my concern.
    What I've always wanted is to make sure that these privacy 
issues are dealt with up front, that the privacy officer is at 
the table, you know, making the case for how we're going to 
fight terrorism aggressively and at the same time be sensitive 
to civil liberties. And yet, these decisions are being made now 
without the privacy officer being in place.
    When do you think such a person--you touched on in your 
opening statement would be on deck as the law envisions?
    Secretary Ridge. Senator, I would think that we would be 
able to make an announcement in the next week or two, and I 
think the individual will be well recognized to you and you 
will be comforted by the individual's experience and background 
in this arena.
    I should also tell you, however, that Admiral Loy and I 
share the notion that when a Department has a privacy officer, 
it is our responsibility to integrate that office and those 
individuals at the front end as we begin to discuss programs 
and policies. Because we did not have the privacy officer on 
deck yet, Admiral Loy a couple weeks ago convened a group, 
several groups from the community of interest on privacy 
matters, groups from the political right, political left, you 
name it, a broad spectrum of individuals representing national 
organizations concerned with privacy, to sit down, listen to 
their concerns, address them or at least show how in the pilot 
that we are presently developing, those concerns were 
addressed, and to identify those areas where we may have to 
continue to do some work before we implement the pilot program.
    So, I would be very pleased to provide very specific 
information as to who participated in those meetings, and look 
forward to the introduction of the privacy office to you and 
your colleagues in Congress, because I think you will be very 
well satisfied.
    Senator Wyden. Now, what was published in the Federal 
Register with respect to the program originally, that was done 
back in January, I think it's fair to say does not resemble 
what you have described on page 4 in your testimony. For 
example, you talk on page 4 about how data would be purged from 
the computers immediately after the passenger's flight ended.
    Secretary Ridge. Right.
    Senator Wyden. And the notice back in January said, that 
some of this data could be kept for 50 years, which certainly, 
you know, struck people as a bit far fetched.
    When do you think there would be a new notice in the 
Federal Register so that the public could weigh in again on any 
other proposed revisions? For example, I want to see--again, in 
your statement you talk about TSA will rarely see the 
background information checked by the computer. One of the 
things that's concerned me is what happens if the information 
is inaccurate, because there has certainly been a lot of 
inaccurate information in private sector databases and we have 
seen problems stemming from that.
    So, my question here is, when would there likely be a new 
Federal Register notice on CAPPS II so that the public could 
have another shot to comment?
    Secretary Ridge. Senator, I can't give you a certain date, 
but before there would be, there is a new federal notice, it 
would be my intention to have the program initially as 
designed, without the personal and professional involvement of 
the privacy officer to review it before there's any additional 
public communication.
    I think it's critical to the credibility of the pilot 
program. We think that the approach that is being developed 
will significantly enhance aviation security. We believe 
strongly that it can be done in a way that safeguards the 
rights of the individual passengers. We are aware that from 
time to time the sources of information that we would be using 
that are commercially available may not have, may not always be 
either complete or totally accurate, and trying to basically 
set up an algorithm or a system somehow that accepts that 
possibility and deals with it in a private nonintrusive way is 
certainly a part of the challenge we have with the system.
    Senator Wyden. Let me see if I can get one other question, 
but know that I'm anxious to work you on this. As you know, 
with the support of Chairmen McCain and Hollings, I was able to 
add legislation----
    The Chairman. The Secretary has to leave in about a half 
hour, so please make it quick.
    Senator Wyden. May I ask one other question?
    The Chairman. Yes.
    Senator Wyden. All right. One other question with respect 
to waste and inefficiency. This week the Los Angeles Times 
published a very disturbing story about possibly $250 million 
worth of waste at the TSA. And my concern is that given the 
fact that we've got this on the record with respect to TSA, 
your department is embarking essentially on very much the same 
sort of challenge, how to deal with tackling these issues in a 
very quick way with relatively few kind of precedents to deal 
with.
    How are you going to prevent at your agency similar kinds 
of problems that they saw at TSA involving hundreds of millions 
of dollars?
    Secretary Ridge. Well, first of all, Admiral Loy has 
withheld substantial payment to some of the--or to at least one 
of the contractors of which I'm aware, pending discussions with 
regard to their use of some of these dollars.
    Secondly, through our Undersecretary of Management, we look 
to establish our own acquisitions review committee and own 
auditing committee. And you know, there are some agencies 
within the Federal Government, DoD and others, that employ 
practices and have boards that we can look to for assistance, 
or at least for a template as we design an internal auditing 
mechanism ourselves.
    It was prompted, I think in large measure, by the speed 
required by meeting the mandates. That doesn't excuse it. That 
does explain in part why they ran out and secured contractors, 
probably with--again, I don't know the specific details of any 
or single one or all the contracts, but if you've got to get 
equipment in place and baggage screeners in place, and 
personnel screeners in place, and you've got less than a year 
to do it and you don't have the resources because at the same 
time you're setting up your own new department, you rely on 
contractors.
    And if we find that they've taken advantage of the contract 
language and have misused those dollars, we will fight to 
regain every penny. And as I said before, Admiral Loy has 
withheld payment pending our inquiry of their request for final 
payment.
    Senator Wyden. Thank you, Mr. Chairman.
    The Chairman. Senator Smith.
    Senator Smith.

                STATEMENT OF HON. GORDON SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman, and Mr. Secretary, 
welcome.
    The Chairman. Senator.
    Senator Smith. Mr. Chairman, I would ask an opening 
statement be included in the record.
    The Chairman. Without objection.
    Senator Smith. And I apologize for my late arrival. I found 
myself, Mr. Chairman, delayed in my departure from home glued 
to the television set, watching what I think is truly an 
historic moment, the coalition of the willing. And right now, 
Saddam Hussein's statue has a rope around it, an American tank 
is filled with cheering Iraqis who are for the first time 
tasting freedom. And I for one am thankful that we have a 
military as capable as this and a Commander in Chief that had 
the courage not to listen to Hollywood or the New York Times, 
or the French.
    [Applause.]
    Senator Smith. Some have predicted for every--that this 
action would create 100 Osama bin Ladens. I think today on the 
streets of Baghdad there are tens of thousands of new freedom 
fighters. It's a great American moment, and I celebrate that.
    You are part of an Administration now tasked with not just 
winning a conflict abroad but keeping us safe at home, Mr. 
Secretary. And I think we have just come through a supplemental 
last week where we were struggling to know just what your 
Department needed. Senator Hollings had an amendment, and I 
think well motivated, to add more money to port security. I 
think what I want to know is what's enough and what's too much, 
what is wise and what is unwise?
    And my question is, is what's coming out of conference, are 
you a part of that and is it enough to protect our ports?
    Secretary Ridge. Senator, we sent up a dollar amount that 
we thought was very appropriate for the needs, the short-term 
needs, because we took a look at the dollars that are available 
in many instances from previous appropriations, including the 
2003 budget. If you add it on to the request for the 
supplemental, and being of an optimistic sort, believing that 
Congress will get its appropriations bills completed this year 
by the end of the year, and looking at the budget request that 
I believe when it comes to Homeland Security at a very minimum, 
the Congress will honor, that in that continuum of those 
dollars available to mayors and to governors and to others, 
there was 7 to $8 billion.
    There were sufficient dollars for us to begin some of the 
critically needed demonstration and pilot programs that we need 
as we tackle some rather unique challenges with infrastructure 
protection both publicly and privately held.
    You've given us some reprogramming authority that we've 
begun to use already under the 2003 budget, to commence 
research in dealing with weapons of mass destruction 
countermeasures, dealing with means of technology of detection 
for biochem agents.
    So I think in the scheme of things as we set up the 
Department, looking at the flow of funds that we would have 
available to use this year, and to begin to develop our 
partnerships with the rest of the country, we felt it was 
adequate.
    We knew that we were on perilous ground and as a former 
Member of Congress, knew we were on perilous ground looking for 
a little flexibility on some of the appropriations, because as 
I well know, the Congress takes and holds very appropriately 
and very dearly its constitutional authority and responsibility 
to oversee the expenditure of every dollar. Therefore, there's 
a much stronger preference to the legislative branch to say to 
the executive branch, tell us specifically what you need and 
we'll give it to you.
    Well, we tried to provide some of that specific information 
but at the same time, I think obviously we were looking for 4 
or $500 million to deal with unanticipated needs in the next 
month or two.
    Senator Smith. And did you get that? Are you getting that? 
Are you confident you'll have sufficient funds?
    Secretary Ridge. We will deal with the dollars. I think 
we're going to get the dollars we wanted, probably not going to 
have quite the flexibility that we wanted. But again, when you 
set up the Department of Homeland Security, you gave us a 
little transfer authority and we do have a little wiggle room. 
And to the extent that we will be able to use it appropriately 
under the authority Congress has given us, it's our job to make 
it work.
    Senator Smith. Mr. Secretary, I appreciate knowing that, 
and I want you to know, we want to know what you actually need, 
because I think there is a lot of will on the part of the 
Congress to get you that. And obviously, we hope you won't ask 
for what is surplus. We've got to be careful with our budget.
    Secretary Ridge. Right.
    Senator Smith. But I would hope you would use these 
resources to address the tension that will exist between 
providing increased security in our ports without sacrificing 
efficiency in our ports.
    Portland, Oregon would cease to be a port if we make it so 
difficult to trade that its commerce is choked off. So whatever 
you can to do work with our trading companies to make sure--
because I know they are committed to security as well, so I'm 
pleading with you to look for opportunities to provide for the 
security of the American people without sacrificing the 
efficiency of American commerce.
    Secretary Ridge. That's our challenge, and I think working 
with Congress we will be able to meet it.
    If I might just comment, Senator, your colleagues Senator 
Breaux and Hollings also talked a little about the dollar 
figure. And what I would like to share with you and with the 
Chairman and other Members of the Committee, I do think that 
it's one thing to say to our first responders and to our 
governors and our mayors, here's a sum of money, and feel 
comfortable about the dollar amount.
    I do think that it will be important for the Department to 
work in a bipartisan way with the Congress to see to it, 
particularly around the 2004 budget, that the formula by which 
billions of dollars are presently allocated to states and 
locals is reviewed and modified so that it can reflect the 
threat and vulnerability in the critical infrastructure 
responsibilities that states and mayors have. So I think a lot 
of the dollars we're going to distribute through a formula 
that's been in existence for three or four years through the 
Office of Domestic Preparedness, but I've talked in both 
chambers and to leaders of both parties, I think it would do us 
all well if we sat down and thought reflectively, is there a 
better way to get these dollars out, and to target them more 
specifically to meet the needs of the country.
    Senator Smith. Thank you, Mr. Chairman.
    [The prepared statement of Senator Smith follows:]

   Prepared Statement of Hon. Gordon Smith, U.S. Senator from Oregon
    Thank you Mr. Chairman for holding this very timely and important 
hearing on the status of transportation and border security. I would 
like to welcome Secretary Ridge before us today.
    Secretary Ridge, I want to commend your efforts as you merge 22 
agencies into ``one'' Department of Homeland Security to provide a 
unified structure capable of responding to current and future threats. 
As your Department works to provide the necessary federal funding for 
airport and seaport security, I want to emphasize the importance for 
your Department to address the specific security and funding needs at 
the local level.
    I also wanted to bring to your attention some specific issues that 
are important to me and my state of Oregon:

    (1) Trade industries in Oregon are very serious about their sense 
of duty to make our homeland safer and they are working diligently to 
prepare and implement the proposed security legislation, particularly 
on cargo security. As you continue the regulation process 
(specifically, the electronic transmission of cargo information prior 
to arrival as required in the Trade Act of 2002) in order to implement 
it without delay, it is imperative that your agency continue to work 
with the trade industry and implement a realistic business model that 
provides an efficient flow of commerce to the United States, while 
keeping our shores safe and secure.

    (2) Mr. Secretary given your background in state government, I know 
that you are keenly aware of the need for training at the state and 
local level and hope you agree that there is a significant need for 
training the men and women who lead our nation's first responders. I 
believe you are aware of a program in Oregon called the National Center 
for Disaster Decision Making which trains senior civilian leaders (like 
mayors, governors, emergency management officials) to address critical 
decisions during a crisis and encourage your Department to provide the 
necessary funding to continue this important partnership with NCDDM.

    Thank you Mr. Chairman.

    The Chairman. Senator Breaux.
    Senator Breaux. Thank you, Mr. Chairman, for having the 
hearing, and thank you, Mr. Secretary, for being with us. I too 
would join others in an unanimous statements about the good job 
that you're doing and the support that we have for the 
importance of your tasks.
    I share with Senator Smith the good news out of Iraq, the 
men and women and the good work that they are doing there. 
However, I do feel that after that conflict over there is over, 
we are going to be much more vulnerable over here because 
people who are unsuccessful in Iraq will look to the United 
States as an opportunity to get revenge and to do more types of 
terrorist activity over here, and unconventional types of 
warfare. So your duties and your responsibilities, and all of 
our responsibilities, are going to increase after the war over 
there is over, and we have to fight the fight here in this 
country against terrorist type of activities. I'm very pleased 
that you are at the helm of the ship.
    With regard to port security, this Congress has instructed 
the Coast Guard to be the lead agency in coming up with port 
security plans for every major port in the United States. It is 
my understanding that work is ongoing but that the Coast Guard 
in fact is behind schedule. Can you bring us up to date on 
where we are with those port security plans?
    Secretary Ridge. I think your information is accurate with 
regard to, and I think Senator Hollings mentioned it as well. 
The Coast Guard has been tasked, therefore the Department of 
Homeland Security has been tasked with port vulnerability 
assessments. We've taken a look at the immediate larger 55 
strategic ports. I can't tell you whether or not they're on 
Admiral Collins' time table. I do know that he wants to 
accelerate that time table.
    You have given--well, you haven't done it yet, but in the 
2004 budget, we have a request in the area of information 
analysis and critical infrastructure protection for a sum in 
excess of, I think $800 million. And if we could add or--some 
of those dollars we want to direct to the Coast Guard so they 
can speed up their vulnerability assessments pursuant to the 
responsibilities given to them under the Maritime 
Transportation Security Act.
    Senator Breaux. That's exactly what we were trying to do in 
the supplemental, which was not successful. They say some of 
that money needed to be directed to domestic port security and 
operations here. And apparently you're requesting now in the 
2004 budget money for increase in domestic operations?
    Secretary Ridge. Well, what was done I think, and I think 
it's a fairly good decision, TSA wanted some critical 
infrastructure vulnerability, the Coast Guard wanted it, and we 
just aggregated the sum. I think it's in excess of $800 million 
that would go to that. And then based on needs, et cetera, we 
would sit down with these different leaders of the different 
units and allocate some of these dollars so they can continue 
their vulnerability assessment studies.
    Senator Breaux. Well, it's high priority and it really 
needs to get done.
    Maybe you can clear up for me the conflict between the law 
establishing the Department of Homeland Security that provides, 
the Border and Transportation Security Directorate will be 
responsible for, among other things, Number 2, for securing the 
borders, the territorial waters, the ports, the terminals, the 
waterways, and air, land and sea transportation systems of the 
United States. I think Asa Hutchison and Admiral Collins have 
both indicated that the Coast Guard is the lead federal agency 
for maritime homeland security. The law seems to say border 
patrol, sea transportation, maritime waterways, terminals.
    I mean, I'm not sure we gave a very clear direction. I 
think the intent certainly was to have the Coast Guard do the 
ports, waterways, and sea security. Is that your understanding?
    Secretary Ridge. That's correct. That is our understanding. 
It is the lead agency, but they have a collaborative 
responsibility to work with the Border and Customs Protection.
    Senator Breaux. But you've got to have someone in charge. 
Is that the Coast Guard?
    Secretary Ridge. The primary responsibility for ports and 
maritime domain awareness is the Coast Guard.
    Senator Breaux. Yeah, because they could cooperate with 
everybody but if everybody is in charge, as I've said, nobody's 
in charge.
    Secretary Ridge. Nobody's in charge if everybody's in 
charge.
    Senator Breaux. I've heard some terrible rumors which I 
hope you can disavow me of, that the Department of Homeland 
Security has been discussing plans to move the 8th District 
Coast Guard from New Orleans to somewhere else. And also, the 
17th Coast Guard District out of Aleut, Juneau, and Alaska. I 
will assure you that if those rumors are true, you're going to 
be in for a real dogfight. Are they true or not?
    Secretary Ridge. We've had to deal with a lot of rumors 
these past months, and I don't believe there is any validity to 
either one of those.
    Senator Breaux. I won't even go any further, thank you.
    I think that--oh, my last question.
    Secretary Ridge. You know, where that may have come up, and 
I want to--there had been an inference, because we have talked, 
Senator, about the need to reorganize some of these units that 
come into the Department out there on a regional basis, because 
we don't believe you can secure the homeland from Washington, 
DC So as we take a look at some of the agencies that are 
working, for command and control purposes and coordination 
purposes, we are thinking in terms of regions.
    But that is, in that context there may have been some 
people who interpreted that as meaning that we were going to 
move Coast Guard infrastructure and personnel from present 
venues. And I assure you, that is not in the plan.
    Senator Breaux. Well, I appreciate that. I agree with the 
regional concept out of Washington is a good concept, I agree 
with that.
    Final question. Admiral Loy had told us at one time that 
they were discussing and actually promoting the concept of a 
frequent flyer card for airline passengers that fly on a 
regular basis that have submitted themselves to some type of a 
security background check.
    I cannot tell you, I mean it must be my face or something, 
Mr. Chairman. I mean, every time I'm there, my luggage is 
completely totally looked through and searched. And I would 
never ever say, look, I'm a Member of the United States 
Congress, don't do this. I mean, I just sit there and bear it 
but never say anything about it. But it seems like it's sort of 
a waste of time if we're spending a lot of time doing those 
type of investigations with people who would clearly hopefully 
pass a security check.
    Is there anything that we're doing in that regard to try 
and speed up so that we really are spending the time in areas 
that we need to and less time on things that perhaps would not 
be a priority to this type of security card or frequent flyer 
type thing?
    Secretary Ridge. Senator, the program that you referred to, 
we talked internally as a trusted traveler program, where 
passengers who fly regularly come forward, share information 
about them. Reasonable people can draw conclusions that chances 
are very very good that these individuals are not terrorists or 
a threat to aviation security in any way. That will give us an 
opportunity to focus our technology and our human resources on 
those people and that luggage that we don't know anything 
about. So that is an initiative that is presently being worked 
within the Department.
    Senator Breaux. I would encourage you to continue. Thank 
you.
    The Chairman. Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. I certainly 
concur with the line of questioning of Senator Breaux, both on 
the trusted traveler program, which we have discussed would be 
a great way to expedite lines.
    And also, I talked to Admiral Loy about getting the ability 
for accompanying people to take a passenger inside the 
terminal, now that things seem to be settling down. As long as 
longer lines aren't formed, it would be, I think, a comfort to 
passengers to be able to take someone in and have a meal.
    Now I know some airports have meal capabilities outside, 
but some don't. So, I hope that you will be looking at allowing 
people to be accompanied. It would make traveling a better 
experience.
    I wanted to talk particularly about the explosion detection 
equipment situation for checked baggage. We had a deadline of 
last year, and most airports were able to meet the deadline for 
screening checked baggage. However, there were a few that 
didn't, and Congress passed a law that gave a one-year 
extension to those that were designated by Admiral Loy. Now 
many of those airports are trying to make the investments that 
would allow them to meet the deadline of this year, and they 
have not been able to get letters of intent from Admiral Loy.
    I would like to ask you if the Department is going to be 
helpful to these airports to meet the deadline, or do you think 
that it's not a priority to meet the deadline, and what are you 
going to do?
    Secretary Ridge. Senator, it is very much a priority of the 
Department and of Admiral Loy's, I believe right now. When it 
comes to aviation security, there isn't a higher priority, 
because we still have the mandate to get it done in a certain 
period of time.
    I would just share with you that he has been, or we have 
been working together, taking a look at what assets we might be 
able to provide him within the Department, as well as working 
with OMB and others to see if we can secure the necessary 
fundings so we can get those letters of intent out.
    So it's a very high priority, we're working on it as you 
and I are speaking today.
    Senator Hutchison. Well, thank you. I put language in the 
Senate Supplemental Appropriations Bill that said the TSA would 
be empowered to issue Lois or report to the Committees of 
jurisdiction why they are unable to do so. I would like to ask 
you if you support that and would think that would be a good 
thing, to either give you the power to do it, or tell us why 
you can't.
    Secretary Ridge. Well, I think, Senator, that language 
reflects both the intent of the pre-existing legislation and 
the requirement imposed on us, and I think you ratify it with 
that language. Because if we don't get the job done, we're 
going to be accountable to you, and our first goal is to get it 
done in a timely way and meet the requirements from Congress.
    Obviously you hold us accountable if we don't, but it's 
something that Admiral Loy is very very much, personally 
involved in, well aware of the financial commitments that some 
of the larger airports have to make, and their ability to go to 
the market to borrow the dollars necessary to install the 
equipment is contingent upon getting the letter of intent. 
We're making every reasonable, and I think appropriate effort 
to accomplish this task here in the very near future.
    Senator Hutchison. Thank you. I very much appreciate you 
saying it is a priority, because it certainly is for this 
Committee.
    I'd like to switch gears, if I could, to the border 
security. With the passage of the Border Security Act last 
year, non-immigrants are required to have a biometric visa, and 
I'd like to ask you how that program is working. And the fees 
have been increased now from $65 to $100 for the machine 
readable visas and I just would like to ask you if you think 
it's working, if the increase in fees has slowed down the 
number of people able to get that visa, and is it something 
that we're looking at for the long term?
    Secretary Ridge. I cannot answer specifically today whether 
the additional fee has had any impact on visa applications, and 
I will get back to you with that information.
    I will tell you in a larger context, the whole entry-exit 
system that Congress has mandated and we certainly embrace, it 
was an initiative the President embraced, will be--it's the 
right thing to do. It's a technological challenge. You've given 
us a couple of mandated time frames. The entry-exit system says 
for seaports and airports, we have to have that system in place 
with that biometric identifier by the end of the year and at 
the 50 largest land crossings by the end of next year, and the 
balance of the system by the following year.
    So we have, Asa Hutchison has pulled together an 
integration team from the other subunits within his department 
that have to focus on this, including a technology component. 
There's some policy issues that are relevant that ultimately, I 
think, end up being discussed within the executive branch and 
with the legislative branch.
    You know, we do have countries that are visa waiver 
countries, we don't require visas. But we are going to require 
biometric identifiers. So it's conceivable that sovereign 
countries out there that are visa waiver countries may or may 
not have a biometric identifier of the kind that we want on 
their passport. So there's some discussion, and some decisions 
have to be made by this government as to whether or not visa 
waiver countries, that whole process will continue to exist.
    So as we identify the programmatic challenges, the 
technological challenges, we will engage in very serious and 
necessary discussions with you and your colleagues who have 
promoted this approach, which I think Americans embrace. The 
notion that we need to know that the folks who come into our 
country are those who they say they are, they stay here for 
whatever time they are privileged to stay. And we are a nation 
of immigrants, so we want to continue to be open and welcoming. 
But when the time is expired, that we monitor the exit.
    Additional challenges with the migration from Mexico. We 
need to think about that. Post 9/11, the borders with Mexico 
were backed up, commercial traffic, pedestrian traffic. Now we 
do get some fingerprints from visa applicants from Mexico, but 
we have to be conscious of the fact that if you have several 
hundred million citizens going back and forth across the border 
on a daily basis for school, for work, for play, for family 
reasons, do we want every single person on every single day, 
every single occasion they cross, to be stopped so that we can 
confirm their biometric identifier? Do we take the 40 people 
out of the passenger bus, stop it and identify it?
    So we have some real challenges here that I'm confident 
that working with Congress we can address. But the entry-exit 
is a good system, it's necessary. We've mandated and made some 
time tables, but we have some policy issues we have to work 
through, and we do.
    Senator Hutchison. Well, thank you, Mr. Chairman. And I 
want to say, I think that exercising caution rather than 
opening things up at this point in the security of our country 
is the wise thing to do. Thank you.
    The Chairman. Senator Lautenberg.

              STATEMENT OF HON. FRANK LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Mr. Chairman, I don't know how much 
time Secretary Ridge has got, but----
    The Chairman. You have five minutes.
    Senator Lautenberg. Okay. So I would ask, therefore, Mr. 
Chairman, that my full statement be included in the record.
    The Chairman. Without objection.
    Senator Lautenberg. And I would just make this point. And 
that is, it's obvious we've come a long way, and I commend you, 
Mr. Secretary, for the work you're getting done even as you 
build this organization. It's going to be recorded in history 
because I'm sure it will get done, but how it gets done is 
going to be a very interesting study. But keep going, and don't 
weaken along the way here.
    We are concerned not only in the State of New Jersey, which 
by any measure is a highly vulnerable place, the transportation 
hub that we are, whether it's on highways, whether it's 
aviation, with Newark Airport being one of the largest in the 
country, or huge port activity, one of the largest container 
ship transfer stations in the world. So we've got to pay 
attention to those other modes of transportation as well, and I 
hope that we will have a chance to discuss that at another 
time.
    But it points out a problem that we have, and I was looking 
at a previous Committee hearing, at the list prepared by ODP of 
the distribution of the funds thus far. And what we found as I 
looked at it is there's a strange anomaly, a difference in the 
way states are allocated funds, because we go from--this is by 
way of example and not to pick on any state, but the equivalent 
of $9.78 per person security grants to the State of Wyoming, 
but only the equivalent of $1.69 per person to the State of New 
Jersey, when the average is $1.98 throughout the country.
    And now if you consider the risks of the two places, the 
risk exposure, it's pretty obvious that New Jersey is a place 
that has to be wary. We lost 700 of our citizens on 9/11.
    So, I would ask, and I understand that by sheer coincidence 
I interviewed a fellow who works for you in the elevator, we 
happened to be there at the same time, and I mentioned this. He 
was very quick. He's at the White House. And he said that it's 
a problem that you're looking at to try and assess more 
clearly, the needs and the exposure in a particular state or 
particular area.
    And I wonder if I can just ask you, is that a fact and is 
that in the loop?
    Secretary Ridge. Senator, the Office of Domestic 
Preparedness that previously had been in the Department of 
Justice had a formula that we don't believe is the appropriate, 
provides the appropriate distribution for counter-terrorism, 
anti-terrorism prevention dollars. And I talked to the leaders 
of both parties in both chambers. I think this is an 
opportunity for the Congress to work together in a bipartisan 
way to fashion a different distribution mechanism.
    The formula as it exists now does not take into 
consideration critical infrastructure whether it's private, 
whether they're federal, whether they're national icons. The 
formula doesn't really take in threat or vulnerabilities. So I 
think it's an appropriate time for us, we had talked, thought 
about trying to do something like this in the supplemental, but 
I think this is going to be--it may be a little contentious 
because some people obviously with a new formula are going to 
get a little bit more, and some people are going to get a 
little bit less. And when you're appropriately down here, you 
fight for as much as you can for your state or your community.
    So I suspect that reconstituting the ODP formula or coming 
up with something new is something that we hope to achieve some 
bipartisan support and get it done and then attached to the 
2004 appropriations. So, we make a permanent change so that 
distribution reflects the reality of the needs of communities 
to combat terrorism.
    Senator Lautenberg. Thank you, Mr. Chairman. Thanks, Mr. 
Secretary.
    [The prepared statement of Senator Lautenberg follows:]

             Prepared Statement of Hon. Frank Lautenberg, 
                      U.S. Senator from New Jersey

    Mr. Chairman, I think we have come a long way in bolstering 
aviation security since September 11th, although I would note that we 
still have to complete the task of deploying explosive detection 
equipment at a number of airports.
    But I am very concerned that we are not doing enough to protect 
other modes of transportation--particularly surface transportation--and 
port security.
    This is a major problem in my home State of New Jersey.
    New Jersey contains many vital elements of our nation's intermodal 
transportation system which are vitally important to the national 
economy. For instance:

 <bullet>   Port Newark is one of the biggest container ports in 
        America, handling $82 billion worth of cargo in 2001;

 <bullet>   The Northeast Rail Corridor serves 23.9 million people on 
        the only high-speed rail line in the country;

 <bullet>   The I-95 corridor is a vital passenger and freight link for 
        vehicular traffic spanning the length of the East Coast;

 <bullet>   Hazardous materials move in and out of New Jersey's ports, 
        through pipelines, and over our roads and freight rail lines. 
        Millions of people live near these facilities, which are 
        vulnerable to a terrorist attack.

    The State of New Jersey has had to step up security in a number of 
ways, like putting more police officers on patrol on trains and 
increasing K-9 patrols to detect explosive devices. These tasks cost 
the State money--money the State doesn't have because of the current 
fiscal crisis.
    Since the war with Iraq began, New Jersey has spent an additional 
$125,000 each day to deploy National Guardsmen and women and State 
Police at the State's bridges, tunnels, airports, ports, nuclear power 
plants, and railways to help increase security levels.
    These are just a few of the vulnerabilities and problems that 
concern me. I hope that Secretary Ridge will agree that while we have 
made some improvements with regard to transportation and border 
security, we still have a long way to go.
    I hope that Congress and the Administration can work together to 
ensure that DHS has the resources it needs to carry out this vital 
mission properly.

    The Chairman. I thank you, Senator Lautenberg, and I would 
like to add my voice to that. We've got to prioritize on your 
estimate of the basis of the threat, as opposed to any 
artificial formula, and I look forward to working with you on 
that. I think the Senator from New Jersey makes a very 
important point, and we would certainly appreciate your input 
into that process.
    And by the way, there's an additional area of concern that 
you have. As you know, we passed an appropriations bill that 
was entitled to fight the war on Iraq and homeland security. 
You might have a big problem down at the South Pole, because we 
put $10 million in for the South Pole, and you might want to 
consider that area of concern because we had to add $10 million 
to the Supplemental Appropriations Bill for the South Pole. 
Those penguins might have an al Qaeda cell down there, who 
knows?
    So, I thank you for coming, Secretary Ridge, and Senator 
Hollings would like to make a comment.
    Senator Hollings. The National Security Council under 
President Truman instituted for international threats, were the 
Secretary of Defense, Secretary of State. Now Condelleeza Rice 
is not near as steeped in domestic homeland security as you as 
a former governor, and the Chief Law Enforcement Officer for 
years there in Pennsylvania.
    I hope you are meeting with the National Security Council 
whenever they meet, because in fact we had an amendment that 
just missed by two votes that were absent at the particular 
time, to by law put you on the National Security Council. So, 
there is no use to have all of this and have your knowledge and 
awareness and everything else like that, and still treat the 
National Security Council like we don't have a terror war here 
at home. And I hope you continue to meet with that council.
    The Chairman. I see that--I know your time is limited. 
Senator Dorgan arrived. Senator Dorgan, would you like to make 
a couple of comments or ask a question?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, I recognize that there's 
nothing quite so annoying as someone coming in at the last 
minute but I have been over, we have been marking up an energy 
bill in the Energy Committee and I was unable to be here.
    Senator Wyden, I think, raised one of the issues that we've 
talked about with respect to some waste issues, and I know 
you're taking a look at that. I think this is an agency that is 
at some high risk and is going to require a lot of attention on 
those issues.
    Mr. Ridge, I am pleased at the President's choice. I mean, 
I think you are the right person in the right place here, and I 
look forward to working with you.
    I did want to mention, if I could, just one point, and that 
is border security. The 4,000-plus mile border we share with 
Canada is a big old border and we have had few resources up 
there for a long time. We've now added some more, but 
terrorists will look for the weakest link to get into this 
country. I want to work with you, both using resources, human 
resources and also technology, because I think a country has to 
control its borders, especially given the kind of threat of 
terrorism we have, and I want to work with you on that. I think 
it's a daunting challenge.
    But, Mr. Chairman, you know on the southwest border, we've 
had something like 10,000 border patrol, and on the northern 
border we had 500. Well, the reason for the 10,000-500 is 
because for years we were dealing with immigration and drugs 
and so on, and we had that difference in resources.
    But with respect to terrorists, they will find the weakest 
link and we have to control our borders. I know that you have 
had a lengthy hearing, Mr. Chairman, and I thank you for 
offering me a moment to say a few words and just say to Mr. 
Ridge, I'm glad you are where you are and I look forward to 
working with you on these border issues especially
    Secretary Ridge. Mr. Chairman, if I might comment. First of 
all, the Congress has provided resources, I think under the 
Patriot Act, to boost the border patrol at the northern border 
up to about 1,600. And I think with funding, we're about 80 to 
85 percent there. So we're working toward, I think, the very 
appropriate increase in manpower.
    Senator McCain and I have had an interesting discussion 
about the application of some military technology in a 
nonmilitary but in a surveillance kind of way, these unmanned 
aerial vehicles. We think Asa Hutchison and the Border Patrol 
people think there's a good application there.
    Interestingly enough, the Coast Guard in its deep water 
acquisition program, has a--and I have to be careful how I say 
this, but an Osprey like device that actually lifts off the 
Coast Guard cutter and is eyes over the horizon as well.
    So we think more technology will be critical to enhance 
security and frankly, making the manpower that you put on the 
border even more effective.
    And finally, I think you should know and if you care for a 
more detailed briefing, we would certainly be prepared to 
provide it, several months ago when I was in the office, while 
I was in the White House as assistant to the President, the 
President directed our shop to look at the border issues and 
develop smart border agreements with our friends to the north 
and the south. And my counterpart, Deputy Prime Minister John 
Manley and I have worked well over a year on a 30-point accord 
that enhances security but also tries to facilitate commerce 
and the legitimate flow of goods and people.
    There are tremendous improvements we made already, running 
some demonstration programs based on information shared by 
passengers as well as supply chain security measures, so that 
we have dedicated land. So if we know something about you, we 
know something about the contents of your truck, and as a 
private sector company you've agreed to certain protocols, 
based on information risk at the border.
    We've begun that same kind of initiative with the 
government of Mexico, and I will be meeting with my counterpart 
Santiago Creel, Minister Creel in a couple of weeks, to further 
the collaborative effort that I think all three of us need to 
significantly to work on to secure our own perimeters.
    We've made a lot of progress. We still have more work to 
do, but I think we need to engage the governments of both 
Canada and Mexico in order to maximize our effectiveness at the 
border.
    Senator Dorgan. Mr. Secretary, that's very helpful. Did 
someone ask whether--on television, on the news this morning 
they indicated that the Administration or you are looking at 
the potential of reducing the threat level indication at this 
point. Has the threat diminished at this point?
    Secretary Ridge. There was an article. I was asked 
yesterday at a briefing with regard to the urban security 
initiative, whether or not we were prepared to reduce the 
threat level and to phase back Liberty Shield. I said we do 
have plans in place to pull back on Liberty Shield, we have a 
sequencing arrangement but we're not prepared to do it yet, 
it's just the kind of assessment we make on a daily basis, and 
until such time as not only the intelligence community, but 
there's a consensus among the different agencies that we can 
pull back on security, we're going to keep it orange and keep 
Liberty Shield at full force.
    Senator Dorgan. Is the threat lessening at this moment, in 
your view?
    Secretary Ridge. Not enough to, in our judgment, and again, 
it's an assessment we make every day, and it's never a single 
day's assessment that causes us to pull back. But we monitor 
the information we get from multiple sources, and I'm confident 
sometime in the future we will reduce and then eliminate 
Liberty Shield, and adjust the national threat warning system, 
but not today.
    Senator Dorgan. Mr. Chairman, thanks for your courtesy.
    The Chairman. Thank you, Secretary Ridge, and we hope to 
work with you in the future.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. John McCain to 
                             Hon. Tom Ridge

General Questions
    Question 1. What are the greatest challenges facing the Department 
of Homeland Security today?
    Answer. The Department has made great strides in the few months 
since its creation. However, our main challenges consist in ensuring 
that the flow of commerce is not disrupted by steps we take to prevent 
terrorist attacks, reduce vulnerabilities, and improve our ability to 
respond; determining how best to leverage available resources to 
address the security gaps; ensuring smooth integration of departmental 
components while maintaining the quality of services provided by those 
components; and ensuring that proper coordination is taking place with 
departmental components and the variety of federal, state, local and 
private industry partners with whom we share responsibility for 
ensuring the security of the homeland.

    Question 2. The Department of Homeland Security has received a 
great deal of criticism over the last several weeks from Members of 
Congress regarding the lack of justification accompanying its FY 2004 
budget request as well as the FY 2003 supplemental request.

        a. Why has the Department had such difficultly providing this 
        information to Congress?
        Answer. We are trying to provide information to the Congress in 
        a timely manner. The transition of the 22 disparate DHS 
        components under one DHS umbrella occurred after the release of 
        the FY 2004 President's Budget. DHS is a new organization; we 
        are still evolving. Several organizations did not exist prior 
        to the creation of the Department. Moving forward for the mark-
        up of the FY 2004 Appropriations bill as well as the FY 2005 
        budget, we hope to be able to work with Congress in a 
        collaborative manner to effectively manage and fund this 
        organization.

        b. Have any budgetary savings been realized yet as a result of 
        the consolidation of the agencies in the new Department?
        Answer. It is too early to assess any real cost savings due to 
        the transfer of the 22 separate agencies under the DHS umbrella 
        on March 1st. As with any type of consolidation, we do 
        anticipate cost savings from shared services between the 
        organizations. We will be constantly reviewing and reassessing 
        areas of improvement and cost savings and will reflect those 
        types of savings in future budgets to Congress.

    Question 3. As part of the transition to the DHS, incoming agencies 
identified numerous problems areas that would require new agreements 
with other federal agencies to resolve such problems. For example, 
prior to moving the DHS, the Transportation Security Administration 
determined that it would need a new agreement with the Federal Aviation 
Administration to continue their existing working relationship. While I 
understand such an agreement has been signed, I understand very few 
others have been signed. What is delaying the completion of memorandums 
of understanding between DHS and other federal agencies?
    Answer. The Department is actually making quite a bit of headway in 
establishing memoranda of understanding with other federal agencies and 
departments (a list is included below). However, as you can imagine, 
the issues and questions that must be resolved as the Department takes 
on its new statutory responsibilities are quite complex and these 
agreements should not be reached in haste. We are working very 
cooperatively with other federal agencies, some of whose 
responsibilities have been given to DHS (for example, the Departments 
of State and Transportation), on both a programmatic and operational 
level until we can complete the drafting of such memoranda as are 
necessary. In addition, the Department has entered into a number of 
MOUs with other executive branch departments that provide 
administrative services to various DHS components. Most of these 
departments are former parental agencies of DHS components. The 
services provided under these MOUs include such things as payroll 
processing, and IT support. These MOUs are effective until the end of 
the fiscal year and include MOUs with the following departments: 
Agriculture; EEOC; GSA; HUD; DOJ; State: Commerce; Energy; HHS; 
Interior; OPM; DOT; Treasury; and DoD.

        a. What agreements have been completed and what remains to be 
        done in this area?
        Answer.

         MOU between DHS, DOJ and CIA
         Signed by Secretary Ridge on 2/28/2003, Attorney General 
        Ashcroft on 3/4/2003 and CIA Director Tenet on 3/4/2003.

         Subject: MOU between the Intelligence Community, Federal Law 
        Enforcement Agencies, and The Department of Homeland Security 
        concerning Information Sharing.
         MOU between DHS and DOJ/FBI
         Signed by Secretary Ridge on 2/28/2003 and Attorney General 
        Ashcroft on 3/4/2003.
         Subject: MOU between DHS and DOJ/FBI regarding the Domestic 
        Emergency Support Team (DEST) Program.
         MOA between DHS and USDA
         Signed by Secretary Ridge on 2/28/2003 and Secretary Veneman 
        signed but not dated.
         Subject: MOA between DHS and USDA to transfer certain 
        agricultural import and entry inspection functions to the 
        Secretary of Homeland Security from the Secretary of 
        Agriculture.
         MOA between DHS and DOE
         Signed by Secretary Ridge on 2/28/2003 and Secretary Abraham 
        on 2/28/2003.
         MOA between DOE and DHS establishes a framework for DHS to 
        access the capabilities of various DOE assets.
         MOA between DHS and HHS
         Signed by Secretary Ridge on 3/5/2003 and Secretary Thompson 
        on 2/28/2003.
         MOA between HHS and DHS concerning cooperative arrangements to 
        prevent, prepare for, and respond to terrorism and major 
        disasters.
         MOU between DHS and DOJ
         Signed by Deputy Secretary England on 4/17/2003 and Deputy 
        Attorney General Thompson on 5/13/2003.
         Subject: MOU INTERPOL: Memorandum of Understanding (MOU) 
        between Department of Homeland Security and Department of 
        Justice pertaining to U.S. membership in the International 
        Criminal Police Organization (INTERPOL) and related matters.
         MOA between DHS and DOJ
         Signed by Secretary Ridge and Attorney General Ashcroft--both 
        signed on 5/13/2003.
         Subject: Memorandum of Agreement between the DOJ and DHS 
        concerning terrorist financing investigations.
         MOA between DHS and DoD
         Signed by DHS Under Secretary Janet Hale on 5/1/2003 and 
        Samuel Cox on 4/21/2003.
         Subject: MOA between DoD and DHS for DoD personnel support 
        services to DHS.
         MOU between DHS and USDA
         Signed by Secretary Ridge and Secretary Veneman on 6/6/2003.
         Subject: MOU between DHS and USDA relating to the transfer of 
        the Plum Island Animal Disease Center (PIADC) from USDA to DHS 
        on 6/1/2003.

        TSA and FAA signed a Memorandum of Agreement (MOA) on February 
        28, 2003. The MOA sets out the general principles of 
        cooperation and consultation that will serve as a guide to 
        relations between TSA and FAA. In addition, in a February 27 
        letter to TSA Administrator James Loy, Secretary Mineta 
        established that the principles in the TSA/ FAA MOA should 
        guide the interagency relationship in the case of the other 
        modes. Admiral Loy responded and agreed. The MOA construct 
        allows us to retain this DOT connection and coordination. As we 
        move forward, TSA and DOT will benefit from continued close 
        cooperation in the areas of security-related legislation, 
        rulemaking, and budget development.

    Question 4. One of the lessons learned from the terrorist attacks 
of September 11th was that there needs to be greater communication and 
coordination between agencies responsible for border security 
enforcement.

        a. How will you use the new mandate of the Department of 
        Homeland Security to ensure this takes place?
        Answer. The creation of the Department and inclusion of 
        agencies responsible for border security has provided us with a 
        tremendous opportunity to improve communication among those 
        agencies, first and foremost, by bringing them into the same 
        organizational umbrella. Specifically, having officials from 
        both the Coast Guard and the agencies within the Border and 
        Transportation Security Directorate at the table as policies 
        and programs regarding border security are developed has been 
        enormously helpful in ensuring better communication and 
        coordination among those agencies. In addition, one of the 
        first steps undertaken by Under Secretary Hutchison after his 
        confirmation was to reorganize the agencies within the Border 
        and Transportation Security (BTS) Directorate with 
        responsibility for border inspections and investigations. That 
        reorganization has resulted in the creation of U.S. Customs and 
        Border Protection (CBP), which includes inspectors from the 
        legacy Customs Service, Immigration and Naturalization Service 
        (including the Border Patrol), and Animal and Plant Heath 
        Inspection Service, and personnel from the Border Patrol; and 
        Immigration and Customs Enforcement (ICE), which contains 
        investigators from Legacy Customs and INS and the Federal 
        Protective Service. The goal of this reorganization is to align 
        the functions of each component agency with its counterparts in 
        the other, streamline operations and communications and 
        coordinate closely with other DHS components like the Coast 
        Guard. The ultimate goal is to provide ``one face'' at our 
        ports of entry to those seeking to enter or transport goods and 
        to federal, state and local officials from border communities 
        to the north and south.

        b. Have you developed new strategies to increase the 
        coordination of the DHS with state, local, and tribal law 
        enforcement agencies, in order to ensure greater cooperation in 
        stemming the illegal crossings of the border?
        Answer. The U.S. Border Patrol, now part of the CBP, has 
        developed a strategy for coordinating with state, local and 
        tribal law enforcement.

        The Office of Border Patrol works closely with other state and 
        local law enforcement through Project North Star, and 
        Integrated Border Enforcement Teams (IBETs) and Integrated 
        Marine Enforcement Teams (IMETs). IBET(s) have established 
        working groups and coordinated their efforts with Project North 
        Star, in identifying various cross border issues, to include 
        training, carrying firearms, communications and inter-
        operability, and intelligence. Other concerns include human 
        resources, increased infrastructure, low volume Ports of Entry, 
        and sovereignty issues. One example of coordination with state 
        and local law enforcement was the CBP Offices of Border Patrol 
        and Field Operations coordinated with New York law enforcement 
        officers to incorporate 120 New York State Troopers into border 
        security efforts at and between the ports. State Troopers will 
        serve in a supporting role to front line activities. Along the 
        Southwest Border, Border Patrol participates in High Intensity 
        Drug Trafficking Area (HIDTA) units, multi-agency efforts to 
        coordinate, share information and conduct joint enforcement 
        operations to thwart drug trafficking.
        In addition Border Patrol continues to develop and strengthen 
        working relationships and cooperation between Border Patrol and 
        Native American law enforcement personnel. Border Patrol agents 
        have been working with Native Americans on an ad hoc basis 
        since the Patrol was established more than 75 years ago, and 
        the Office of Border Patrol (OBP) is proud of its tradition of 
        working with Native American tribal police towards border 
        security. In January 2002, the USBP sponsored the first ever 
        U.S. Border Patrol--Native American Border Security Conference. 
        Since the January Conference, USBP Sectors have been actively 
        engaged in supporting the Native American Law Enforcement 
        Agencies that fall within their areas of responsibility (AOR). 
        Border Patrol sectors have established sector liaison officers 
        who set up and maintain a regular scheduled meeting with their 
        Native American counterpart(s). A key initiative in these 
        meetings is the emphasis on our commitment to better liaison, 
        cooperation, training, intelligence and resource sharing. 
        Border Patrol has also conducted IBET operations with the 
        Turtle Mountain Tribal Police in North Dakota and with the St. 
        Regis Mohawk Tribal Police in New York. Of special note is the 
        work towards an initiative with Tribal law enforcement to 
        create a Mobile Training Team (MTT) to include BORTAC, the 
        Border Patrol Advanced Academy, and the Bureau of Indian 
        Affairs Indian Police Academy. The MTT will provide a more 
        consistent training program when responding to requests for 
        training on Native American Lands. BORSTAR training has been 
        planned for the Tohono O'odham Nation this summer on search, 
        rescue, trauma and desert survival techniques.
Surface and Maritime Questions
    Question 1. Several sectors of the transportation industry have 
suggested that federally mandated security regulations are not 
necessary and that ``voluntary compliance'' would serve the same 
purpose. I also note a recent Washington Post article that reports the 
Administration is pursuing ``voluntary compliance'' to increase 
security at our nation's chemical plants.

        a. Do you believe ``voluntary compliance'' can work to 
        sufficiently increase security in the various transportation 
        modes and in industries such as chemical manufacturing?
        Answer. Our experience in implementing Operation Liberty Shield 
        security procedures has shown that ``voluntary compliance'' can 
        work to increase security in the various transportation modes 
        and in industries such as chemical manufacturing. However, such 
        a voluntary system raises concerns that sustainability, 
        consistency, coordination, and accountability may not be 
        sufficiently addressed. DHS believes that a performance based 
        regulatory approach may be more effective in addressing these 
        additional national security concerns than a voluntary 
        compliance approach. However, in addition to establishing a 
        more traditional regulatory framework, DHS is committed to 
        working with industry to explore additional avenues for 
        achieving these same performance thresholds, including 
        voluntary compliance.

        b. If ``voluntary compliance'' is used as a means to increase 
        security, should federal funding be used for improvements to 
        meet voluntary standards or should ``voluntary compliance'' be 
        the sole responsibility of those industries?
        Answer. To carry out Congressional mandates for port, bus and 
        transit security, and first responder training and preparedness 
        among others, DHS has issued a series of grants to support 
        voluntary efforts to enhance security. Subsequent efforts to 
        enhance security (whether voluntary or mandatory) may involve 
        both industry investment and limited federal assistance.

        c. Do you currently have the authority needed to establish 
        guidelines for ``voluntary compliance'' in relation to homeland 
        security?
        Answer. DHS has been provided authority under the Homeland 
        Security Act, the Aviation and Transportation Security Act 
        (ATSA) and the Maritime Transportation Security Act, to issue 
        performance based security guidelines for voluntary compliance.

    Question 2. Concerns have been raised regarding DHS's progress on 
the development and issuance of the Transportation Worker 
Identification Cards which have become known by the acronym ``TWICSs''. 
Specifically, concerns have been raised on how the background check for 
a TWIC will be coordinated with the issuance of professional licenses, 
such as merchant mariner documents, which are processed by the Coast 
Guard, and commercial drivers licenses, which are processed by state 
departments of motor vehicles. Further concerns have been raised on how 
DHS will coordinate these efforts with other agencies, such as ATF, who 
has regulatory responsibility over explosives, including aspects of 
explosives transportation, to the extent that the Department of 
Transportation has not preempted the field.

        a. Under DHS's plan, who is going to be required to carry a 
        TWIC?
        Answer. While the program is still under development, TSA 
        believes that a Transportation Worker Identification Credential 
        (TWIC) may be required for those individuals requiring 
        unescorted physical and logical access to secure areas of the 
        national transportation system.

        b. How does DHS's plan coordinate background checks, and 
        specifically who will have to have a background check in order 
        to receive a TWIC?
        Answer. Any individual that receives a TWIC card would receive 
        a background check. DHS will ensure that any background check 
        is not unnecessarily redundant of checks already performed.

        c. What are the costs associated with a background check and 
        issuance of a TWIC and how does DHS's plan pay for these costs?
        Answer. At this stage, costs and possible cost-sharing options 
        are still being developed. TSA will evaluate the costs 
        associated with background check and credentialing (TWIC) 
        requirements as part of the TWIC technology evaluation and 
        prototyping phases, and will ensure that costs are minimized.

    Question 3. U.S. Customs is in the process of installing cargo 
imaging equipment at certain ports and border crossings. The Vehicle 
and Cargo Inspection System, known as VACIS (pronounced ``vakis''), 
allows Customs to examine freight cars, trailers, and containers for 
contraband, weapons, and other potentially dangerous goods. Customs 
plans to deploy 9 rail VACIS systems at the southern border to cover 
100 percent of the southern border rail traffic, and 9 VACIS systems at 
the northern border to cover 90 percent of the rail volume entering the 
U.S. from Canada.

        a. What is the overall policy with respect to installation of 
        VACIS? Does DHS plan to install VACIS at all ports and truck 
        border crossings?
        Answer. CBP proposes to continue deploying multiple large-
        scale, non-intrusive inspection (NII) systems, including 
        Vehicle and Cargo Inspection System (VACIS) units to the large 
        cargo and passenger vehicle crossing points on the northern 
        border.
        There are currently five Rail VACIS units deployed on the 
        southwestern border and three additional systems are slated for 
        deployment by the end of calendar year 2003. These eight 
        systems will provide CBP with the capability to screen 100 
        percent of the rail traffic arriving in the United States from 
        Mexico.
        On the northern border with Canada, Rail VACIS units will be 
        deployed to nine locations, providing CBP with the capability 
        to screen up to 90 percent of the rail traffic arriving in the 
        U.S. from Canada. All nine systems should be operational by the 
        end of April 2004. The technology will further enhance the 
        security of rail shipments bound for the United States while 
        ensuring trade continues to flow between the two countries.
        There are currently 23 rail crossings on the U.S.-Canada border 
        and the volume of rail traffic varies significantly by port or 
        crossing. Nine of the crossings account for approximately 90 
        percent of all rail traffic arriving in the U.S. from Canada. 
        We will assess the need to deploy VACIS equipment to the 
        remaining rail crossings with Canada, which will cover the last 
        10 percent of rail traffic, once the initial equipment 
        deployment is complete.

        b. What are the advantages of VACIS and do you think it is the 
        magic bullet for cargo security? What other measures are 
        necessary to ensure vehicle and cargo security?
        Answer. There is no magic bullet. At our borders, we currently 
        deploy multiple technologies to support our layered inspection 
        process. Because of the risk that an adversary can defeat any 
        single sensor or device, we do not rely on any single 
        technology or inspection process. Instead, CBP uses various 
        technologies in different combinations to substantially 
        increase the likelihood that contraband, including a nuclear or 
        radiological weapon or weapons grade material will be detected.

        The Vehicle and Cargo Inspection System (VACIS) is just one of 
        several large-scale NII systems in our inventory. VACIS units 
        use gamma-ray-imaging technology to quickly perform thorough 
        examination of conveyances without having to resort to the 
        costly, time-consuming process of manual searches or intrusive 
        exams by methods such as drilling and dismantling. Mobile VACIS 
        units can screen conveyances in both a stationary and moving 
        mode. They provide greater flexibility because they can be 
        quickly and easily re-deployed from one location to another.
        CBP also uses computerized tools such as the Automated 
        Targeting System, Automated Manifest System and Automated 
        Commercial System to manage its targeting and examination 
        workloads. Additionally, CBP has put forth regulatory and 
        legislative initiatives such as the 24-hour rule and the Trade 
        Act of 2002 to support the receipt of accurate advance arrival 
        data.
        CBP, through its Customs-Trade Partnership Against Terrorism 
        (C-TPAT) initiative, is informed about a business entity's 
        activity to secure its supply chain and take advantage of that 
        knowledge by expediting the review and movement of the 
        legitimate cargo. CBP is also working with TSA to award grants 
        under the Operation Safe Commerce program that will provide 
        additional information on how best to ensure intermodal supply 
        chain security.

        c. Canada is also installing VACIS systems at the border. How 
        are our efforts being coordinated with Canada? I hope we are 
        not duplicating the effort and costs of installing this 
        equipment.
        Answer. Customs and Border Protection (CBP) has been working 
        very closely with the Canadian government and with Canadian 
        rail companies on a plan for the deployment of Rail VACIS and 
        other non-intrusive inspection technology at rail crossings on 
        the Northern border. CBP is working to finalize this plan and 
        implement its provisions as quickly as possible.
        This initiative will substantially enhance the targeting, 
        screening, and physical examination of rail shipments entering 
        this country from Canada, while simultaneously facilitating the 
        flow of legitimate rail cargo.

    Question 4. Last year, I co-sponsored legislation with Senator 
Durbin to improve the security of driver's licenses. As you know, 
today's patchwork of state laws and procedures for the issuance of 
driver's licenses make it all too easy to obtain a valid license using 
fraudulent feeder documents or to pass off a fake license as a 
legitimate one. The extent of the problem became painfully clear 
following the terrorist attacks of September 11, 2001, when we learned 
that a number of the terrorists held valid state-issued driver's 
licenses or identification cards. Our bill, which we plan to 
reintroduce, is specifically aimed at making the license more tamper-
proof and tightening up the type and verification of documents that can 
be used to obtain a license.

        a. What do you think needs to be done to improve driver's 
        license security and how should this be accomplished?
        Answer. Most aspects of driver licensing remains the 
        responsibility of each state. While Congress has required that 
        commercial drivers (trucks and buses) comply with federal 
        standards for commercial driver skills, knowledge, and safety 
        oversight, states continue to decide the form and duration of 
        their respective licenses. The Department of Homeland Security 
        is committed to working with State Departments of Motor 
        Vehicles and driver representative associations to develop 
        appropriate security procedures for drivers' licenses.

        b. The Administration indicated last year in its National 
        Strategy for Homeland Security'' that it believes the effort to 
        improve driver's license security should be led by the states, 
        not the Federal Government. With 50 different jurisdictions 
        trying to reach a consensus, is this realistic? Individual 
        states are tightening up their processes, but progress is not 
        being made across state lines. Senator Durbin and I have 
        proposed that, similar to the Administration's approach, the 
        Federal Government should work in consultation with the states. 
        However, we believe the effort needs to be led by the Federal 
        Government. What are your views?
        Answer. I agree that the Federal Government needs to work in 
        concert with the states and representative associations to seek 
        uniformity where appropriate.

    Question 5. As you know, in January I requested that the 
Transportation Security Administration (TSA) and the Federal Railroad 
Administration (FRA) review Amtrak's security plan, and its investment 
plan for security. I made the request because I had concerns about 
certain elements of the plan developed by Amtrak's previous president, 
including proposals to expand Amtrak's aviation unit and to install six 
cameras on every interlocking on the Northeast Corridor. Unfortunately, 
TSA and FRA provided comments on a revised Amtrak plan that Amtrak has 
since discredited as the wish list of a particular Amtrak official [not 
Amtrak President David Gunn]. I would appreciate it if TSA could remain 
involved in helping- Amtrak develop a credible and affordable plan. The 
Committee is awaiting a revised plan that can be used as the basis for 
security legislation. Can I count on TSA's assistance?
    Answer. On February 6, 2003, the Transportation Security 
Administration (TSA) received a revised Security Investment Plan from 
Amtrak and provided comments to Senator McCain on this ``updated'' plan 
in a letter dated February 28, 2003. In the letter, TSA and the Federal 
Railroad Administration (FRA) agreed that security improvements are 
needed to help Amtrak protect its infrastructure, equipment, 
passengers, and employees.

    TSA and the FRA continue to work closely with Amtrak to develop a 
meaningful, system-wide security plan that focuses on prevention, 
response, restoration of services, and restoring public confidence.
    Amtrak provided TSA with the final security plan on April 10, 2003 
and TSA, in coordination with the FRA, is currently reviewing this 
plan.

    Question 6. Depending on how DOT, TSA and the Bureau of Alcohol, 
Tobacco and Firearms (ATF) interpret the Safe Explosives Act, all 
railroad and trucking company personnel could conceivably be required 
to go through a background check. The cost to the rail industry alone 
could be over $20 million. UPS for example, could face a bill over $17 
million if it has to have all employees checked. I am concerned that 
carriers will simply refuse to handle explosives rather than incur this 
kind of cost. In your view, what criteria in terms of the types and 
amount of sensitive products, including hazardous materials, should 
govern whether a transportation employee should have a background 
check?
    Answer. With its passage of the USA PATRIOT Act, Congress 
determined that certain commercial drivers who have histories of 
violent crimes should not be allowed to transport hazardous materials 
(HAZMAT). In addition, Congress enacted the Safe Explosives Act and 
determined that certain individuals (such as aliens, those receiving 
dishonorable discharges, renunciants) should be prohibited from 
transporting explosives, unless the Department of Transportation 
regulates such transportation.

    The Transportation Security Administration (TSA), in coordination 
with the Department of Transportation and the Department of Justice 
will publish rules and statements of policy that establish the criteria 
for determining the individuals who must undergo a criminal history 
background records check, the status or crime that is disqualifying, 
and procedures for appealing or waiving this security assessment. These 
regulations apply only to placarded amounts of HAZMAT, which represent 
the thresholds determined by the Research and Special Programs 
Administration to constitute a significant security threat.

    Question 7. I am concerned that Congress, in the interest of 
passing security legislation quickly, has in several instances created 
conflicting or overlapping requirements.
    Answer. For example, the USA PATRIOT ACT in 2001 established a 
requirement for a background check for motor carriers transporting 
hazardous materials, including explosives. The Safe Explosives Act, 
however, establishes specific disqualifications for ``possessing'' 
explosives, including the transportation of explosives, by all modes. 
The provisions are not consistent. The same trucker who would be 
disqualified from handling explosives under the terms of the Safe 
Explosives Act could, under the USA PATRIOT Act, still handle other 
equally dangerous hazardous materials.

    In addition, while the Homeland Security, which transferred the 
Animal & Plant Health Inspection Service from the U.S. Agriculture 
Department to DHS, was being written, the Public Health Security and 
Bioterrorism Preparedness and Response Act was being enacted requiring 
the Food and Drug Administration (FDA) to monitor food imports for 
signs of bioterrorism. This has resulted in the FDA promulgating 
reporting requirements for food importers that closely mirror 
requirements promulgated by the Directorate of Border and 
Transportation Security, which now houses the Animal & Plant Health 
Inspection Service.

        a. What conflicts has DHS experienced and do you have 
        recommendations for Congress about how these should be 
        corrected?
        Answer. In its initial months, DHS has encountered a number of 
        statutory conflicts which affect its ability to carry out 
        various Departmental missions. Among these are various 
        technical issues created by the recent enactment of the 
        Homeland Security Act, Pub. L. No. 107-296. DHS desires and 
        appreciates Congress' willingness to work with the 
        Administration to further the enactment of appropriation 
        legislation to address these and other conflicts which the 
        Department discovers.

        b. What actions are being taken to work these issues out 
        cooperatively with the Administration?
        Answer. The Department's Secretarial staff currently is working 
        in cooperation with the various operational elements of DHS to 
        determine any existing statutory conflicts which affect the 
        Department's ability to carry out its various missions. In all 
        cases, the Department favors resolving these conflicts 
        cooperatively within the Administration, such as through using 
        existing statutory and regulatory authority. The Department is 
        exploring the potential for such internal resolutions with the 
        help of contacts in various executive branch offices, including 
        the White House and its Homeland Security Council and Office of 
        Management and Budget (OMB), as well as other executive branch 
        departments.

        c. Can we expect the Administration to submit legislative 
        recommendations to correct the areas that cannot be addressed 
        cooperatively within the Administration?
        Answer. In the event that any statutory conflicts cannot be 
        addressed within the Administration, the Administration will 
        submit legislative recommendations to Congress which will 
        correct such conflicts. One example are technical issues 
        created by the enactment of the Homeland Security Act, Pub. L. 
        No. 107-296, including gaps in statutory authority, or other 
        conflicts created by the Act. In order to address these 
        conflicts, the Department has prepared and cleared with OMB a 
        list of recommended statutory changes to the Act, or to other 
        provisions of law affected by the Act. These recommendations 
        are now available to Congressional staff, and we understand 
        that they will be included in a legislative vehicle in the near 
        future. The Administration will continue to supplement these 
        changes with further recommendations as they become apparent.

    Question 8. The Maritime Transportation Security Act, under the 
leadership, of Senator Hollings, was signed into law late last year. 
Since that time the Administration, led by the U.S. Coast Guard, has 
completed negotiations on an international agreement on maritime and 
port security. The new law, along with the international agreement puts 
in place a framework to enhance security on our waterways and at our 
seaports. However, it remains unclear today which agency with the 
Administration is leading efforts to secure our nation's ports. Can you 
tell the Committee what agencies are involved in these efforts and how 
their actions are being coordinated with DHS and between DHS and the 
Department of Transportation?
    Answer. The Coast Guard, Transportation Security Administration and 
U.S. Customs and Border Protection are participating jointly in 
developing a delegation of authority under the Maritime Transportation 
Security Act (MTSA) that will determine lead and support roles in 
maritime security. The Maritime Administration also has certain 
responsibilities under MTSA.

    The Coast Guard is the lead federal agency for Maritime Homeland 
Security and with assistance from U.S. Customs and Border Protection, 
the Transportation Security Administration, and the Maritime 
Administration, is developing regulations under the MTSA. As the 
designated Federal Maritime Security Coordinators, Coast Guard Captains 
of the Port will ensure comprehensive Area Maritime Security Plans are 
developed and executed in U.S. ports in accordance with the MTSA. TSA 
is providing a planning role with respect to how MTSA implementation is 
consistent with security requirements in other transportation modes.
    Due to the complexities involved, a number of other federal, state, 
and local partners will also be involved in securing the nation's 
ports. State and local agencies, as well as private stakeholders, will 
be members of the Area Maritime Security Committees to integrate and 
coordinate the collective planning and resources. DHS will continue to 
coordinate with DOT to ensure the entire transportation system, 
including intermodal links, is secure.

    Question 9. I understand the Coast Guard estimates the private 
sector costs for compliance with the requirements of the Maritime 
Transportation Security Act to be $4.4 billion, with annual costs of 
$500 million. Since the September 11 attacks, Congress has provided a 
total of $348 million for port security grants. While the 
Administration's fiscal year 2004 budget requests $38 million for 
Department Directorate of Border and Transportation Security grants, 
subsidies, and contributions and $51 for the Department's Directorate 
of Information Analysis and Infrastructure Protection for the same 
purpose, it is unclear what these requests are for. Additionally, it is 
unclear whether or not these lines items will fund the maritime and 
port security grants to be awarded in accordance with the Maritime 
Transportation Security Act.

        a. Is this $4.4 billion figure accurate? If so, what is it 
        based on?
        b. How much is the Administration requesting for maritime and 
        port security grants for fiscal year 2004? Which agencies or 
        directorates will be managing these funds?
        c. While I understand these funds will not directly be 
        administered by the Coast Guard, what role does the Coast Guard 
        play in awarding these grants? Can you explain how the awarding 
        of these grants will be coordinated with Port Security 
        Assessments being identified but the Coast Guard as part of 
        your ongoing assessments?
        d. In light of this $4.4 billion backlog, do you think the 
        Administration's request is adequate to address these 
        vulnerabilities?

        Answer. The $4.4 billion estimate appears to be taken from an 
        analysis published in the Federal Register on December 30, 2002 
        and only represents the initial cost estimate of implementing 
        MTSA for facilities. Since that publication, the Coast Guard 
        has received public input on the cost estimates and expects to 
        revise the initial estimates in its MTSA Interim Final Rules, 
        which should be published on July 1, 2003. Implementing the 
        Interim Rule will affect about 5,000 facilities. The first year 
        cost of purchasing and installing equipment, hiring security 
        officers, and preparing paperwork is an estimated $1.125 
        billion. Following initial implementation, the annual cost is 
        approximately $656 million. Over the next 10 years, the cost 
        would be present value $5.399 billion. The first year cost of 
        implementing all of the provisions of the interim rule 
        (vessels, facilities, OCS facilities, ports, and automatic 
        identification system) is approximately $1.507 billion. 
        Following initial implementation, the annual cost is 
        approximately $884 million, with costs of present value $7.348 
        billion over the next 10 years. A further detailed breakdown of 
        the costs will be provided in the Interim Rules.
        DHS is currently developing a plan to assess security for all 
        critical infrastructure, including ports, and to determine the 
        appropriate federal, state, and industry role in correcting any 
        security deficiencies.

    Question 10. Much of the focus on the Coast Guard since September 
11th has been on its homeland security role. This role is vital, but we 
must not forget that we rely on the Coast Guard for many important 
other functions such as search and rescue, drug enforcement, 
interdicting illegal aliens, enforcing our fisheries laws and 
regulations, and protecting our environment. The challenge is to strike 
the proper mission balance. Section 888 of the Homeland Security Bill 
mandated the Coast Guard be transferred to the new Department as an 
intact entity and its non-homeland security missions be adequately 
protected. Additionally, the Act required the Coast Guard report 
directly to you, the Secretary, and not the Under Secretary for Border 
Transportation Security. This was designed to ensure the Coast Guard's 
non-homeland security missions did not get lost in the shuffle as that 
directorate wrestles with our country's many border and transportation 
security challenges.

        a. With this in mind, what steps are being taken to ensure the 
        Coast Guard's non homeland security missions are adequately 
        fulfilled and the Coast Guard will continue to accomplish these 
        missions at the levels expected by the American people?
        b. What steps are being taken to ensure these missions will be 
        adequately funded in the future and the infrastructure which 
        supports them is properly maintained?
        c. How has this language in Section 888 proven to be too rigid 
        and is it preventing the Coast Guard from carrying out its 
        missions? Is it impeding cooperation with the other agencies in 
        the Department?
        d. Do you believe modification to this language will be needed 
        and when do you think recommendations will be submitted to 
        Congress?

        Answer. Although the Coast Guard does have capacity, capability 
        and operational tempo challenges to sustain mission balance, it 
        will continue to emphasize all of our missions. At the end of 
        the day, the Coast Guard is focused on performance-based 
        results and not only resource hours. The perspective through 
        the performance lens illustrates that its non-Homeland Security 
        missions are not suffering. The Fiscal Year 2003 Report/Fiscal 
        Year 2004 Budget in Brief (BIB) provides documentation of the 
        Coast Guard's high performance levels across its mission 
        spectrum. For example, in Fiscal Year 2002 USCG seized the 
        third highest cocaine total in our history, interdicted or 
        deterred illegal immigration by sea at a rate of 88.3 percent 
        (which exceeded its target of 87 percent), reduced the volume 
        of oil spilled per million gallons shipped to 0.6 gallons (well 
        below its target of 2.5 gallons), and continued to reduce the 
        number of maritime worker fatalities to 4.3 per 10,000 workers 
        which is below its target of 8.7.
        A necessary first step is base-lining our maritime Homeland 
        Security (MHS) requirements to help balance our other missions. 
        To accomplish this, the Coast Guard has focused on a Strategy 
        Deployment Plan (SDP) for implementing the maritime component 
        of the President's National Strategy for Homeland Security. 
        Various components of our Maritime Security Strategy Deployment 
        Plan are under development, with the first component to be 
        completed in April/May of 2003.
        These MHS requirements will roll into a comprehensive blueprint 
        to achieve overall mission balance. Coast Guard's existing 
        strategic planning process and performance plans will serve as 
        the cornerstone of an integrated approach emphasizing three 
        general areas of effort: Preserving Non-MHS missions, 
        Conducting MHS missions, and maintaining military readiness to 
        conduct

Aviation Questions
    Question 1. At most airports, TSA met the requirement to screen 100 
percent of checked baggage by using explosives trace detection 
equipment or EDS installed in airport lobbies. These methods of 
screening are less efficient and require more screening staff than 
integrated EDS machines. What plans does TSA have for integrating EDS 
into baggage systems at the largest airports?
    Answer. TSA's current imperative is to ensure that sufficient 
systems are in place to screen for explosives at locations where 
electronic screening systems are not fully deployed, and the agency is 
using the LOI tool to accomplish this goal. The LOIs TSA has 
implemented or is developing involve the largest airports in the 
Nation. Beyond these airports, we continue to assess the need for 
additional LOIs.

    Question 2. THE DOT/IG has raised concerns about who will bear the 
ultimate cost of integrating EDS machines into baggage systems at 
airports. Do you expect the Federal Government to fund the conversion, 
as it is their responsibility to ensure that the process is being done 
effectively?
    Answer. As with other homeland security areas, DHS believes the 
cost of aviation security must be a shared responsibility. This holds 
true for putting some EDS in-line with baggage systems, and in fact the 
Congress supported this concept by providing TSA with LOI authority 
that mandated airport contributions.

    Question 3. One of the most significant issues dealing with the 
integration of the TSA into Department of Homeland Security was the 
concern that the security aspect of aviation travel needed to be 
formulated in conjunction with the policy aspect of aviation to ensure 
that aviation safety was not being adversely affected. What steps will 
you take to ensure that DOT is consulted on security issues?
    Answer. The Transportation Security Administration (TSA) has worked 
closely with all of the DOT modal administrations, including the FAA, 
to identify transportation security challenges and ensure that security 
and safety are simultaneously addressed in a manner that does not 
detract from either. First, TSA and FAA signed a Memorandum of 
Agreement (MOA) on February 28, 2003. The MOA sets out the general 
principles of cooperation and consultation that will serve as a guide 
to relations between TSA and FAA. TSA and DOT will benefit from a 
continued close cooperation in the areas of security-related 
legislation, rulemaking, and budget development. The MOA construct 
allows us to retain this DOT connection and coordination. Also, Deputy 
Secretary Jackson's memorandum accompanying the executed TSA/FAA MOA 
notes that Secretary Mineta is committed to naming a senior official 
within the Office of the Secretary to serve as DOT's primary liaison to 
TSA. Furthermore, there is extensive day-to-day coordination between 
TSA and FAA at the working level to ensure that aviation security 
initiatives do not compromise safety. We routinely invite FAA to TSA 
meetings, and vice versa. Where appropriate, we coordinate cross-agency 
on memoranda, position papers, and letters when responsibilities 
overlap. TSA and FAA also hold a bi-weekly executive-level meeting 
where interagency issues can be raised and addressed promptly.

    Question 4. The Airlines have asserted that the security fee 
imposed upon them is unfair. They assert that ports and borders are not 
faced with these security fees. Does DHS have a position on the 
imposition of a user fee to fund its operation?
    Answer. DHS does not believe that it is unfair to impose security 
fees on airlines and passengers. The passenger fee, mandated by the 
Aviation and Transportation Security Act (ATSA), imposes a charge of 
$2.50 per passenger enplanement paid by the passengers. Air carriers 
collect this fee from passengers and remit it to TSA. The air carrier 
fee, also authorized by ATSA, is charged to individual air carriers 
based on each air carrier's costs related to screening passengers and 
property in calendar year 2000.

    Question 5. Does DHS have a position on repealing the airline 
passenger security fee?
    Answer. DHS continues to believe that security is a shared 
responsibility and the fee should stand.

    Question 6. One of the biggest complaints this Committee heard from 
Admiral Loy was that the earmarks in the appropriations bill took away 
his discretion to deal with the problems TSA was facing. What will DHS 
do to combat this problem?
    Answer. DHS will make every effort to work with Congress and 
Committee staffs to provide timely and comprehensive information on 
budget requests. However, once earmarks are enacted, DHS will make 
every effort to accommodate them within our funding availability.

Border Questions:
    Question 1. The Federal Government's efforts to reduce illegal 
border crossings in California and Texas have created a funnel effect 
through Arizona. The U.S. Border Patrol estimated that over 25,000 
people were arrested for attempting to cross the border in Arizona 
during the month of October 2002 alone. These individuals were 
fortunate to survive--last summer 134 individuals were reported to have 
died in the desert attempting to enter this country. What will you do 
to ensure our borders receive needed attention from the Department of 
Homeland Security?
    Answer. Border Patrol has initiated Operation West Desert which is 
designed to augment the Tucson Sector's border safety efforts. The 
Border Patrol enhanced operational effectiveness and intensified life-
saving efforts through a sector-wide coordinated and proactive 
enforcement strategy focusing all available resources on high-risk 
areas during the summer months. Plans include detailing additional 
BORSTAR agents (in newly outfitted BORSTAR Hummer vehicles), extra 
Horse Patrol units in the west desert of Arizona, rescue beacons and 
hot weather kits. In addition, the Shadow Wolves will receive an 
abbreviated BORSTAR search and rescue course. The national Tactical 
Unit, known as BORTAC, has also deployed special tactically and 
medically trained agents to reinforce the deterrent efforts in this 
busy corridor. Tucson Sector continues to work with the Mexican 
government to develop a cohesive strategic plan to address the Sonoran 
Desert problems, provide training, and develop, in concert with Mexican 
government, public service announcements for Mexican television and 
radio distribution.

    Question 2. Prior to September 11, the President and Members of 
Congress were very close to developing a comprehensive immigration 
reform package. I believe that the only way we are ever going to 
improve security at our borders and truly address the downstream 
problems associated with the flow of undocumented immigrants is to 
enact such reform. Do you agree that comprehensive immigration reform 
is necessary as a matter of homeland security?
    Answer. Creation of the Department of Homeland Security, including 
the separation of immigration services from immigration enforcement 
functions, and subsequent action taken by the department to align 
inspections and enforcement functions within two new agencies in the 
Border and Transportation Security (BTS) Directorate--U.S. Customs and 
Border Protection (CBP) and Immigration and Customs Enforcement (ICE)--
are very significant immigration reform steps that have already been 
taken. Until the effectiveness of the new alignment of our immigration 
enforcement and services resources can be adequately assessed, it would 
be premature to suggest that additional immigration reform measures be 
taken.

    Question 3. As you know, many Native American tribal lands line our 
borders. What actions has the Department taken to ensure coordination 
with tribal governments? Additionally, what federal programs or grants 
are available to tribal governments to promote border protection and 
security?
    Answer. Eleven of the 21 Border Patrol Sectors encompass Native 
American lands that either straddle or are adjacent to a U.S. border. 
Where appropriate, Border Patrol sectors have identified a liaison 
agent to work with Tribal law enforcement as well as local 
representatives of the Department of the Interior. These sectors have 
set up and maintain a regular scheduled meeting with their Native 
American counterparts. A key initiative in these meetings is the 
emphasis on our commitment to border security, better liaison, 
cooperation, training and resource sharing. OBP has provided Officer 
Survival training to the St. Regis Mohawk Tribal Police, to include 
Ground Fighting, Advance Pistol and Tactical Pistol training. OBP has 
established an equipment-sharing program with the various tribal 
police, and has worked with the Kickapoo Tribal Council to place two 
remote video surveillance towers on their property. Tucson Sector is 
continuing progress on the joint Tohono O'odham Substation/USBP 
Processing Facility. Del Rio Sector is creating a sister-post of the 
Border Patrol Explorers, hosted by the Kickapoo, which will jointly 
train with the BP Explorer Post. HQ Border Patrol has also identified a 
liaison agent at the HQ level who works with tribal law enforcement and 
the Department of the Interior. The Border Patrol is working with 
Native American law enforcement agencies to provide the level of 
support requested, and to maintain the best working relationships 
possible. The second annual U.S. Border Patrol--Native American Border 
Security Conference is scheduled to occur October 7-8, 2003. The 
purpose of the conference is to enhance border security and foster 
communication with the Native American communities.

    Question 4. Last August, a park ranger was killed at the Organ Pipe 
National Monument in Arizona. This park is experiencing increased 
illegal immigration, drug and human smuggling, and is quickly becoming 
the most dangerous portion of our nation's border. Given the diverse 
nature of the lands that line the border, how does DHS plan to 
coordinate between the numerous federal agencies with lands along the 
border, including the Fish and Wildlife Service, the Park Service, the 
Forest Service, and the Department of Defense?
    Answer. The control and security of our borders is a complex 
problem, and will continue to challenge us in the future. Everyday, our 
agents put their lives at risk enforcing law in extreme environments 
and under severe conditions. Coordination and cooperation along the 
border between federal agencies such as Fish and Wildlife, National 
Park Service, Forest Service and Department of Defense is very 
important and efforts are underway in that regard to curb illegal 
immigration and drug smuggling. Coordination and communication with 
state and local law enforcement, Tribal land officials, and the general 
public has also been a major focus for Border Patrol. Officials of 
Border Patrol, Park Service, Fish and Wildlife and the Forest Service 
are joining together as appropriate through meetings, intelligence 
sharing and special operations to develop law enforcement strategies 
and solutions in that area. Department of Defense personnel have 
provided valuable support during special operations to Border Patrol 
through the coordination efforts of the Border Patrol Special 
Coordination Center. The safety of undocumented migrants, law 
enforcement agents, and the public is of paramount importance. As an 
example of efforts to increase safety, Tucson Border Patrol Sector has 
instituted border safety initiatives along the Arizona border and has 
worked to reduce the number of injuries and deaths among those who 
continue to enter illegally, and law enforcement officials who enforce 
laws in that area. There are plans to provide a coordinated and 
proactive enforcement strategy focusing all available resources on 
high-risk areas in their sector this summer. Representatives of the 
various agencies charged with stewardship of America's public lands met 
with Border Patrol representatives in Tucson, Arizona on September 4th 
to further discuss and formulate cooperative efforts in order to 
mitigate environmental degradation, while deterring the risk of further 
degradation brought on by the trafficking of contraband and illegal 
aliens through these sensitive ecological systems.

    Question 5. A dangerous sentiment is developing among some citizens 
of Arizona, that the Federal Government is failing with regards to 
border security. The situation has become so tenuous that a number of 
citizen militia groups have taken up arms to defend the borders 
themselves. Various local governments and citizen groups such as the 
Bisbee City Council and Border Action Network have expressed their 
concern over the actions of these groups. What is being done to ease 
the fears of the residents along the border and improve enforcement 
efforts?
    Answer. CBP has no specific authority to prohibit private citizens, 
groups, or landowners from being near the border. All sworn agents do 
have the commitment via their oath to civil and due process rights. 
Also residents have their own property rights. CBP realizes the 
potential for inappropriate action or violations from these groups. 
Agents that patrol in areas that these groups may be are provided 
information as to the group's whereabouts, history and potential for 
encounters. Our focus has been to communicate to those residents who 
witness illegal activity. We have encouraged these members of the 
community to call the witness illegal acts. CBP has specific units in 
certain sectors that prioritize calls from rural residents. These 
units' liaison and patrol in areas where residents are noticing an 
increase in illegal border traffic. Town hall meetings, civic events 
and specific outreach activities provide a context for residents to 
communicate with Border Patrol Agents. Furthermore the agents, stations 
and sectors of the Border Patrol supported by headquarters are 
upgrading deterrence levels and border security with planning, tactics 
and hard work. The increase of control levels and subsequent reduction 
of illegal crossings at the border will prevent the perceived need for 
residents or outside groups to patrol the border. Sectors have also 
coordinated a response for when local residents or any non-law 
enforcement officer detains a suspect to turn over to a Border Patrol 
Agent. The coordination involves notifications to local and federal 
investigators and prosecutors. These law enforcement partners are 
afforded an opportunity to verify that the detention did not violate 
the rights of the illegal aliens. As an illegal alien is processed for 
removal they are given the opportunity, if they choose to speak to a 
Consular Official of their country of citizenship. These reasonable 
safeguards bolster border patrol observations and the Agent's 
interview, to ensure no violations of civil or criminal statutes have 
occurred. In March of this year two members of Ranch Rescue were 
arrested on assault charges after an illegal alien whom they detained 
near Hebbronville, Texas, said they struck him. Although this case is 
under investigation the safeguards described above proved to assist 
victims and the prosecuting and investigating agencies in determining 
if charges are warranted. Ultimately our active liaison with border 
communities and increasing control levels brought by agents and the 
resources agents need to patrol the border effectively will prevent 
groups from finding areas or sympathetic land owners' property to 
patrol. Protecting the rights of all those involved in these scenarios 
is equally important.

    Question 6. The Omnibus Appropriations bill provided increased 
funding for important technology programs such as the Entry-Exit System 
and the INS Chimera IT system, which is to serve as the backbone for 
the system and to coordinate between the various law enforcement 
agencies. Both of these systems make important strides in increasing 
the coordination and technology available to the Department of Homeland 
Security. What steps will you take to ensure the money allocated for 
this technology is managed properly and that the systems are 
interoperable and communicating effectively?
    Answer. It is important to point out that the Chimera system is, by 
statute, intended to contain multi-agency data. Effective communication 
and Interoperability of that system, with other systems, including the 
Entry-Exit System, are paramount to the success of the DHS mission. The 
DHS structure includes a provision for shared immigration services, a 
Chief Information Officer and a department Office of Information 
Technology to ensure interoperability and proper management. In 
addition, the Border and Transportation Security Directorate has 
established a program office specifically dedicated to implementing the 
Entry-Exit (now called U.S. VISIT) system in accord with statutory 
requirements.

    Question 7. The Arizona Republic ran an article on the serious 
labor concerns among those in the Border Patrol. According to T.J. 
Bonner, President of the National Border Patrol Council, thousands of 
Border Patrol agents are considering leaving the Border Patrol for new 
jobs. The potential loss of Border Patrol agents poses an imminent 
threat to national security.

        a. What steps will you take to try to ensure that this does not 
        occur to avoid a sudden loss of Border Patrol officers?
        Answer. The Office of Border Patrol (OBP) has taken aggressive 
        steps to deal with attrition of Border Patrol Agents in 
        response to FY02's record attrition (18 percent). First and 
        foremost, OBP was successful in coordinating efforts to raise 
        the journeyman level to a GS-11 (was GS-9). OBP recently 
        convened a retention focus group made up of field 
        representatives. Several key recommendations from the group 
        have been implemented in the field and will serve to enhance 
        future retention. OBP has also focused recruitment efforts on 
        targeting and attracting applicants who would like to make the 
        Border Patrol a career choice. These efforts have begun to pay 
        dividends. For example, the current FY03 attrition rate has 
        dropped to 11 percent. The Border Patrol offered reinstatement 
        to former employees who left the agency during the earlier 
        Federal Air Marshal Service hiring phase and over two hundred 
        employees have applied for reinstatement back to the Border 
        Patrol.

    Question 8. As you know, our southern border has been used by 
illegal drug traffickers for many years. And as with illegal 
immigration, improved security in other parts of the southern border 
have funneled illegal drug traffickers through the less populated parts 
of Arizona, causing substantial disruption to our Tohono-O'Odham 
Nation. What are the Department's plans for coordination with the DEA 
to stem the trafficking of illegal drugs over the Arizona border?
    Answer. Coordination with Tribal land officials has improved in 
recent years along the Southwestern and Northern Borders. The Border 
Patrol has begun a project to build a facility on the Tohono O'Odahm 
Nation in southern Arizona. The Tohono O'Odahm Police Department 
(TOPD), and the Border Patrol will be collocated at this facility which 
will serve as a processing center for the Border Patrol. This 
processing facility will provide the Border Patrol greater access to 
the border as well as an opportunity to work closely with the TOPD. 
Where appropriate, Border Patrol sectors have identified a liaison 
agent to work with Tribal law enforcement as well as local 
representatives of the Department of the Interior. These sectors have 
set up and maintain a regular scheduled meeting with their Native 
American counterparts. A key initiative in these meetings is the 
emphasis on our commitment to border security, better liaison, 
cooperation, training and resource sharing. HQ Border Patrol has also 
identified a liaison agent at the HQ level who works with tribal law 
enforcement and the Department of the Interior. The Border Patrol is 
working with Native American law enforcement agencies to provide the 
level of support requested, and to maintain the best working 
relationships possible. Border Patrol has developed a strong working 
relationship with the DEA over the years along the border. Joint task 
forces and special operations are commonplace along the border, and 
coordination between the agencies has produced substantial detection, 
apprehension and prosecution of illegal drug trafficking.

    Question 9. Another downstream effect of the increased numbers of 
illegal aliens has been auto theft. According to the Arizona Auto Theft 
Authority, Arizona has the highest per capita auto-theft rate in the 
country. Many of these vehicles are used for smuggling drugs and 
illegal aliens across the border. What, if anything is being done to 
address this problem?
    Answer. Customs and Border Protection has installed automatic 
license plate readers (LPRs) at the majority of our land border 
crossings. These LPRs are designed to automatically capture and 
transmit license plate data from vehicles processed at the land border 
to the Treasury Enforcement Communication System (TECS).

    Any vehicle that has been reported stolen to the National Crime 
Information Center (NCIC) will be automatically referred as a possible 
NCIC stolen vehicle record match to U.S. Customs and Border Protection. 
Border Patrol checkpoints, positioned several miles into the United 
States along major routes of egress from the border area, have been 
highly successful in recovering stolen vehicles from the organized 
criminal smuggling elements. CBP and ICE, within DHS's Border and 
Transportation Security Directorate, work closely with state and local 
agencies in identifying, locating, and recovering stolen vehicles.

    Question 10. As I mentioned, our border states and counties are 
experiencing a health emergency because of the burden of uncompensated 
emergency care for undocumented immigrants. Every day, undocumented 
immigrants arrive at our emergency rooms in need of urgent medical 
attention and under federal law, our hospitals are required to treat 
them. As you are aware, immigration is principally a federal 
responsibility, however, border security personnel (Border Patrol) 
routinely avoid reimbursing hospitals and ambulance services for their 
costs. How will DHS address this critical problem?
    Answer. Immigration is principally a federal responsibility. 
Emergency medical care for sick and injured persons in the United 
States who are unable to pay is an indigent health care issue. Indigent 
health care responsibility takes place at three levels-the federal, 
state and local levels. At the federal level, money is disbursed to pay 
for indigent medical care at the other levels, normally taking place 
through the Department of Health and Human Services. States and 
localities have devised a multitude of indigent care systems and 
multiple ways of financing these systems. The most efficient roles for 
the Department of Homeland Security to exercise with regard to 
immigration are the administration of immigration services to 
facilitate legal immigration and the enforcement of laws and 
regulations regarding illegal immigration. The payment of indigent 
health care costs by the Department of Homeland Security would detract 
from its primary responsibilities with regard to immigration.

    An analogy is that state and local police agencies have the 
responsibility of enforcing traffic laws within their jurisdiction. 
They regularly encounter traffic accidents that occur because traffic 
laws were violated and people were injured as a result. The primary 
responsibility of officers at the scene is to activate local emergency 
medical service systems and get injured people the care they need. 
Later, after care is provided, if the person treated is unable to pay, 
it is an indigent care matter and indigent care mechanisms are searched 
for the proper source of payment. The law enforcement agencies are not 
made responsible for payments because it would detract from their 
abilities to carry out their primary responsibilities.
    The Border Patrol does pay for the emergency medical treatment of 
injured persons who are in its custody at the time treatment is sought.

    Question 11. Another problem occurs when undocumented individuals 
are released form hospitals. Hospitals in my state have told me that 
the Border Patrol refuses to pick up the undocumented immigrants and 
return them to Mexico, or simply release the patient. Beyond the unfair 
burden this practice poses on hospitals, it is clearly a serious 
security concern. How will DHS address this security concern?
    Answer. Hospitals outside of the near border area where the Border 
Patrol operates should place calls to offices of Immigration and 
Customs Enforcement. When a hospital calls the Border Patrol about a 
patient ready for release who has been determined to be fit for travel, 
the station supervisor will dispatch an agent if it would not leave a 
critical area uncovered. The station pulls an agent off of his regular 
patrol duty and sends the agent to determine the patient's alienage and 
deportability. If determined to be an illegal alien and likely to 
abscond during removal proceedings, the station takes the subject into 
custody for processing. The purpose of the response is the removal of 
persons determined to be illegal aliens who a doctor finds to be 
medically fit to travel from the United States; it is not to pay 
indigent medical bills.

    Question 12. The former INS maintained a written policy that 
regarded sick or injured aliens encountered by INS officials, 
instructing them not to take the undocumented aliens into custody to 
avoid responsibility for their health care. Rather, the INS agent was 
instructed to take sick or injured alien to a country public hospital 
where, under federal law, the hospital must treat the alien. This 
places the Federal Government's responsibility for border patrol on the 
shoulders of local government and the local taxpayer. What course of 
action do you intend to take to remedy this situation?
    Answer. The written policy referred to is a 1987 policy memorandum 
from the Western Regional Director and applied to the Western Region. 
It does instruct agents not to take obviously sick or injured persons 
into custody. There is no written policy that covered the entire legacy 
INS. The unwritten policy for the legacy INS and the current policy for 
former INS officers is not to arrest or make a determination of 
citizenship of anyone who is in obvious need of emergency medical care 
and does not pose a safety risk. If an injury requires transportation, 
agents call local emergency medical personnel, without regard to 
citizenship or immigration status. In very remote areas, the Border 
Patrol may assist EMS in transporting the individual out of rough 
terrain, but only in extreme emergencies do agents transport injured 
aliens to medical facilities.

    Question 13. A number of environmental issues have come to my 
attention in relation to our borders. How will DHS coordinate with the 
Environmental Protection Agency and other federal agencies on myriad 
environmental issues associated with the border?
    Answer. The enforcement activities of U.S. Customs and Border 
Protection (CBP) are proactive in nature and focus on striving to 
prevent terrorist-related activities from occurring in the United 
States. CBP communicates and coordinates openly with many other federal 
agencies, including the National Park Service and the Environmental 
Protection Agency, to assess statutory requirements and develop 
enforcement strategies, including appropriate operational procedures 
for environmentally sensitive areas. CBP relies heavily upon the 
expertise and guidance of those other agencies, and views such 
communication and coordination as essential to the successful 
completion of its enforcement mission in environmentally sensitive 
border areas. Like all Federal agencies, CBP adheres to NEPA--the 
National Environmental Policy Act.

Science and Technology Questions
    Question 1. One major issue of controversy during the consideration 
of the Homeland Security Act concerned the creation of university-based 
centers for homeland security. What steps are you taking to guarantee 
that university-based research centers are established on a merit-
review process?
    Answer. The university-based centers will be evaluated in a peer-
review process. DHS(S&T) is working with the National Science 
Foundation to use their capabilities and processes for this purpose.

    Question 2. One of the responsibilities for the Under Secretary for 
Science and Technology in the Department of Homeland Security is the 
establishment of a system for transferring homeland security 
technologies to federal, state and local governments, and private 
sector entities. The Department of Homeland Security will establish a 
Homeland Security Advanced Research Projects Agency (HSARPA).

        a. Could you please submit to the Committee a prioritized list 
        of research areas that the HSARPA will pursue after it has been 
        established?
        Answer. The research activities that we will conduct in HSARPA 
        cut across the priorities for DHS(S&T). Thus, the research 
        activities planned include:

          Biological Countermeasures--This includes remediation 
        technologies, and development of the next generation of 
        environmental sensors
          Chemical Countermeasures--This includes remediation 
        technologies and development of facilties monitoring and 
        response systems
          High Explosives Countermeasures--Included here are activities 
        designed to detect at range large quantitites of high 
        explosives (i.e. truck bombs)
          Radiological and Nuclear Countermeasures--Included here are 
        new concepts for actively probing for the presence of fissile 
        material, and for taking advantage of long residence times in 
        ship containers to passively detect fissile material
          Critical Infrastructure Protection--Included here is reaching 
        out to the academic community to develop and test methodologies 
        for systematically revealing interdependencies among 
        infrastructures
          Support to DHS Components--Included here are activities 
        supporting conventional missions of the Department, such as 
        advanced biometrics, and advanced techniques for monitoring the 
        border.
          Rapid Prototyping Program--Organizationally, the technology 
        clearinghouse is managed under HSARPA. Thus, the TSWG BAA, and 
        rapid prototyping activities occur here
          IT Infrastructure--Included here is developing advanced 
        scalable techniques for organizing extant disparate databases 
        and conducting queries of same efficiently

        b. How do you intend to utilize the research of the Homeland 
        Security Advanced Research Projects Agency and the federal 
        laboratories in a way to ensure the efficient transfer of their 
        research to the state and local governments and the private 
        sector?
        Answer. Technology transition is a key goal for the DHS S&T 
        Directorate. We are taking a multilayered approach. First, we 
        involve the user community at the outset of any project we 
        undertake in order to develop program goals, and as the program 
        matures, system requirements and operational concepts. Second, 
        we will engage in demonstrations periodically through the 
        development process to generate feedback from the user and to 
        retire technical risk. Finally, and unlike DARPA, HSARPA will 
        engage where appropriate in pilot deployments of the 
        technology, where operators use the equipment in an operational 
        setting while DHS S&T provides technical support and funds the 
        operations and support costs. This pilot deployment concept 
        retires operational risks to the user, provides insight for 
        product improvement, and allows the user to fund for 
        procurement and support costs with the system at an appropriate 
        level of maturity.

    Question 3. How are you integrating the border security technology 
needs into the Department's research agenda?
    Answer. The S&T Directorate has a ``customer-supplier'' 
relationship with the Border and Transportation Security Directorate. 
In order to fulfill this mandate, S&T has a Director for Border and 
Transportation Security Programs in its Plans, Programs, and Budget 
office. That person and staff have as their primary responsibility to 
work with BTS to understand their needs and requirements and develop a 
research and development agenda aimed at addressing them. Recently, a 
strategic planning workshop was held in Baltimore with the various 
operational elements within BTS to initiate the development of this 
agenda. With regard to border security, S&T is also providing systems 
engineering advice to Under Secretary Hutchison and Secretary Ridge for 
the Entry-Exit Program. The S&T Directorate is also, for example, using 
funds in FY04 for advanced biometrics research, and for developing 
means to identify potential threats crossing our borders or in our 
airports.

    Furthermore, S&T staff, including the Acting Director for Federal 
Laboratories and the Border and Transportation Security portfolio 
manager, continue to meet with Applied Technology and Laboratory 
officials from U.S. Customs and Border Protection, and TSA's Chief 
Technology Office staff to discuss ongoing and planned projects, 
technology capabilities and needs. Visits of S&T personnel, including 
Under Secretary McQueary, to two of CBP's laboratories have served to 
further educate S&T personnel on CBP's scientific/forensic border 
operations.

    Recommend G-OCC add MDA

    Question 4. Do you feel that three years is a sufficient amount of 
time for the Homeland Security Institute to accomplish the 
responsibilities of threat and vulnerability assessments as identified 
in the Homeland Security Act of 2002?
    Answer. We expect that there will be a long-term need--one which 
will exceed three years in length--for the sort of high analytic 
quality, unquestioned objectivity, and ability to assess proprietary 
data and sensitive government information analysts in the Homeland 
Security Institute will possess.

    Question 5. In your efforts to establish a technology clearinghouse 
institute for the Department as required by the Homeland Security Act 
of 2002, have you consulted with other federal clearinghouses to 
determine how best to leverage the Department's resources with their 
efforts?
    Answer. In fact, DHS has partnered with the Technical Support 
Working Group, an extant federal clearinghouse operated by the 
Departments of State and Defense, to carry out the mandate.

    Question 6. Has a time-line been developed for the activities as 
required in the Homeland Security Act of 2002 for the Science and 
Technology Directorate?
    Answer. A detailed timeline has not been developed. However, it is 
our intent that all mandated activities will be carried out as 
required.

    Question 7. First responders have received well deserved attentions 
since September 2001. One issue of importance to first responders, such 
as police, firefighters, and emergency medical services is 
communications interoperability. What programs and strategies does the 
Department of Homeland Security have to deal with the issue of public 
safety communications interoperability?
    Answer. Primary responsibility for developing interoperability 
policy and priorities lies with the SAFECOM program which has recently 
been transferred to DHS. The mission of SAFECOM is to improve 
communications and communications interoperability among local, state, 
tribal, and federal public safety agencies. Since an overwhelming share 
of the nation's communications infrastructure is owned and operated at 
the local and state level, SAFECOM is focusing a great deal of 
attention on addressing the issue at those critical levels. At the same 
time, SAFECOM will be working to address the need for improved 
communications interoperability among federal agencies and among local, 
state and federal agencies where appropriate.

    The SAFECOM program, in concert with local and state public safety 
associations through the Coalition for Improved Public Safety 
Communications, is developing a ``systems architecture roadmap'' to 
address this critical issue. As part of this ``roadmap,'' SAFECOM is 
initiating short and medium term initiatives to pave the way for 
achieving the longer term objective of enabling public safety agencies 
to communicate with other public safety agency when needed, and 
simultaneously developing long term initiatives to prepare for the 
future. To implement these initiatives, SAFECOM will leverage already 
existing federal programs addressing the issue, most critically the 
``first responder'' grants funds administered by the Office for 
Domestic Preparedness and other federal agencies, the Public Safety 
Wireless Network, and the National Institute of Justice's AGILE 
program. SAFECOM drafted consistent technical guidance for nearly $150 
million in interoperability grants jointly awarded by EP&R and the 
Department of Justice during FY 2003.
    Among other initiatives that SAFECOM is initiating are: identifying 
and assisting in the implementation of short-term ``patch'' solutions 
such as cross-band repeaters; identifying governance models that 
directly involve the first responders themselves; best practices to 
improve interoperability; identifying and, where appropriate, 
developing relevant standards; and the research, development, testing, 
and evaluating of technologies that can improve communications 
interoperability. At the same time, SAFECOM, in concert with the public 
safety community, will work with the Federal Communications Commission 
to address spectrum management and allocation for public safety 
agencies.
    Additionally, the Standards program within DHS(S&T), working in 
consonance with Project SAFECOM, is currently developing a 
communication interoperability workshop with participation from NIST, 
IEEE, NASA, DOD, IAB, and others. The goal is to plan for integration 
and coordination of ongoing efforts in various activities of the 
Federal Government and to work with the private sector and Standards 
Development Organizations to develop a suite of uniform performance 
standards for existing COTS technologies. Another goal is to also 
provide consistent advice to technology developers on requirements for 
second-generation equipment and protocols.
    Finally, in coordination with the Directorate of Science and 
Technology, the Office for Domestic Preparedness (ODP) will provide 
funds to assist State and local agencies evaluate and acquire 
interoperable communication technologies.

    Question 8. Currently, the United States Fire Administration (USFA) 
administers the $750 million Assistance to Firefighters Grant Program. 
The USFA was formerly a part of the Federal Emergency Management Agency 
and is being transferred to the Emergency Preparedness and Response 
Directorate of the Department of Homeland Security. The 
Administration's FY 2004 budget proposes to incorporate the Assistance 
to Firefighters Grant Program into the $3.5 billion First Responder 
Initiative, which would be run by the Office of Domestic Preparedness 
(ODP) in the Border and Transportation Security Directorate. What is 
the Administration's rationale for moving this grant program from USFA 
to ODP?
    Answer. For years, the nation's emergency preparedness and response 
community have been urging the adoption of a `one-stop-shop' for 
Federal preparedness assistance. The Department of Homeland Security 
agrees that such a step is critical to the improved administration and 
coordination of its disparate grant programs. The FY 2004 Budget took 
the first step by proposing the consolidation of Fire Grants into the 
Office for Domestic Preparedness, and will soon submit a plan for 
consolidating these and other grants into State and Local Coordination 
Office, which will also include ODP. This office will be the focal 
point through which state and local first responder funds will be 
administered, often in coordination with subject matter experts on 
other DHS agencies. This proposal will not affect the location of the 
U.S. Fire Administration within the Emergency Preparedness and Response 
Directorate, and USFA will continue to assist ODP in administering 
these funds. The Administration does believe that maximum grant amount 
should be raised for large metropolitan areas so that they make more 
effective investments in their preparedness and response capabilities.

        a. I have introduced S. 321, the Firefighting Research and 
        Coordination Act. This legislation is cosponsored by Senator 
        Hollings and six other senators. It would conduct the basic 
        research that is required for equipment standardization; 
        authorize the revision of the Federal Response Plan to account 
        for incidents like those that occurred on September 11; 
        authorize the U.S. Fire Administration to develop model mutual 
        aid plans for use by State and Local governments and report on 
        a credentialing system for volunteers; and authorize new 
        courses at the National Fire Academy to utilize new technology 
        and tactics in response to terrorist attacks. What 
        recommendations would you have for this legislation as Congress 
        considers it?
        Answer. The Administration appreciates the goals of the 
        Firefighting Research and Coordination Act (S. 321), and notes 
        that this legislation was largely incorporated into a recently 
        enacted reauthorization of the U.S. Fire Administration (S. 
        1152), that was signed by the President in December.

        b. Senator Dodd has introduced S. 544, the Staffing for 
        Adequate Fire and Emergency Response Firefighters Act of 2003. 
        This legislation would authorize a $7.7 million grant program 
        from Fiscal Year 2004 to Fiscal Year 2010 to allow local fire 
        districts to hire firefighters. What is the Administration's 
        position on this legislation?
        Answer. We believe that the hiring of local personnel such as 
        firefighters should be remain as a local matter and 
        responsibility. Offering $1 billion in Federal grants for the 
        hiring of new personnel leaves these new positions highly 
        vulnerable once the grant has expired.
        We agree that fire departments across the nation, volunteer and 
        career, are in need of federal support to prepare for their 
        critical role in Homeland Security. However, the Department 
        believes SAFER grant program risks diverting funds and 
        attention from the more critical role of the Federal Government 
        to provide fire departments with assistance for equipment, 
        training, and exercises to improve their response capabilities 
        for major incidents. Such investments can be made on an annual 
        basis without jeopardizing local budgets.

        c. This year the Commerce Committee will consider 
        reauthorization of the U.S. Fire Administration. Do you have 
        recommendations for provisions that should be added to this 
        legislation?
        Answer. As noted earlier, legislation reauthorizing the U.S. 
        Fire Administration (S. 1152) was enacted by Congress last 
        Fall, and was signed by the President in December.
                                 ______
                                 
  Response to Written Questions submitted by Hon. Frank Lautenberg to
                             Hon. Tom Ridge
    Question 1. You have gone on record before the Committee on 
Governmental Affairs this year that ``Amtrak and freight Railroads are 
at considerable risk of terrorist attack'' and that you ``look forward 
to working with Congress to support legitimate security enhancements.'' 
Over 25 million people a year take Amtrak, our nation's intercity rail 
carrier, and hundreds of million more ride commuter railroads every 
weekday. What has the Department done to improve the security of rail 
transportation for both intercity travel and commuter service?
    Answer. DHS is working with the Federal Railroad Administration 
(FRA) and governmental and industry stakeholders to establish best 
practices and national standards, develop security plans and 
regulations, better assess security vulnerabilities and identify needed 
security enhancements to the rail system and related infrastructure. 
DHS's focus is on developing a national rail security program centered 
on prevention, response, recovery, restoration of services, and 
restoring public confidence.

    Some specific initiatives include:

        1. Coordinating information and threat sharing through the 
        Surface Transportation Information Sharing and Analysis Center 
        (ISAC) managed by the Association of American Railroads (AAR), 
        including deploying DHS personnel to the ISAC;
        2. Identifying the gaps in antiterrorism training among rail 
        personnel;
        3. Working with AAR, FRA and rail carriers to conduct a pilot 
        project to identify certain bridges that are critical to the 
        rail transportation system;
        4. The Chlorine Initiative, which includes a system security 
        review of Chlorine supply chain, threat/risk/vulnerability 
        assessments, developing a prototype to address other hazardous 
        materials, and recommending best practices and performance-
        based standards;
        5. The Radiological Dispersal Device (RDD) Project, a 
        cooperative effort for minimizing risk of illicit trafficking 
        of an RDD;
        6. The Food and Feed Stock Security Standards Initiative to 
        develop food security standards in cooperation with the Food 
        and Drug Administration and the U.S. Department of Agriculture; 
        and
        7. Developing security standards for intermodal containers.

    Question 2. The Northeast Rail Corridor is a transportation asset 
like no other in the country--it links almost 24 million people in a 
number of major cities and provides access to freight and commuter 
lines from here all the way to Boston. Since the Department's creation, 
what has the Department done to improve security on the Corridor?
    Answer. TSA has been in continuous contact with Amtrak's Chief of 
Police and other Amtrak security officials to discuss the current 
threat and intelligence. Routine communication with these key 
stakeholders is paramount to providing the Chief of Police the 
flexibility to focus police officers' attention and presence on areas 
where the system is most vulnerable.
    TSA is working with the FRA and governmental and industry 
stakeholders to establish best practices and national standards, 
develop security plans and regulations, better assess security 
vulnerabilities and identify needed security enhancements to the rail 
system and related infrastructure. In addition, TSA is developing a 
national rail security program that focuses on prevention, response, 
recovery, restoration of services, and restoring public confidence

    Question 3. Current funding formulas for homeland security 
assistance to states only take into account--beyond the minimum 
guarantees--population share. This produces strange results: we award 
the equivalent of $9.78 per person in security grants to the State of 
Wyoming, but only the equivalent of $1.69 per person to New Jersey. 
This is even below the average of $1.98. While states in the interior 
of the U.S. enjoy certain security comforts, states like New Jersey are 
subject to higher security risks. We have to worry about the Port of 
Newark, the Northeast Rail Corridor, the New Jersey Turnpike, countless 
petrochemical facilities and nuclear facilities--and it's not just the 
people who live in New Jersey that are exposed to these risks, but also 
those who live nearby or are traveling through, or receive freight 
traveling through. Why did the Department choose to use population 
share as the basis in which to distribute the remaining (after minimum 
guarantees of 0.75 percent and 0.25 percent were allocated to states 
and territories) funds. How can the funding mechanism be changed to 
more equitably consider such risk factors like population density and 
infrastructure location?
    Answer. The formula used to determine funding distribution to each 
state and territory was largely mandated by Congress as defined in the 
USA PATRIOT Act of 2001 (Pub. L. No. 107-56). Further, the Department 
of Justice's Office of Justice Programs has been using this type of 
formula since the late 1960s.
    There has been a growing concern regarding this formula used to 
allocate grant funding through ODP. Homeland security preparedness 
needs differ across the nation, and addressing the conflict between 
funding the highest threat areas and distributing funds on a wider 
basis is complicated. Among other factors, during the last ODP 
nationwide assessment process, states and local jurisdictions reported 
significant vulnerabilities and threats across the country in all types 
of jurisdictions.
    Starting in FY04, the Department will seek to make changes in how 
it distributes funding to the states. Each state will continue to 
receive a base amount as part of the ODP State Homeland Security Grant 
Program. However, the Department will also use factors other than 
population share, such as threat and risk assessments, to make 
determinations on the allocation of these funds. Furthermore, the 
Department has made aggressive use of the Urban Area Security 
Initiative to ensure that urban areas and infrastructure at greater 
risk, in New Jersey and elsewhere, are funded adequately.
                                 ______
                                 
 Response to Written Questions submitted by Hon. Ernest F. Hollings to
                             Hon. Tom Ridge
    Question 1. The Coast Guard has tremendous new responsibilities for 
homeland security. After TSA, it is the largest single agency to be 
moved to DHS. Yet in the FY2004 budget request, only 25 percent of the 
Coast Guard's operating budget is aimed at the homeland security 
mission--i.e., protection of our ports, our coastline, and our 
waterways.

        a. How can that possibly be sufficient, Particularly when with 
        each new elevation of the homeland security level, Coast Guard 
        assets are pulled into a high operating tempo, significantly 
        increasing their operational costs and more quickly wearing out 
        their assets?
        Answer. The Coast Guard's Ports, Waterways, and Coastal 
        Security (PWCS) mission was redefined as a result of the 
        increased post-September 11, 2001 homeland security 
        responsibilities. PWCS is not, however, a new mission, nor is 
        it the Coast Guard's only homeland security mission. Section 
        888 of the Homeland Security Act defines Homeland Security 
        missions as follows:

   <bullet>   Ports, Waterways, and Coastal Security (PWCS)

   <bullet>   Drug interdiction

   <bullet>   Migrant interdiction

   <bullet>   Defense readiness

   <bullet>   Other law enforcement

        Thus, while the fiscal year 2004 budget includes approximately 
        $1.2 billion for the PWCS mission, a larger view of the request 
        shows that approximately $2.1 billion, or 44 percent, of the 
        Operating Expenses budget is attributable to Homeland Security 
        missions.
        Due to the unique multi-mission nature of the Coast Guard, any 
        funding applied toward Homeland Security missions also 
        contributes to successes with Non-Homeland Security missions.
        The Coast Guard's annual Operating Expenses appropriation works 
        towards the attainment of Homeland Security Advisory System 
        (HSAS) levels of Green, Blue and Yellow. The costs associated 
        with Operations IRAQI FREEDOM and LIBERTY SHIELD, including the 
        subsequent HSAS increase to Orange, were addressed via the 
        Fiscal Year 2003 Wartime Supplemental. Initiatives within the 
        Fiscal Year 2004 budget will bolster the Coast Guard's homeland 
        security capabilities and capacities, which will mitigate the 
        impacts of future elevations of the HSAS threat level on the 
        Coast Guard resource allocation across all missions.

        b. What is the increase in costs, per day, for each elevation 
        in threat advisory level?
        Answer. Based on Operation LIBERTY SHIELD requirements, the 
        Coast Guard estimates that it cost $1,600,000 per day to move 
        from the Homeland Security Advisory System (HSAS) level Yellow 
        to Orange and that it will cost an additional $100,000 per day 
        to move from HSAS level Orange to Red.

    Question 2. The FY2003 supplemental calls for $180 million dollars 
for heightened Coast Guard operations associated with the code Orange 
that went into effect when the U.S. went to war with Iraq. Precisely 
how much of the FY2004 budget is targeted for these ``peaks'' of 
security activity?
    Answer. The Coast Guard's Fiscal Year 2004 request does not contain 
resources directed only to the ``peaks'' of security activity. Rather, 
the Fiscal Year 2004 request will increase the Coast Guard's overall 
capacity and capability to perform all of its legislatively mandated 
missions. Building capacity equates to our need for continued personnel 
(both Active Duty and Reservists) and asset growth to increase our 
organic presence while capability speaks to improving the operational 
effectiveness and readiness of our assets and infrastructure.
    The multi-mission resources in the Fiscal Year 2004 budget are 
critical to the implementation of the President's National Strategy for 
Homeland Security and to the sustaining of the Coast Guard's high 
standards of operational excellence across all mission areas. Every 
Homeland Security dollar directed to the Coast Guard will contribute to 
a careful balance between our safety and security missions, both of 
which must be properly resourced for effective mission accomplishment. 
The Fiscal Year 2004 budget reflects steady progress in our effort to 
meet America's maritime safety and security needs. This new funding 
will positively impact our performance in all assigned goals while the 
increased capacity and capability will enable us to manage future 
``peaks'' of security activity with minimal disruption to our non-
Homeland Security missions.

    Question 3. What part of the FY2004 budget is specifically aimed at 
replacing capital assets that are being more heavily used during these 
periods of increased security?
    Answer. Coast Guard's Fiscal Year 2004 budget submission includes 
funding to both replace and supplement capital assets used to prosecute 
increased operational tempo since September 11, 2001. The fiscal year 
2004 $500 million Deepwater request will directly contribute to 
replacement or conversion of legacy assets while increasing capability 
over the life of the project. Fiscal year 2004 projects aimed at 
supplementing increased operational tempo include requests for 
additional Coastal Patrol Boats and the Response Boat Medium project. 
These projects will not replace current assets but rather increase the 
capacity and capability to perform our enhanced Homeland Security 
mission as well as sustain our non-Homeland Security missions.

    Question 4. The costs of securing our seaports and harbors are high 
but not impossible to cover. The Coast Guard has published estimates 
and held public meetings to discuss the costs. Considering the need for 
over $6 billion dollars, $1.4 billion for this first year alone, why 
has the Administration not made any move to meet this need in the 
budget?
    Answer. The Coast Guard initially estimated that the cost to 
industry to implement the port security requirements required by the 
Maritime Transportation Security Act of 2002 would be $1.3 billion in 
the first year and $6.0 billion over the first 10 years. In the final 
rules published on October 22, 2003, the Coast Guard revised these 
estimates to be $1.4 billion and $7.3 billion respectively.
    For FY 2004, DHS requested substantial resources across the 
Department for maritime transportation security, including resources in 
the Coast Guard for ports and maritime security; in CBP for cargo 
security; in IAIP for vulnerability assessment, intelligence, and 
infrastructure protection; and in EP&R/FEMA for emergency response. The 
Coast Guard was appropriated over $1.5 billion in support of the Ports, 
Waterways, and Coastal Security mission in FY 2004. In addition, $62 
million was appropriated specifically for U.S. Customs and Border 
Protection's Container Security Initiative and $14 million was 
appropriated for CBP's Customs-Trade Partnership Against Terrorism (C-
TPAT). Finally, $125 million was appropriated for port security grants.
    While clearly there is a governmental role in providing port 
security, owners and operators have a shared responsibility to provide 
port security measures. The requirements contained in the final 
Maritime Transportation Security Act (MTSA) implementing rule are 
intentionally performance based to allow innovative and cost-effective 
solutions by industry to improve security with minimum capital outlay 
and burden on legitimate use of the maritime transportation system. In 
light of this, and the many additional initiatives that have been 
undertaken by the Federal Government to improve maritime security, DHS 
believes that the Administration's request is adequate.

    Question 5. The Coast Guard has many ties to programs within the 
Department of Transportation, including important regulatory programs, 
such as hazardous materials transport. The Coast Guard also provides 
many services to other Department of Transportation agencies. For 
example, the Coast Guard maintains the LORAN-C navigation systems used 
for air navigation. How will you ensure that such programs are not 
disrupted?
    Answer. A joint Coast Guard-Department of Transportation (DOT) team 
outlined the Coast Guard's continuing role as DOT's Maritime Safety and 
Security component, and its lead role in DOT maritime transportation 
issues through a series of formal and informal agreements to ensure no 
loss in effectiveness by either agency. Memorandums of Agreement cover 
operational areas, such as hazardous materials compliance and response 
activities, LORAN-C navigation, domestic icebreaking, Recreational 
Boating Safety, and the Crisis Coordination Center. The Coast Guard and 
DOT will continue other programs under existing agreements or through 
informal working relationships.

    Question 6. Can you give an update on all Memorandum of 
Understanding between your Department and DOT, and the division of 
responsibility within your Department, including shared jurisdiction, 
for the various components of the MTSA?
    Answer. The Department is very pleased to date with its working 
relationship with the Department of Transportation and its agencies. 
There is inevitable overlap in safety and security, but DHS and the 
other agencies worked together well before the March 1 transfer and 
continue to do so. This will be critical to our success in port 
security where the programs and interests of at least four entities: 
TSA, the Coast Guard, U.S. Customs and Border Protection, and the 
Maritime Administration, intersect. Due to the long integration of the 
Coast Guard with the Department of Transportation, DOT and the Coast 
Guard concluded a series of Memoranda of Understanding (MOUs) with 
respect to administrative services.
    The U.S. Coast Guard, under the Maritime Transportation Security 
Act (MTSA), is the agency responsible for the National Maritime 
Transportation Security Plan (TNMSP). TSA is responsible for ensuring 
that the NMSP is consistent with the National Transportation System 
Security Plan (NTSSP) and is complementary with the plans developed for 
the other modes of transportation.
    TSA, the U.S. Coast Guard, U.S. Customs and Border Protection and 
the Maritime Administration are working together to develop regulations 
under the MTSA. In addition, TSA and the U.S. Coast Guard are 
developing a MOU between the two agencies that will address, among 
other things, respective roles and responsibilities. Our overarching 
goal is to define our strategic relationship with an aim towards 
identifying and leveraging our respective core competencies, 
capabilities, resources, and authorities to enhance the transportation 
security of the United States, and to achieve national performance 
goals for ports, waterways, and coastal security.

    Question 7. Please provide a list, with accompanying description, 
of all MOUs or MOAs that have been completed or are being negotiated 
between DHS and other Departments?
    Answer.

     MOU between DHS, DOJ and CIA
     Signed by Secretary Ridge on 2/28/2003, Attorney General Ashcroft 
on 3/4/2003 and CIA Director Tenet on 3/4/2003.

     Subject: MOU between the Intelligence Community, Federal Law 
Enforcement Agencies, and The Department of Homeland Security 
concerning Information Sharing.
     MOU between DHS and DOJ/FBI
     Signed by Secretary Ridge on 2/28/2003 and Attorney General 
Ashcroft on 3/4/2003.
     Subject: MOU between DHS and DOJ/FBI regarding the Domestic 
Emergency Support Team (DEST) Program.
     MOA between DHS and USDA
     Signed by Secretary Ridge on 2/28/2003 and Secretary Veneman 
signed but not dated.
     Subject: MOA between DHS and USDA to transfer certain agricultural 
import and entry inspection functions to the Secretary of Homeland 
Security from the Secretary of Agriculture.
     MOA between DHS and DOE
     Signed by Secretary Ridge on 2/28/2003 and Secretary Abraham on 2/
28/2003.
     MOA between DOE and DHS establishes a framework for DHS to access 
the capabilities of various DOE assets.
     MOA between DHS and HHS
     Signed by Secretary Ridge on 3/5/2003 and Secretary Thompson on 2/
28/2003.
     MOA between HHS and DHS concerning cooperative arrangements to 
prevent, prepare for, and respond to terrorism and major disasters.
     MOU between DHS and DOJ
     Signed by Deputy Secretary England on 4/17/2003 and Deputy 
Attorney General Thompson on 5/13/2003.
     Subject: MOU INTERPOL: Memorandum of Understanding (MOU) between 
Department of Homeland Security and Department of Justice pertaining to 
U.S. membership in the International Criminal Police Organization 
(INTERPOL) and related matters.
     MOA between DHS and DOJ
     Signed by Secretary Ridge and Attorney General Ashcroft--both 
signed on 5/13/2003.
     Subject: Memorandum of Agreement between the DOJ and DHS 
concerning terrorist financing investigations.
     MOA between DHS and DoD
     Signed by Under Secretary Janet Hale on 5/1/2003 and Samuel Cox on 
4/21/2003.
     Subject: MOA between DoD and DHS for DoD personnel support 
services to DHS.
     MOU between DHS and USDA
     Signed by Secretary Ridge and Secretary Veneman on 6/6/2003.
    Subject: MOU between DHS and USDA relating to the transfer of the 
Plum Island Animal Disease Center (PIADC) from USDA to DHS on 6/1/2003.

    In addition, the Department has entered into a number of MOUs with 
other executive branch departments that provide administrative services 
to various DHS components. Most of these departments are former 
parental agencies of DHS components. The services provided under these 
MOUs include such things as payroll processing, and IT support. These 
MOUs are effective until the end of the fiscal year and include MOUs 
with the following departments: Agriculture; EEOC; GSA; HUD; DOJ; 
State: Commerce; Energy; HHS; Interior; OPM; DOT; Treasury; and DoD.

    Question 8. In addition to these Memoranda, the Coast Guard has 
identified approximately 100 other relationships and service 
interlinkages with DOT. What types of services formerly provided by DOT 
will Coast Guard absorb?
    Answer. Continuity of Coast Guard support was accomplished through 
a series of agreements with the Department of Transportation (DOT). 
These agreements govern the scope and duration of the services provided 
by DOT. The Department of Homeland Security (DHS) is working to ensure 
continuity of services as these agreements expire. As DHS's 
organizational structures and capabilities continue to form, we will 
have a better understanding of the types of services DHS will provide 
either on a department-wide basis, a reimbursable basis, or those 
services which the Coast Guard will absorb.

        a. What are the resource impacts of this shift?
        Answer. We will be better able to assess resource impacts as 
        the Department's organizational structures and capabilities 
        develop.

    Question 9. The law establishing DHS provides that the new Border 
and Transportation Security directorate will be responsible for ``(2) 
securing the borders, territorial waters, ports, terminals, waterways, 
and air, land, and sea transportation systems of the United States''. 
Yet the Commandant of the Coast Guard has testified that the Coast 
Guard ``is the lead federal agency for Maritime Homeland Security,'' 
and you have testified that the Coast Guard is the lead federal agency 
for port security. How do you intend to resolve the potential conflict?
    Answer. The Coast Guard is the lead federal agency for Maritime 
Homeland Security. The local Coast Guard Captains of the Port are the 
Federal Maritime Security Coordinators as delineated in the MTSA of 
2002 and are responsible for ensuring unity of effort among not only 
the other DHS agencies, but also other federal, state and local 
governments and the maritime industry. Coordination of port security 
efforts will be accomplished through the Area Maritime Security 
Committees led by the Captains of the Port.

    Question 10. Is the Coast Guard actively negotiating a memorandum 
of understanding with the Transportation Security Administration or the 
Border directorate on the authority of each with respect to maritime 
security, or will legislation be necessary to address these conflicts?
    Answer. Legislation will not be necessary to address specific 
agency responsibilities. The Secretary of DHS has delegated lead agency 
responsibility for each section of the MTSA of 2002 to the Coast Guard, 
TSA, and CBP as appropriate. MOUs among these agencies are in process 
to lay out the detailed responsibilities.

    Question 11. The Coast Guard has an intricate network of 
relationships with state and local authorities, yet the new department 
will establish a separate office and its own network of contacts for 
coordination with state and local authorities. How will this new DHS 
office function vis-a-vis the Coast Guard?

        Will these two networks be merged?
        Will regional/district offices of the Coast Guard be moved to 
        join DHS offices?
        Which ones?

    Answer. A truly secure homeland requires close coordination between 
local, state and federal governments. The Coast Guard will continue to 
work with the Office of State and Local Government Coordination to 
ensure that close coordination takes place with state and local first 
responders, emergency services and governments in safeguarding the 
homeland. The Office of State and Local Government is charged with 
coordinating, simplifying and consolidating government relations on 
issues related to America's state and local agencies. It also 
coordinates federal homeland security programs and information with 
state and local officials. We expect that the current network of state 
and local relationships that have been developed by the Coast Guard 
will be enhanced by this department wide endeavor. We do not foresee a 
wholesale restructuring of the Coast Guard's field structure but will 
likely implement marginal change to align our structure with the 
Department to ensure unity of purpose and unity of effort. We stand 
ready to optimize synergies between the diverse entities within the 
Department as the organizational structure is developed.

    Question 12. How will other potential conflicts of authority be 
resolved, such as between the Coast Guard's role in the International 
Maritime Organization, and the new international office within DHS?
    Answer. The Department of Homeland Security (DHS) Reorganization 
Plan, issued on November 25, 2002, outlined the steps to be taken by 
the Secretary to organize the Department, including the delegation or 
assignment of functions transferred to the Department to permit the 
Department to carry out the functions transferred under the plan. Since 
March 1, 2003, the Coast Guard has worked closely with the various 
elements of the Department to ensure development of interconnected and 
complementary systems that are reinforcing rather than duplicative. We 
will continue to work towards resolution of potential conflicts of 
authority to ensure greater accountability and unity of effort in 
addressing critical homeland security missions.

    The Coast Guard serves as the head of the U.S. delegation to the 
International Maritime Organization (IMO and other Federal agencies 
play active roles as part of the delegation when issues are more 
appropriately addressed by their participation). This role has not 
changed with transition to DHS. The Coast Guard will continue to clear 
all policy issues through the Administration and partner with other 
agencies on issues brought before the IMO.

    Question 13. The MTSA requires U.S. agencies to agree on what 
documentation for foreign seafarers is necessary to allow access from 
vessels that are in the United States. A press report indicates that an 
officer of a U.S. shipping agency is being charged with providing 
forged visas. What steps are being taken to investigate and certify 
that individual international seafarers are legitimately allowed into 
the United States?
    Answer. All commercial vessels greater than 300 gross tons are 
required to provide an advance notice of arrival (ANOA) to the National 
Vessel Movement Center (NVMC) 96 hours prior to entering a port or 
place in the United States. As part of the ANOA, the vessel must 
provide details concerning the crew, passengers, and cargo. The 
National Maritime Intelligence Center (NMIC), a joint intelligence 
center consisting of the Coast Guard Intelligence Coordination Center 
and Office of Naval Intelligence personnel, screens the names of the 
crew and passengers through law enforcement and counter-terrorism 
databases. The NMIC compiles and analyzes the results of those queries 
along with any other intelligence data and provides it to the 
appropriate Captain of the Port. The Coast Guard also actively works 
with U.S. Customs and Border Protection to ensure crew members' 
documents are reviewed before and during each port visit.
    Coast Guard personnel board certain vessels prior to entry and 
other vessels after they arrive at the dock. These boardings provide an 
opportunity to make an up-close observation of the vessel, cargo, 
documentation and crew. During these boardings, licenses and seamen's 
documents are further examined for accuracy.
    On the international level, the Coast Guard has been working with 
the International Maritime Organization (IMO) and the International 
Labor Organization (ILO) to develop a comprehensive regime for the 
credentialing of crewmembers that will include an enhanced seafarer 
identification credential containing a ``hard'' biometric indicator. In 
March 2002 the Governing Body of the ILO agreed to have the June 2003 
International Labor Conference consider amendments to the Seafarers' 
Identity Documents Convention (ILO No. 108). In support of this effort, 
the IMO issued a resolution titled, ``Enhancement of Security in Co-
operation with the International Labor Organization'' which was adopted 
by the Conference on Maritime Security on December 12, 2002. The Coast 
Guard has been working with the Department of State, Maritime 
Administration, Transportation Security Administration, U.S. Customs 
and Border Protection and others to support the work of ILO.

    Question 14. The Maritime Transportation Security Act of 2002 
mandates a system for tracking vessels coming to the United States or 
that will be transiting our waters, in much the same way as we track 
aircraft in our airspace. The Coast Guard does not have the 
infrastructure or the funding to meet this mandate. Your budget only 
requests one million more to enhance our infrastructure to allow vessel 
movements to be tracked. What plans are in place to make this system a 
reality?
    Answer. The Coast Guard intends to install shore-based tracking 
systems in nine critical ports and waterways that are now covered by 
Federal Vessel Traffic Services (VTS). In order to expand this 
surveillance to other areas, the Coast Guard is developing a plan to 
establish a network of receiver sites to track vessels equipped with an 
Automatic Identification System (AIS) transmitter.
    The viability of this network is dependent on vessels of interest 
being outfitted with an AIS and an extensive shore-side infrastructure 
that covers the nation's navigable waters. The Coast Guard is about to 
release a rulemaking that will mandate the carriage of AIS on board 
those vessels identified in the Maritime Transportation Security Act of 
2002. This mandatory carriage will be phased in beginning with the 
ports covered by a federal VTS and eventually extending nationwide to 
include all coastal regions.
    In addition, the Coast Guard is working through the IMO to develop 
a mandatory international requirement for ship's long range 
identification and tracking. Similar to AIS, this will require ships to 
carry equipment that sends the appropriate signals to allow countries 
to identify and track them when they are bound for the ports of that 
county or on innocent passage near the countries coast except at 
distances greater than provided for by AIS.

    Question 15. Customs has initiated the Container Security 
Initiative (``CSI''), in order to secure agreements with foreign 
nations to mutually work on law enforcement, share information on cargo 
shipments, and ultimately to perform inspections at foreign ports. 
While I applaud this effort, I have some concern that its 
implementation may be difficult. For example, with respect to cargo 
information, most nations do not police to any great extent the 
shipment of exports, so if we rely on their export data for law 
enforcement are we getting good information?
    Answer. Our U.S. Container Security Initiative (CSI) teams use data 
systems connected to our Automated Targeting System to target 
containers destined for the United States, while our foreign 
counterparts conduct similar targeting using their own systems. Prior 
to September 11, 2001, most countries, including the United States, 
focused on risk management processes targeting imports rather than 
exports. Some foreign CSI partners have recognized the need to change 
their laws to get sufficient legal authority to receive export data 
prior to departure and enhance their ability to inspect goods prior to 
departing their country.
    While we agree that implementation is a complicated, multi-step 
process, part of the process will be building in checks and balances to 
ensure that we are confident in the information we are receiving. To 
that end, in order to be eligible to participate in CSI, U.S. Customs 
and Border Protection (BCBP) encourages present foreign CSI 
participants, and will require future hosts to have the ability to 
inspect cargo originating, transiting, exiting, or being transshipped 
through their countries. Host nations must commit to establishing risk 
management systems to identify potentially high-risk containers, and 
automating those systems. These should include mechanisms for 
validating threat assessments and targeting decisions, and identifying 
best practices. Additionally, foreign hosts must commit to sharing 
critical data, intelligence, and risk management information with BCBP 
in order to do collaborative targeting, and developing an automated 
mechanism for these exchanges.

    Question 16. Under the CSI program, have foreign nations been 
willing to provide us with screening equipment to screen cargo which is 
being exported from their nation to be imported in the United States, 
if so, which nations have provided equipment for our law enforcement 
use?
    Answer. U.S. law enforcement officers do not screen or inspect 
cargo in foreign ports. U.S. CSI teams are only allowed to observe the 
host nations' screenings and inspections. However, one of the 
eligibility requirements for participation in CSI includes having non-
intrusive inspectional (NII) equipment available (including gamma or X-
ray imaging capabilities) for conducting inspections. This equipment 
must be in place at a foreign port prior to deploying a U.S. CSI team 
to that port. This is necessary in order to meet the objective of 
quickly screening containers without disrupting the flow of legitimate 
trade and is for the foreign government's use, not U.S. law enforcement 
use.

    Question 17. Under the CSI program has the United States put any 
screening equipment in foreign ports, and if so in what ports? If not, 
do we envision the purchase of screening equipment for use at foreign 
ports?
    Answer. Under CSI, the United States does not supply screening 
equipment in foreign ports, nor does BCBP envision purchasing screening 
equipment for use at foreign ports (see above #16). If inquiries are 
received from foreign ports regarding NII equipment, CBP will provide 
information to the foreign government about NII equipment used in U.S. 
ports, but CBP will not give recommendations on vendors.

    Question 18. How many imported cargo containers are physically 
screened by x-ray in U.S. seaports, and what percent of total container 
imports does this represent? Please also provide the total amounts of 
cargo containers that undergo similar x-rays in foreign ports through 
the CSI program?
    Answer. As this information is of a sensitive nature, I would be 
glad to provide this information to you or your staff in a more 
appropriate setting.

    Question 19. How many Customs personnel are stationed in foreign 
seaports with the CSI program, and where are they stationed, and what 
are the plans for stationing personnel in FY 2004?
    Answer. Currently there are 73 personnel deployed in foreign 
seaports. Twenty-three (23) ports were? operational by the end of FY 
2004 (the original 20 initial ports and the three Canadian ports). We 
anticipate that 17-20 additional ports could be operational by the end 
of FY04 in Europe and Asia.

    Question 20. Please provide, for the record a complete list of 
cargo screening equipment at use in U.S. seaports, and also the list 
where new equipment will be stationed during fiscal year 2004?
    Answer. There are currently 49 large-scale NII systems deployed to 
our nation's seaports on both coasts. The systems include the Mobile 
Truck X-ray, the Vehicle and Cargo Inspection System (VACIS), Mobile 
VACIS and Mobile Sea Container Systems.
    We anticipate deploying 16 additional large-scale NII systems to 
seaports on both coasts by the end of 2004. The systems will include 
Mobile VACIS units, Pallet Gamma-ray systems and Mobile Sea Container 
Systems.

    Question 21. What steps are being taken to bolster the current 
cargo security programs that are now part of DHS, to ensure that we 
have verifiable concrete expectations for enhanced security?
    Answer. Operation Safe Commerce (OSC) is a key step toward insuring 
there will be future improvements in cargo security programs. This 
program will help to assess vulnerability and mitigation strategies in 
the intermodal shipping container supply chain. Competitive grants will 
be provided at the three largest container load centers in the United 
States (Los Angeles/Long Beach, Seattle/Tacoma, and New York/New 
Jersey). OSC will follow containers across critical interfaces within 
the transportation sector, providing valuable information for improving 
security in all transportation modes. A cost/benefit analysis will be 
performed on the results. Through an interagency review process, 
involving CBP, the Coast Guard, the Department of Justice, the 
Department of State, the Department of Transportation, and others, 
effective measures will be identified to mitigate risk.

    Question 22. Also, what steps are being taken to bring together 
various cargo security requirements under the Secure Systems of 
Transportation Program?
    Answer. DHS components, including CBP, TSA and USCG are working 
with governmental and industry stakeholders to establish best 
practices, develop regulations, and set national standards for Secure 
Systems of Transportation (SST). The lead efforts in this endeavor are 
the Container Working Group, the Customs-Trade Partnership Against 
Terrorism (C-TPAT) and Operation Safe Commerce (OSC). Through these 
programs, DHS and DOT (add others) are working to improve the security 
of international and domestic supply chains by evaluating industry 
standards and procedures, identify strengths and weakness in the supply 
chain, and developing appropriate regulatory guidelines.

    Question 23. While I am generally supportive of the C-TPAT program, 
I have some serious reservations that the program will not be all that 
effective if we do not ensure that participant companies are regularly 
audited and removed from the program unless they are in compliance. 
Currently, the program is voluntary, in that shipper, carriers, and 
ports agree to be bound to a code of conduct for their security 
practices. Well right now, the C-TPAT program is a paper program. What 
are you going to do to make sure this program is more than just a paper 
program?
    Answer. The U.S. Customs and Border Protection (CBP) is sending 
teams of CBP officers to validate supply chain security procedures of 
C-TPAT participants. In addition, the security procedures of these 
companies will be reviewed on a regular basis and updated or changed as 
events warrant. Companies that continue to reflect poor security may be 
removed from the C-TPAT program.

    Question 24. How many auditors are proposed to audit the practices 
of C-TPAT participants?
    Answer. Ten CBP officers are currently traveling to C-TPAT 
companies to conduct C-TPAT security validations. CBP is working to 
increase the number of personnel conducting these validations. One 
hundred of the 157 C-TPAT positions requested in the FY 2004 
President's Budget will be used to enhance these efforts.

    Question 25. Have you considered the possibility of third party 
private sector auditors to supplement Customs or TSA personnel to 
enforce C-TPAT program elements?
    Answer. Once we open C-TPAT enrollment to the foreign sector of the 
supply chain, CBP may use the Business Anti Smuggling Coalition (BASC) 
to conduct audits of the foreign-based companies. BASC is a business-
led, CBP-supported alliance created to combat the smuggling of drugs 
and implements of terror in commercial cargo.

    Question 26. In the Omnibus Appropriations Act, a provision was 
inserted which would require the transfer of $25 million in INS fees to 
the TSA, in order to implement Section 70113 of the MTSA. I inserted 
this transfer of funds to the TSA because I am concerned that the 
agencies in DHS are not working together to come up with a system for 
the evaluation of vessels, cargo, crew, and passengers entering into 
the United States. For instance, it is my understanding that the Coast 
Guard's Maritime Intelligence Center, which had been the Center for a 
coordinated maritime information program had included a Customs 
presence, however, Customs is now pursuing it's own cargo information 
strategy, and this is just occurred since we passed the MTSA. Please 
indicate whether the INS fees have been transferred to the TSA?
    Answer. Although the Department has not transferred these funds, we 
agree with the purpose of this provision, namely to ensure that 
vessels, cargo and conveyances are subjected to the most rigorous 
threat analysis possible. We are working to identify the best tools to 
accomplish this goal, and anticipate that the DHS components of CBP, 
the Coast Guard, the Transportation Security Administration, and the 
Information Analysis and Infrastructure Protection Directorate will 
collaborate closely to augment our existing maritime targeting and risk 
analysis tools,

    Question 27. Can you tell me what steps are you intending to take 
to start to coordinate all of the maritime information on vessels, 
cargo, crew and passengers into one system?
    Answer. The following information outlines the initial steps taken 
to coordinate all of the maritime information on vessels, cargo, crew, 
and passengers into one system.

    U.S. Customs and Border Protection (CBP) is currently working on a 
Memorandum of Understanding (MOU) with Coast Guard to implement its 96 
hour Notice of Arrival (NOA) rule.
    CBP will give the Coast Guard access to CBP's Vessel Manifest 
System (VMS), and the Coast Guard will give CBP access to its Ship 
Arrival Notification System (SANS) and Marine Information for Safety in 
Law Enforcement (MISLE).

    Question 28. Are you planning to coordinate the Coast Guard's plans 
to monitor vessel movements into this system, and under what time frame 
can we envision that vessel movements will also be monitored by the 
system mandated in Sec. 70113?
    Answer. U.S. Customs and Border Protection has formed a working 
group with the Coast Guard and TSA to discuss and implement data 
exchange to address the issue of capturing information into one system. 
A timeframe for completion of the system has not yet been determined.

    Question 29. What steps have been taken to incorporate private 
sector shipping expertise, and private sector commercial shipping 
information systems into the evaluation of maritime threats?
    Answer. The evaluation of terrorism threats in the maritime domain 
requires a multi-layered strategy. No single system, approach, or 
methodology can adequately assess a threat landscape that is as varied 
and as without historical context for terrorist activity as that of the 
commercial maritime environment.
    Recognizing this reality, DHS has taken steps to implement a multi-
layered strategy to incorporate private sector support in developing 
effective risk management. These steps include:

 <bullet>   Supplementing CBP's AMS pre-arrival information with the 
        collection of global container movement information. This 
        action assists in closing the gap on information necessary to 
        detect transshipment risk through document exploitation in the 
        Automated Targeting System (ATS).

 <bullet>   Aggregating all-source commercial maritime data and 
        information from ocean carriers, port operators, terminal 
        operators, and maritime data portals, and subjecting such 
        commercial data to analytical methods best suited to 
        identifying and recognizing patterns of suspicious container 
        movements on a global basis.

 <bullet>   Developing methods and systems to evaluate global 
        commercial shipping information against classified intelligence 
        for detection of known bad actors.

 <bullet>   Incorporating this multi-dimensional approach into the 
        creation of an Indication & Warning capability to identify risk 
        early in the container shipment's history to monitor suspicion 
        over time.

    Question 30. A critical public safety issue is the need to have 
interoperable communications capabilities to ensure that first 
responders are able to exchange vital information in the event of an 
emergency. What steps is DHS taking to improve the interoperability of 
communications systems for emergency personnel at the federal, state 
and local level?
    Answer. The SAFECOM program is the Department's principal vehicle 
for addressing interoperability problems for first responders, in 
concert with the grant funding available through the Office for 
Domestic Preparedness. The mission of SAFECOM is to improve 
communications and communications interoperability among local, state, 
tribal, and federal public safety agencies. Since an overwhelming share 
of the nation's communications infrastructure is owned and operated at 
the local and state level, SAFECOM is focusing a great deal of 
attention on addressing the issue at those critical levels. At the same 
time, SAFECOM will be working to address the need for improved 
communications interoperability among federal agencies and among local, 
state and federal agencies where appropriate.
    The SAFECOM program, in concert with local and state public safety 
associations through the Coalition for Improved Public Safety 
Communications, is developing a ``systems architecture roadmap'' to 
address this critical issue. As part of this ``roadmap,'' SAFECOM is 
initiating short and medium term initiatives to pave the way for 
achieving the longer term objective of enabling public safety agencies 
to communicate with other public safety agency when needed, and 
simultaneously developing long term initiatives to prepare for the 
future. To implement these initiatives, SAFECOM will be leveraging 
already existing Federal programs addressing the issue, most critically 
the ``first responder'' grants funds administered by the Office for 
Domestic Preparedness, the Public Safety Wireless Network, and the 
National Institute of Justice's AGILE program.
    Among other initiatives that SAFECOM is initiating are: identifying 
and assisting in the implementation of short-term ``patch'' solutions 
such as cross-band repeaters; identifying governance models that 
directly involve the first responders themselves; best practices to 
improve interoperability; identifying and, where appropriate, 
developing relevant standards; and the research, development, testing, 
and evaluating of technologies that can improve communications 
interoperability. At the same time, SAFECOM, in concert with the public 
safety community, will work with the Federal Communications Commission 
to address spectrum management and allocation for public safety 
agencies.
    Additionally, the Standards program within DHS's Directorate of 
Science and Technology, working in consonance with Project SAFECOM, is 
currently developing a communication interoperability workshop with 
participation from NIST, IEEE, NASA, DoD, IAB, and others. The goal is 
to plan for integration and coordination of ongoing efforts in various 
activities of the Federal Government and to work with the private 
sector and Standards Development Organizations to develop a suite of 
uniform performance standards for existing COTS technologies. Another 
goal is to also provide consistent advice to technology developers on 
requirements for second-generation equipment and protocols.
    Finally, in coordination with the Directorate of Science and 
Technology, the Office for Domestic Preparedness (ODP) will provide 
funds to assist State and local agencies to evaluate and acquire 
interoperable communication technologies.

    Question 31. Has DHS prioritized by mode its planned efforts to 
secure the transportation system? If so, what is that prioritization?
    Answer. The Department has the responsibility to make 
recommendations for prioritization of protective measures across all 
infrastructures. It is the intent of the Department to include the 
transportation systems in an overarching system that allows the 
allocation of resources based on a combination of threat, vulnerability 
and a resultant risk analysis. Areas of interest that may be attacked 
by a terrorist must be assessed based on availability of the target and 
the consequences of attack. The different transportation modes all pose 
different vulnerabilities and attractiveness as a target and thus the 
prioritization must be operationally oriented, not stove-piped by 
sector.

    Question 32. There are no widely accepted standards or guidelines 
for physical, procedural, and personnel security that cut across all 
transportation modes. How is the Department of Homeland Security 
dealing with the need for a standardization methodology that would work 
in all transportation modes and when will the methodology be 
implemented?
    Answer. Consistent guidelines and standards will be developed for 
physical security and for personnel certification/training. The vision 
for the Standards program within DHS is that personnel working to solve 
similar problems will be directed to purchase similar suites of 
equipment or technologies. These people would then be directed to 
obtain a level of training and certification consistent with the 
equipment and technologies needed to perform a specific function. 
Therefore, ability of a specific standard or guideline to eventually 
cross-cut transportation modes will be defined by the similarity of 
functions performed--and of the sites or facilities. Standard operating 
procedures will be addressed by the entity managing the specific 
transportation mode.
    The approach for developing standards for training and personnel 
certification has just begun. Physical security standards work has not 
yet been initiated by DHS. However, we expect to leverage ongoing 
efforts in physical security standards development and equipment 
certification.

    Question 33. The TSA is in the process of developing a risk-based 
analysis model for identifying critical infrastructure gaps and risks. 
This modeling will also be used for identifying security threats for 
the transport of hazardous materials. Once TSA's analysis is completed 
and the model has been tested and found viable, they will provide their 
analysis to each modal administration identifying significant risks 
within the transportation infrastructure. Although, TSA is developing 
this risk-based model, they are extremely understaffed and are still in 
the early stages of development and implementation. For example, risk 
threat assessment pilot studies have only occurred in two areas in the 
New York Metropolitan area and the results from these studies have not 
been completed or released to state and local authorities. When will 
this risk-based analysis model be totally operational and be 
implemented throughout the United States?
    Answer. TSA has initiated pilot vulnerability programs across 
various transportation modes and will use the results of the 
vulnerability assessments to establish transportation security 
standards. The timeline for completion of vulnerability assessments 
across all 14 critical infrastructure sectors (of which transportation 
is one sector) will be developed and executed by the Information 
Analysis and Infrastructure Protection (IAIP) Directorate. TSA and IAIP 
are currently coordinating TSA's vulnerability assessment strategy for 
the transportation sector.

    Question 34. We held a hearing last year and Secretary Mineta 
testified that the TSA budget, because of various earmarks was not 
sufficient. I told him to get us the numbers on what he needs. How much 
money does TSA need to complete the installation of EDS machines?
    Answer. DHS is currently assessing how much funding is necessary to 
complete EDS installations. This depends on the number of in-line 
systems that the Federal Government should undertake, and this is still 
being determined.

    Question 35. You were provided $50 million for the development of 
next generation EDS machines, how is that money being spent and what 
progress is being made?
    Answer. TSA has planned a two-phase R&D program to identify and 
develop next generation EDS technology.

 <bullet>   First Phase: TSA will direct approximately 85 percent of 
        allocated R&D efforts towards a program, known as the Phoenix 
        Project, which is a low risk program that addresses 
        evolutionary growth of present technology. The project will 
        focus on:

        1. Life cycle extension of existing systems;
        2. Combining technologies (such as a combination of X-ray with 
        quadruple resonance or X-ray diffraction technology); and
        3. Emerging technology and products that are within a two to 
        three year window for producing viable systems.

 <bullet>   Second Phase: TSA will direct approximately 15 percent of 
        R&D efforts to a project, known as Manhattan II, which is a 
        higher risk, longer-range project with potentially greater 
        payoff. This is a five to ten year project that will challenge 
        industry to develop the next generation of EDS technology.

    Question 36. You will need the funding stream provided by the 
security fee if TSA is going to function properly. The airlines paid 
for security before 9/11, and the security fee is one of the few 
sources through which the TSA's new security regime is now funded. Both 
the House and Senate agreed to provisions that would only allow for a 
six-month hiatus of the security fee, and Senator Stevens supports this 
position. Do you support, as the FY03 Supplemental suggests, that 
security fees on passengers be restored in FY04? If not, where will the 
money come from to pay for security improvements?
    Answer. DHS continues to support the airline passenger fee.

    Question 37. Now that TSA has successfully implemented a new 
program for airport screeners and has begun to address aspects of port 
security, what will your Agency do to address security in the rail 
industry?
    Answer. DHS is working with the Federal Railroad Administration 
(FRA) and governmental and industry stakeholders to establish best 
practices and national standards, develop security plans and 
regulations, better assess security vulnerabilities and identify needed 
security enhancements to the rail system and related infrastructure. 
DHS is developing a national rail security program that focuses on 
prevention, response, recovery, restoration of services, and restoring 
public confidence.

    Some initiatives include:

        1. Coordinating information and threat sharing through the 
        Surface Transportation Information Sharing and Analysis Center 
        (ISAC) managed by the Association of American Railroads (AAR), 
        including deploying DHS personnel to the ISAC;
        2. Identifying the gaps in antiterrorism training among rail 
        personnel;
        3. Working with AAR, FRA and rail carriers to conduct a pilot 
        project to identify certain bridges that are critical to the 
        rail transportation system (Upon identification TSA will lead a 
        team to conduct vulnerability assessments on these critical 
        assets.);
        4. The Chlorine Initiative, which includes a system security 
        review of Chlorine supply chain, threat/risk/vulnerability 
        assessments, developing a prototype to address other hazardous 
        materials, and recommending best practices and performance-
        based standards;
        5. The Radiological Dispersal Device (RDD) Project, a 
        cooperative effort for minimizing risk of illicit trafficking 
        of an RDD;
        6. The Food and Feed Stock Security Standards Initiative to 
        develop food security standards in cooperation with the Food 
        and Drug Administration and the U.S. Department of Agriculture; 
        and
        7. Developing security standards for intermodal containers.

    Question 38. What aspects of rail security should be addressed 
first?
    Answer. There are several important elements in rail security. 
These include:

 <bullet>   Infrastructure Security at Tunnels and Bridges. 
        Enhancements are necessary to improve infrastructure security 
        at tunnels and bridges, including better fencing, enhanced 
        lighting, and video surveillance.

 <bullet>   Hazardous materials. Currently large amounts of hazardous 
        materials and dangerous goods are transported by rail 
        throughout the country, traversing large urban centers and 
        rural towns. These materials could be used as weapons by 
        terrorists. They also are vital to U.S. commerce, and 
        disruptions in the supply chain may have an adverse economic 
        impact.

 <bullet>   Securing Major Stations. Amtrak operates four major 
        stations, which have high volumes of passenger traffic because 
        they are used by Amtrak, commuter and subway travelers, as well 
        as many tourists and shoppers. These stations include Union 
        Station in Washington, DC; Philadelphia 30th Street Station; 
        Chicago Union Station; and New York Penn Station. Additionally, 
        there are several other large stations Amtrak serves that may 
        require additional security enhancements.

 <bullet>   Nuclear/radiological materials. Additional regulation may 
        be necessary to reduce the likelihood that terrorists will use 
        them as weapons of mass destruction.

 <bullet>   Food and livestock. These commodities are vital to the 
        economy and health of the Nation.

 <bullet>   Intermodal cargo containers. Millions of containers enter 
        the country each year. These containers could be used to 
        transport a multitude of dangerous items, including weapons of 
        mass destruction.

    Question 39. What is DHS's plan to continue coordination, through 
Information Analysis and Infrastructure Protection (IAIP) and TSA, with 
Amtrak and the freight railroads in times of heightened security?
    Answer. The Transportation Security Administration is working with 
the Association of American of Railroads (AAR), railroad police 
departments, the Federal Railroad Administration (FRA), and the 
American Short Line Railroad and Regional Association to fully 
integrate the freight railroads into its planning and intelligence 
cycle. Through the 24-hour Surface Transportation Information Sharing 
and Analysis Center supported by the AAR, TSA is working closely with 
the AAR to share and disseminate threat information and intelligence to 
railroad police departments and FRA.
    IAIP and TSA are also working to develop the concept of a center in 
which government/industry would work together to (1) assess 
vulnerabilities of sectors to cyber and physical attacks; (2) recommend 
plans to eliminate vulnerabilities; (3) develop systems for identifying 
and preventing attempted major attacks; (4) plan for alerting, 
containing and rebuffing an attack; and (5) rapid reconstitution of 
minimum essential capabilities after an attack. IAIP and TSA will 
continue to foster this partnership with industry to ensure the flow of 
information is timely provided to the entities that can protect the 
nation's rail transportation system.

    Question 40. Railroads are viewed as less vulnerable than other 
modes primarily because trains operate on fixed routes, making a train 
hijacking seem like a remote avenue for possible terrorism. However, 
the rail industry handles about half of all hazardous material 
transportation in this country, over a rail network of approximately 
130,000 route miles, more than three times the route miles in the 
Interstate Highway System. The rail system also hauls military 
equipment over about 30,000 miles of designated routes under the 
Security of Strategic Rail Corridor Network (STRACNET). How will DHS, 
particularly IAIP and TSA, coordinate with local law enforcement for 
protection of rail operations during times of heightened security?
    Answer. IAIP has the overall responsibility for infrastructure 
protection within DHS and TSA will continue to coordinate all such 
efforts to ensure that the Department has complementary and streamlined 
programs in place to protect the infrastructure. The Infrastructure 
Coordination Division within IAIP maintains close ties with all 
Industry Security Advisory Councils (ISAC) on a routine basis and 
during times of heightened threats. TSA and the Infrastructure 
Protection Division work closely to craft recommendations for industry 
to take protective measures and coordinate with state and local 
officials as needed. Additionally, the Transportation Security 
Administration is working with the Association of American of Railroads 
(AAR), railroad police departments, the Federal Railroad Administration 
(FRA), and the American Short Line Railroad and Regional Association to 
fully integrate the freight railroads into its planning and 
intelligence cycle. Through the 24-hour Surface Transportation 
Information Sharing and Analysis Center supported by the AAR, IAIP and 
TSA are working closely with the AAR to share and disseminate threat 
information and intelligence to railroad police departments and FRA.

    Question 41. U.S. and Canadian authorities have been working to 
implement a high-tech system to screen rail cargo at our northern 
borders. Nine cargo-inspection units, using gamma rays to scan cargo 
containers, are to be installed this year. According to an April 9 
article in the Wall Street Journal, the rail industry in both countries 
has been concerned that the new system will delay shipments by several 
hours, causing railroads to lose their competitive edge against trucks 
for fast delivery service.

        a. When will the first cargo-inspection unit begin operating?
        Answer. The first Rail VACIS system on the Northern Border was 
        deployed to International Falls, Minnestota in July 2003.

        b. When will all nine units be operating?
        Answer. We expect eight Rail VACIS units to be operational by 
        January 2004. We are currently evaluating other sites for 
        deployment of Rail VACIS.

        c. Will the nine cargo-inspection units replace the mobile 
        scanners now being used at rail crossings at the Canadian 
        border, or will they used in addition to the mobile scanners?
        Answer. Rail VACIS units deployed to the U.S./Canada border 
        will be in addition to the large-scale Non-Intrusive Inspection 
        (NII) systems already in place at northern border ports of 
        entry.

        d. What is the agency doing to ensure that security delays of 
        rail shipments crossing the Canadian border are minimized?
        Answer. Our rail security program is a vital component U.S. 
        Customs and Border Protection strategy to keep America and the 
        American people safe, as well as to facilitate the flow of 
        trade between Canada and the United States.
        NII technologies such as the VACIS systems are viewed as force 
        multipliers that enable us to screen or examine a larger 
        portion of the stream of commercial traffic while facilitating 
        the flow of legitimate trade and cargo.
        NII systems, in many cases, give the U.S. Customs and Border 
        Protection the capability to perform thorough examinations of 
        cargo without having to resort to the costly, time consuming 
        process of unloading cargo for manual searches, or intrusive 
        exams of conveyances by methods such as drilling and 
        dismantling.

        e. Will similar cargo-inspection units be placed along the 
        Mexican border? If so, when?
        Answer. Seven Rail VACIS units are currently deployed to U.S. 
        ports of entry along the border with Mexico. One additional 
        system will be deployed on the southwest border by the end of 
        2004, for a total of eight Rail VACIS systems on the U.S./
        Mexico border.

    Question 42. The Federal Railroad Administration has increased its 
security activities, using its safety inspection team to review 
security readiness at passenger terminals and working with freight 
railroads to identify security concerns. The FRA took the lead role in 
addressing rail security in the field on behalf of the Department of 
Transportation while the new TSA focused its attention on aviation 
security. How does DHS see its role in rail security vis-a-vis actions 
already taken by FRA?
    Answer. TSA and IAIP continue to work closely with the FRA to 
establish best practices and national standards, develop security plans 
and regulations, better assess security vulnerabilities and identify 
needed security enhancements to the rail system and related 
infrastructure. Any national rail security program will focus on 
prevention, response, recovery, restoration of services, and restoring 
public confidence.

    Question 43. In the absence of a Memorandum of Agreement between 
the two agencies, what will be the relationship between DHS and FRA 
regarding rail security?
    Answer. DHS will have the lead in security-related matters 
involving the rail industry, but will work closely with the FRA to 
establish best practices and national standards, develop security plans 
and regulations, better assess security vulnerabilities and identify 
needed security enhancements to the rail system and related 
infrastructure.

    Question 44. Last week, the Associated Press reported that nine 
derails have disappeared from three rail yards in east Texas since mid-
January. Derails are portable hinged-type blocks used to prevent trains 
from entering main lines when they have no authority to do so. However, 
secretly placed in a strategic location on a main line, a derail could 
derail a freight train operating at 79 mph, possibly carrying hazardous 
materials, or an Amtrak train traveling at 125 mph, possibly carrying 
hundreds of passengers. When the derails in east Texas were reported 
missing by the rail industry, a U.S. Marshall in Shreveport, La. 
expressed concern about the possible security implications. However, a 
rail industry spokesman later dismissed the missing derails as probably 
``stolen and sold for scrap metal.'' What is DHS's response to reports 
of suspicious circumstances generated at the local level?

    Answer. The Information Analysis and Infrastructure Protection 
Directorate (IAIP) is the DHS' focal point for receipt, through its 
Homeland Security Operations Center (HSOC), and analysis of suspicious 
circumstances information, through its Information Analysis (IA) 
branch. In the case of the missing derails, for example, this 
information was received by the HSOC, which contacted local authorities 
and DHS components for additional information, if available, and IA 
searched available databases for similar instances in other areas. At 
the same time, railroad experts were contacted to determine the nature 
of the threat from derails, and to place this theft in context in terms 
of occurrences, e.g., How widespread? How often? The results of this 
review confirmed the industry spokesman's assessment.

        a What does DHS do to ensure that localized suspicious 
        circumstances are in fact not more widespread?
        Answer. IAIP and the HSOC use a standard approach upon receipt 
        of information regarding suspicious circumstances, which first 
        requests all additional information about a specific incident. 
        Information is cross-leveled within IAIP and to applicable DHS 
        components, as well as outside the Department as appropriate. 
        IAIP also searches available databases, and uses all 
        information obtained in order to place incidents in situational 
        context to determine if there is some plausible explanation for 
        unusual activity, or whether a trend connected to other 
        locations has emerged. All incidents are data-based in IAIP to 
        support subsequent queries and trend identification. Analysis 
        of suspicious incidents is a dynamic process that seeks to 
        determine if the incident is ``normal'' within one area but not 
        in another, and to develop a sense of situational awareness.

    Question 45. How will DHS address security concerns in the rail 
industry in circumstances where the industry believes the concerns are 
not warranted?
    Answer. The rail industry has taken the lead in developing security 
plans to address emerging security concerns post September 11, 2001. 
While the rail plan was developed to address security challenges 
particular to that specific industry, TSA must address security 
concerns that affect intermodal security as well. TSA and IAIP will 
continue to work with the rail industry to ensure that critical 
industry security factors are integrated into any multi-sector critical 
infrastructure security plan.

    Question 46. Does DHS see the security needs of the passenger rail 
industry as very different from the security needs of the freight rail 
industry? If so, will agency resources be expended on one more than the 
other?
    Answer. Railroad miles traveled and the potential for human injury 
are the key ways in which rail freight security risks differ from rail 
passenger security risks. However, rail passenger trains usually use 
the same routes used by freight railroads. DHS is undertaking 
assessments of critical vulnerabilities across our transportation 
system. Results of these assessments will serve as the baseline for any 
future security requirements across maritime and land modes.
    Given the vast infrastructure comprising passenger and freight rail 
systems, any security enhancements for either system must be the 
product of careful risk assessment and cost-benefit analysis.
    DHS will develop security standards that, to the extent possible, 
incorporate industry best practices, new technologies, and innovations 
to create a more uniform level of security across modes, while ensuring 
minimal disruption to our transportation system. This risk-based 
approach will require close interaction with affected industries and 
close cooperation in the execution of any requirements.

    Question 47. In Washington, Amtrak and commuter trains operate 
through tunnels under Capitol Hill. What has DHS done to ensure that 
these tunnels are properly secured? How secure are the tunnels? What 
more must be done to fully secure the tunnels and how soon must it be 
accomplished?
    Answer. TSA has worked closely with CSX, Amtrak, and Virginia 
Railway Express to evaluate continually the security of these tunnels. 
The Virginia Avenue Tunnel is owned by CSX. CSX has posted security 
guards around the clock at each end of the tunnel since September 11, 
2001. CSX is currently installing intrusion technology at both ends of 
the tunnel to replace the security guards. The system is currently 
under test. Video feed from the system will be monitored by a police 
communication center in Jacksonville, Florida, and will be accessible 
by local CSX police officers via a secure internet connection. Amtrak 
Police and U.S. Park Police will serve as back up for CSX Police. The 
system has already detected trespassers on board a train that had 
stopped while entering the tunnel.

    Question 48. Amtrak and commuter trains in and around New York 
travel through tunnels under the rivers surrounding Manhattan. These 
tunnels were equipped in World War II with emergency doors that could 
close off segments of the tunnels in case of a breach. These doors 
reportedly are no longer operable. Nevertheless, the danger from a 
tunnel breach is more heightened now than it has been in the past 50 
years, and a tunnel breach could have catastrophic results for lower 
Manhattan, as well as the transportation system for the entire New York 
metro area. What does DHS know about the state of these doors? How soon 
will the doors be made fully operable? Should Amtrak receive emergency 
funding to ensure the doors are operable in the immediate future?
    Answer. Amtrak has employed a contractor to evaluate the status of 
the doors and detail the repairs needed. The doors provide access for 
all four of the East River Tunnels connecting Amtrak's Pennsylvania 
Station with Queens. In addition, the gates for the two North River 
Tunnels (under the Hudson River), which connect Amtrak's Pennsylvania 
Station to New Jersey, are recessed in the area above the tunnels. None 
of these doors, or flood gates, has been operable since the 1970s. The 
contractor performing the evaluation was scheduled to begin work the 
week of April 21, 2003. The Administration will consider any funding 
request for Amtrak at the appropriate time.

    Question 49. The Secretary mentioned in his testimony that Amtrak's 
security plan has been reviewed, and that the results of that analysis 
have been shared with the Committee. Please submit a copy of that 
analysis for the record of this hearing. Please be sure to note 
appropriate security level.
    Answer. TSA has provided review comments for several versions of 
Amtrak's Security Investment Plan.
    The TSA and the FRA reviewed the version of Amtrak's Security 
Investment Plan that accompanied a letter from Senator McCain dated 
January 13, 2003. On February 6, 2003, TSA received a revised Security 
Investment Plan from Amtrak and provided comments to Senator McCain on 
this ``updated'' plan in a letter dated February 28, 2003.
    TSA was recently advised in a letter from David L. Gunn, Amtrak 
President and Chief Executive Officer, informing TSA that the Security 
Investment Plan TSA received on February 6th was not Amtrak's final 
security plan, which had changed significantly in the last month. 
Amtrak provided TSA with the final security plan on April 10, 2003, and 
TSA, in coordination with the FRA, is currently reviewing this plan.

    Question 50. Since September 11th and the start of the Iraq War, 
the transport of hazardous materials has become a likely target for a 
terrorist attack. How is the Department of Homeland Security dealing 
with this threat, and what processes has it put in place to deal with a 
possible release of lethal chemicals in a very populated area?
    Answer. With respect to the transport of hazardous materials, DHS 
has several initiatives planned and underway. Industry stakeholders are 
being solicited to participate in the Information Sharing Analysis 
Center (ISAC) to formulate industry-wide security standards and 
incident management strategies. In compliance with the USA PATRIOT Act, 
TSA is providing regulatory guidance for conducting criminal background 
checks for commercial drivers and rail workers involved in the 
transport of hazardous materials. TSA is also working with FMCSA to 
carry out the HAZMAT safety permits program funded in the fiscal year 
2003 appropriations legislation. Finally, TSA also has begun a rail 
hazardous materials initiative focused on conducting a system security 
review of chlorine shipments from origin to destination to identify 
potential security gaps. This review will be followed by development of 
a prototype to address security of bulk hazardous materials.
    The Department of Homeland Security, Emergency Preparedness and 
Response Directorate has longstanding relationships with other Federal 
agencies that participate in the National Response System. The National 
Response System provides a coordination, planning, and response 
structure for addressing the release of hazardous materials into the 
environment. The National Response Team (NRT), chaired by the 
Environmental Protection Agency (EPA), provides a forum to coordinate 
Federal aspects of the National Response System and support to State 
Emergency Response Commissions and Local Emergency Planning Committees. 
The National Response System response under the National Oil and 
Hazardous Substances Pollution Contingency Plan (NCP) does not require 
a Presidential declaration of emergency or disaster, but can be 
assimilated into a response under the all-hazard Federal Response Plan 
(FRP) as one of the FRP's 12 Emergency Support Functions. The 
Department of Homeland Security is currently engaged in developing a 
National Response Plan to link these and other response structures even 
more closely through a single National Incident Management System, as 
required by the Homeland Security Act of 2002 and Homeland Security 
Presidential Directive 5.
    One of FEMA's contributions to preparedness for hazardous materials 
releases at the community level has been to coordinate a locally 
focused program integrating an initial needs assessment, capability 
development through plan review and training, validation of plans and 
training through full-scale mass casualty exercises, and a final 
assessment. That program, the Comprehensive Hazardous Materials 
Emergency Response Capability Assessment Program (CHER-CAP), has 
provided opportunities for partners such as EPA, the Department of 
Transportation (DOT), and the Agency for Toxic Substances and Disease 
Registry (ATSDR) of the Department of Health and Human Services (HHS), 
along with EP&R's own U.S. Fire Administration (USFA), to work together 
to aid communities nominated by States for participation, from small 
communities to large cities such as Boston. The program traditionally 
has relied on limited funding from an interagency agreement with EPA 
for use as seed money to attract other public and private participation 
in the community. However, EP&R is planning to make CHER-CAP an all 
hazard program, to address not only hazardous materials--where we would 
like to retain and enhance existing interagency partnerships--but also 
other hazard scenarios affecting local communities.
    The Metropolitan Medical Response System (MMRS) program was 
transferred into the DHS Emergency Preparedness and Response 
Directorate on March 1, 2003, along with other elements of the former 
Department of Health and Human Services, Office of Emergency Response. 
MMRS is a planning effort in the 122 largest metropolitan jurisdictions 
to create an integrated medical response to a WMD terrorist attack, 
including one that involved hazardous materials transportation. A key 
aspect of this planning is to enable a jurisdiction to manage the event 
for 36 to 48 hours until State/Federal resources are deployed. This 
planning activity is accomplished by integration and coordination of 
all of the jurisdiction's response capabilities:

 <bullet>   Police, Fire, EMS, Public Health, Emergency Management, and 
        Hospitals.

 <bullet>   Plans for integration into the response those State and 
        Federal resources that may be provided.

 <bullet>   Equipment and pharmaceuticals that can be acquired under 
        the contract, with the exclusion of any materials acquired 
        under other federal programs.

 <bullet>   Training of response personnel.

    FEMA also has published ``Are You Ready?'' a document written 
specifically for the public to help them cope with disasters of all 
types, including hazardous materials transportation accidents. The 
publication, which is available on the FEMA website and through many 
local government offices, tells the public what steps they can take to 
prepare for a hazardous materials accident, what to do if they witness 
a hazardous materials accident, and what procedures to follow if they 
have been evacuated during a hazardous materials accident.

 <bullet>   In addition, the U.S. Fire Administration has worked to 
        enhance the operational security awareness among the emergency 
        response community through several communication methods that 
        transport incidents in all modes may be initiated as a 
        terrorist act.

    Finally, USFA is partnered with the International Association of 
Fire Chiefs through the Fire Service HAZMAT Cooperative Agreement. 
Through this partnership the USFA and the IAFC deliver the IAFC 
Homeland Protection and Security Weekly, which relates pertinent 
information to the emergency response community. This includes both 
training opportunities and information exchange.
    The Response Division's Strategic National Stockpile has several 
ways of dealing with the release of lethal chemicals, depending in part 
on the type of chemical released. On multiple occasions, the SNS has 
demonstrated its ability to rapidly deploy 50 tons of pharmaceuticals, 
nerve agent antidotes, and other life-saving medical supplies to the 
scene of a national emergency. It has then followed its initial 
shipment with large and continuous quantities of specific items that 
state/local authorities need to deal with the emergency. The SNS also 
has the demonstrated ability to rapidly purchase and deliver products 
from the private sector that the SNS does not stock. On September 11, 
2001, for instance, it purchased large quantities of respirators for 
workers at ground zero to protect them from breathing harmful dust 
released when the World Trade Center Twin Towers collapsed.
    In cases such as the release of organic phosphates, which affect 
the nervous system and require immediate action, antidotes must be 
available faster than the SNS is able to deliver them. The SNS is 
currently piloting a program for prepositioning government-owned, nerve 
agent antidotes with state and local authorities so that they will have 
the supplies that they need in the event of a chemical release. The 
SNS' ownership of these items allows it to specify and monitor the 
condition under which supplies are kept to ensure their efficacy and 
the ability to extend their useful life--a major cost saving.

    Question 51. Since the TSA and DHS have not issued guidelines for 
security risks within the transportation infrastructure we are seeing 
local municipalities developing their own ordinances and laws that may 
or may not be circumvented by a federal standard once one is developed. 
Although DHS has worked with DOT modal administrations to implement new 
security measures and new regulations for the transport of hazardous 
materials, some municipalities have taken steps to require even more 
stringent requirements. For example, the City of Baltimore's new 
``Hazardous Materials Security law'' is believed to be the first of its 
kind in the nation and increases the screening criteria for 
transportation providers. How will the Department of Homeland Security 
integrate state and municipal laws into their macro perspective of 
security threat abatement strategies?
    Answer. DHS is working with DOT and governmental stakeholders to 
ensure that proposed federal regulations consider regulations already 
in place at the state and local level. For example, should a National 
Transportation Security Exercise Program be considered, the Department 
would examine the applicability of other federal, state or local 
programs already in place to determine whether they meet or exceed the 
requirements of the new federal program, and determine how those 
existing programs would appropriately be incorporated or augmented into 
that new program's requirements.

    Question 52. The transportation of high-level radioactive waste and 
spent nuclear fuel should be a high security priority. What additional 
processes has the Department of Homeland Security initiated above the 
Nuclear Regulatory Commission and the Department of Transportation 
requirements to secure these highly visible and dangerous products?
    Answer. DHS continues to consult with the Nuclear Regulatory 
Commission and the Department of Transportation regarding initiatives 
to secure the transport of hazardous materials to ensure DHS 
initiatives are in alignment with national efforts. Currently, TSA is 
establishing standards and regulations for background security checks 
for commercial drivers with hazardous materials endorsements. These 
efforts will increase security for all levels of radiological 
materials. Furthermore, U.S. Customs and Border Protection (CBP) does 
detect, identify and validate the legitimacy of this type of shipment 
if it crosses the Nation's border. CBP would then secure or detain such 
materials for the purpose of identifying their legitimacy.

    Question 53. What parameters has the Department of Homeland 
Security put in place to rectify security threats that could breach 
pipeline infrastructure?
    Answer. During September 2002 the U.S. Department of 
Transportation's Office of Intelligence & Security, the Research and 
Special Programs Administration's (RSPA) Office of Pipeline Safety 
(OPS), the Department of Energy, State pipeline safety agencies, and 
pipeline industry representatives developed the Pipeline Security 
Contingency Planning Guidance. This guidance recommended security 
measures for pipeline operators to invoke at each threat level. The 
Department is reviewing the guidelines to determine the applicability 
of each measure at the various threat levels based on current 
intelligence. If necessary, the Department would work with OPS to 
revise the guidelines to better address vulnerabilities present at each 
threat level.
    IAIP is also working closely with industry to determine ``best 
practices'' for pipeline operators to follow at each threat level. 
These ``best practices'' could become a basis for any future DHS 
standards.

    Question 54. Has the pipeline industry assisted in the development 
of security plans for their infrastructure, or has the Department of 
Homeland Security instituted requirements for the industry to follow?
    Answer. During September 2002 the U.S. Department of 
Transportation's Office of Intelligence & Security, the Research and 
Special Programs Administration's (RSPA) Office of Pipeline Safety 
(OPS), the Department of Energy, State pipeline safety agencies, and 
pipeline industry representatives published Pipeline Security 
Contingency Planning Guidance. Under this guidance it was recommended 
that pipeline operators develop a security plan to coincide with 
recommended measures at each threat level.
    The Department in conjunction with the OPS, is in the process of 
meeting with two natural gas and two liquid companies to discuss and 
test their critical infrastructure security plan and procedures. The 
four companies (Colonial Pipeline, Exxon Mobil, CMS Energy, and 
Williams) will act as a test bed for newly drafted Security Audit/
Review Protocols. The audit/review process is the first of a series of 
Security Audits/Reviews of critical pipelines and facilities.
    Upon completion of the four pipeline operator security plan 
reviews, TSA will meet with industry representatives and RSPA/OPS to 
discuss the protocols and make revisions as deemed necessary. TSA, in 
conjunction with RSPA/OPS, will then continue to review the security 
plans and procedures of other critical pipeline operators utilizing the 
revised protocols.
    At this time, the Department of Homeland Security has not 
promulgated requirements for industry to follow. The TSA plans to 
determine ``best practices'' for the pipeline industry to follow and 
will base proposed regulations on those ``best practices.''

    Question 55. TSA--How many Full-Time Equivalent (FTE) employee 
positions are authorized for each office at TSA? How many of these are 
currently staffed?
    Answer. In its first year, TSA's primary goal was to meet statutory 
deadlines for meeting passenger and baggage screening requirements. At 
the same time, the agency experienced an extremely rapid staffing 
buildup as it achieved legislatively-mandated levels. TSA is now 
conducting a comprehensive review of its organizational configuration. 
The review is designed to ensure that the responsibilities of each 
organizational component are clear and that redundancies are identified 
and eliminated. This review will form the basis for the revision of 
authorized staffing ceilings for all major components of TSA. We will 
advise you of the revised staffing ceilings once they are finalized.

    Question 56. If TSA is now planning to gear up security programs 
for transportation modes other than aviation, why is it reducing its 
FTE request for 2004?
    Answer. The Department's strategy to deal with critical 
infrastructures, including those in the transportation sector, is to 
identify critical assets, conduct vulnerability assessments of those 
assets and work with the entities with responsibility for mitigating 
identified vulnerabilities--whether they be the federal, state, local 
or private owners of those assets--to develop appropriate security and 
response plans for those assets. TSA plans to take action to assess the 
need for standards and regulations in other security areas. However, 
the FY 2004 Budget assumed that some functions of TSA's offices would 
no longer be necessary in light of the establishment of DHS and similar 
resources of other organizations.

    Question 57. How will the Department of Homeland Security transfer 
FY02, FY03 and FY04 funds to the local and state agencies that 
desperately need this funding to compensate them for heightened levels 
of security threats and their future response activities?
    Answer. It is important to note that there is a clear distinction 
between support for operational security costs and investments in state 
and local preparedness and response capabilities. DHS has only provided 
operational funding relating to the heightened security costs during 
Operation Liberty Shield. It would be impracticable to provide 
``compensation'' every time the threat level is revised.
    The Department of Homeland Security (DHS) and the Office for 
Domestic Preparedness (ODP) share your goals of providing funds to 
states in a timely, efficient, and effective manner. ODP has made great 
strides in allocating and awarding terrorism preparedness funds. In 
Fiscal Year (FY) 2002, through the State Domestic Preparedness Program 
(SDPP), $315.7 million was available and applied for by each of the 56 
U.S. states and territories for equipment acquisition and exercises to 
enhance the ability of first responders to react to incidents of 
domestic terrorism at the local level. As such, states were required to 
provide at least 80 percent of the funds allocated for equipment 
purchases to local agencies. States could use the remaining equipment 
funds to support broader domestic preparedness activities, such as 
state first responder teams that support local units of government. As 
of October 2003, the last month for which ODP has complete information, 
states had obligated $173,741,709 or 55 percent of these FY02 funds.
    As you know, Congress provided $1 billion for the continuation of 
ODP's prevention, preparedness, and response efforts in the FY 2003 
Omnibus Appropriations Act (Public Law 108-7), including $566,295,000 
for the State Homeland Security Grant Program, Part I and $100 million 
for the Urban Areas Security Initiative, Part I. ODP received an 
additional $2.2 billion through the FY 2003 Emergency Wartime 
Supplemental Appropriations Act (Public Law 108-11), including $1.3 
billion in State Homeland Security Grants, $200 million in State 
infrastructure protection grants, and $700 million for continuation of 
the Urban Areas Security Initiative.
    To facilitate the award of these funds, Congress provided language 
in both of the appropriations bills that directed states to apply for 
funds within 30 days of the grant announcement and required ODP to make 
awards within 30 days of receipt of a state's application. Pursuant to 
this language, ODP has worked to make funds available much more quickly 
than in past grant programs it has administered. For instance, ODP made 
applications for State Homeland Security Grant Program (SHSGP) funds 
under the Fiscal Year 2003 Omnibus Appropriations Act available on 
March 7, 2003--15 days after the act was signed into law. Under the 
terms of the SHSGP application, applicants were required to submit 
their application by April 22, 2003. All 56 eligible applicants 
submitted applications, with 54 applicants submitting applications 
between April 15th and April 22nd. Thirty-five applications were 
received on April 22nd, the last day of the solicitation period. Once 
received, applications were approved and funds awarded on a rolling 
basis. Forty-four applications or 78 percent of applications received 
were approved in less than four days. Similarly 44 applicants, or 78 
percent of those who applied, were awarded funds within 15 days of 
submitting their applications. By May 8th, 49 of 56 awards (87 percent) 
had been completed. By mid-July, ODP had awarded all 56 awards.
    Additionally, applications for State Homeland Security Grant 
Program, Part II (SHSGP, Part II) funds under the Fiscal Year 2003 
Wartime Supplemental Appropriations Act were made available on April 
30, 2003--14 days after the act was signed into law. Under the terms of 
the application, applicants were required to submit their applications 
by May 30, 2003. Again all 56 eligible applicants (the states, 
territories, and the District of Columbia) applied. Of the 56 
applications submitted, 33 applications were submitted between May 28th 
and May 30th. Seventeen applications were submitted on May 30th--the 
last day of the solicitation period. As in the first round of Fiscal 
Year 2003 SHSGP award applications, applications for SHSGP, Part II 
funds were received, approved, and funds awarded, on a rolling basis. 
Fifty-one applications (91 percent) were approved within 7 days of 
submission. Similarly, 41 applicants, or 73 percent of those who 
applied, were awarded funds within 21 days of submitting their 
application. By June 4th, 51 of 56 awards (91 percent) had been 
completed. By early July, ODP had awarded all 56 awards.
    In the FY 2004 Department of Homeland Security Appropriations Act 
(Pub. L. No. 108-90), Congress provided $4.037 billion for the Office 
for Domestic Preparedness. As part of this, Congress provided $1.7 
billion for continuation of the State Formula Grant Program, $500 
million for Law Enforcement Terrorism Prevention Grants, and $40 
million for the Citizen Corps program. ODP recently announced the $2.24 
billion Homeland Security Grant Program, which combines funds from the 
State Formula Grant Program, Law Enforcement Terrorism Prevention 
Program, and Citizen Corps Program. As of December 2003 all states have 
applied for HSGP funds. ODP will award these funds after the states 
provide updated state homeland security strategies, which are currently 
due December 31, 2003. In the FY 2004 appropriations act, Congress also 
provided $725 million for continuation of the Urban Areas Security 
Initiative. DHS and ODP selected through a classified formula 50 urban 
areas, including 30 mass transit systems, for receipt of FY 2004 UASI 
funds.
                                 ______
                                 
     Additional Questions Submitted by Hon. Ernest F. Hollings to 
                             Hon. Tom Ridge
    Response to the following questions submitted by Hon. Ernest F. 
   Hollings was not available at the time this hearing went to press.
DHS Management
    The Washington Post reported April 10 that DHS is having a 
difficult time reporting the number of employees who work for the new 
Department. While it is understandably difficult for DHS to have a 
precise account of staffing only one month 22 separate agencies jointed 
together to create the new Department, the numbers issued in recent 
weeks by the Department itself range from 170,000 to 210,000, a 
difference of some 40,000 employees.
    Question 1. When will the Department be able to provide a 
reasonably accurate count of employees working in the Department this 
year?
    According to information recently provided by DHS to the Senate 
Appropriations Committee, the Land and Maritime Division of TSA was 
authorized 23 FTEs and 81 staffing positions in 2002. In 2003, the Land 
and Maritime Division was authorized 165 FTEs, encompassing 225 
positions. To date, the Division is staffed by 84 workers. For 2004, 
DHS has requested authorization for 125 FTEs of this Division.
    Question 2. If TSA is now planning to gear up security programs for 
transportation modes other than aviation, why is it reducing its FTE 
request for 2004?
Railroad Security
    Railroads are viewed as less vulnerable than other modes primarily 
because trains operate on fixed routes, making a train hijacking seem 
like a remote avenue for possible terrorism. However, the rail industry 
handles about half of all hazardous material transportation in this 
country, over a rail network of approximately 130,000 route miles, more 
than three times the route miles in the Interstate Highway System. The 
rail system also hauls military equipment over about 30,000 miles of 
designated routes under the Security of Strategic Rail Corridor Network 
(STRACNET).
    Nevertheless, the FBI received information last October that 
terrorists were possibly planning to strike the rail industry through 
destruction of bridges and key segments of track. Aware of the unique 
vulnerabilities, the railroad industry has done an admirable job of 
instituting on-going security measures. The industry developed a four-
level alert system of alertness, employing additional terrorism 
countermeasures with each succeeding alert level. When the FBI issued 
its warning to the rail industry last October, the industry reacted by 
raising the alert level and taking additional precautions particularly 
in vulnerable locations, such as in tunnels and on bridges.
    More recently, Operation Liberty Shield was initiated nationwide to 
coincide with the beginning of the war with Iraq and the heightened 
``Code Orange'' threat level. As a part of that initiative, DHS 
requested state governors to provide National Guard protection of rail 
infrastructure, such as selected rail bridges. Railroads, including 
Amtrak, were asked to upgrade security measures at key rail hubs and 
other major rail facilities. Freight railroads were asked to monitor 
shipments of hazardous material and increase surveillance of trains 
carrying this material.
    Question 1. Now that TSA has successfully implemented a new program 
for airport screeners and addressed other aspects of aviation security, 
what will TSA, now a part of DHS, do to address security in the rail 
industry?
    Question 2. What is DHS's plan to continue coordination, through 
Information Analysis and Infrastructure Protection (IAIP) and TSA, with 
Amtrak and the freight railroads in times of heightened security?
    Question 3. How will DHS, particularly IAIP and TSA, coordinate 
with local law enforcement for protection of rail operations during 
times of heightened security?
    Question 4. Amtrak reports that every day spent under the Code 
Orange threat level costs the railroad $18,000 for additional security 
measures. What costs does the rail industry incur when the threat level 
is heightened by DHS to Code Orange? What is the daily breakdown of 
those additional costs? Are there differences in the costs between 
freight and passenger operations?

    Secretary Ridge acknowledged at the hearing that not enough has 
been done to secure railroad stations. The Secretary indicated that now 
that aviation security has been largely addressed, the Department will 
shift its attention to securing other modes of transportation, 
including rail.
    Question 1. What does DHS believe needs to be done to secure the 
rail industry?
    Question 2. What aspects of rail security should be addressed 
first?
    Question 3. Has DHS prioritized by mode its planned efforts to 
secure other transportation modes? If so, what is that prioritization?

    U.S. and Canadian authorities have been working to implement a 
high-tech system to screen rail cargo at our northern borders. Nine 
cargo-inspection units, using gamma rays to scan cargo containers, are 
to be installed this year. According to an April 9 article in the Wall 
Street Journal, the rail industry in both countries has been fearful 
that the new system will delay shipments by several hours, causing 
railroads to lose their competitive edge against trucks for fast 
delivery service.

    Question 1. When will the first cargo-inspection unit begin 
operating? When will all nine units be operating?
    Question 2. Will the nine cargo-inspection units replace the mobile 
scanners now being used at rail crossings at the Canadian border, or 
will they used in addition to the mobile scanners?
    Question 3. What is the agency doing to ensure that security delays 
of rail shipments crossing the Canadian border are minimized?
    Question 4. Will similar cargo-inspection units be placed along the 
Mexican border? If so, when?
Relationship with FRA
    The Federal Railroad Administration has increased its security 
activities, using its safety inspection team to review security 
readiness at passenger terminals and working with freight railroads to 
identify security concerns. The FRA took the lead role in addressing 
rail security in the field on behalf of the Department of 
Transportation while the new TSA focused its attention on aviation 
security.

    Question 1. How does DHS see its role in rail security vis-a-vis 
actions already taken by FRA?
    Question 2. In the absence of a Memorandum of Agreement between the 
two agencies, what will be the relationship between DHS and FRA 
regarding rail security?
    Question 3. Does DHS plan to issue regulations covering rail 
security? What areas of rail security does DHS believe need regulating?
Missing Derails
    Last week, the Associated Press reported that nine derails have 
disappeared from three rail yards in east Texas since mid-January. 
Derails are portable hinged-type blocks used to prevent trains from 
entering main lines when they have no authority to do so. However, 
secretly placed in a strategic location on a main line, a derail could 
derail a freight train operating at 79 mph, possibly carrying hazardous 
materials, or an Amtrak train traveling at 125 mph, possibly carrying 
hundreds of passengers. When the derails in east Texas were reported 
missing by the rail industry, a U.S. Marshall in Shreveport, La. became 
concerned about the possible security implications. However, a rail 
industry spokesman later dismissed the missing derails as probably 
``stolen and sold for scrap metal.''

    Question 1. What is DHS's response to reports of suspicious 
circumstances generated at the local level?
    Question 2. What does DHS do to ensure that localized suspicious 
circumstances are in fact not more widespread?
    Question 3. How will DHS address security concerns in the rail 
industry in circumstances where the industry believes the concerns are 
not warranted?
    Question 4. Does DHS see the security needs of the passenger rail 
industry as very different from the security needs of the freight rail 
industry? If so, will agency resources be expended on one more than the 
other?
Amtrak Security
    Since September 11, air travel has been made much more secure due 
to passenger and baggage screening and tightening of security in and 
around airports. Passenger rail travel, however, presents a different 
set of security challenges and necessarily must take a different 
approach. Train stations are open facilities, and they need to remain 
so to accommodate the millions of commuter rail travelers who use the 
stations everyday. Amtrak trains travel over hundreds of bridges and 
through numerous tunnels posing a unique vulnerability to rail travel 
that deserves extra protection.

    Question 1. In Washington, Amtrak and commuter trains operate 
through tunnels under Capitol Hill. What has DHS done to ensure that 
these tunnels are properly secured? How secure are the tunnels? What 
more must be done to fully secure the tunnels and how soon must it be 
accomplished?
    Question 2. Amtrak and commuter trains in and around New York 
travel through tunnels under the rivers surrounding Manhattan. These 
tunnels were equipped in World War II with emergency doors that could 
close off segments of the tunnels in case of a breach. These doors 
reportedly are no longer operable. Nevertheless, the danger from a 
tunnel breach is more heightened now than it has been in the past 50 
years, and a tunnel breach could have catastrophic results for lower 
Manhattan, as well as the transportation system for the entire New York 
metro area. What does DHS know about the state of these doors? How soon 
will the doors be made fully operable? Should Amtrak receive emergency 
funding to ensure the doors are operable in the immediate future?
    Question 3. The Secretary mentioned in his testimony that Amtrak's 
security plan has been reviewed, and that the results of that analysis 
have been shared with the Committee. Please submit a copy of that 
analysis for the record of this hearing.
Hazardous Materials Transportation Security
    Question 1. Since September 11th and the start of the Iraq War, the 
transport of hazardous materials has become likely targets for a 
terrorist attack. How is the Department of Homeland Security dealing 
with this threat, and what processes has it put in place to deal with a 
possible release of lethal chemicals in a very populated area?
    Question 2. Since the TSA and DHS have not issued guidelines for 
security risks within the transportation infrastructure we are seeing 
local municipalities developing their own ordinances and laws that may 
or may not be circumvented by a federal standard once one is developed. 
Although DHS has worked with DOT modal administrations to implement new 
security measures and new regulations for the transport of hazardous 
materials, some municipalities have taken steps to require even more 
stringent requirements. For example, the City of Baltimore's new 
``Hazardous Materials Security law'' is believed to be the first of its 
kind in the nation and increases the screening criteria for 
transportation providers. How will the Department of Homeland Security 
integrate state and municipal laws into their macro perspective of 
security threat abatement strategies?
    Question 3. The transportation of high-level radioactive waste and 
spent nuclear fuel should be a high security priority. What additional 
processes has the Department of Homeland Security initiated above the 
Nuclear Regulatory Commission and the Department of Transportation 
requirements to secure these highly visible and dangerous products?
Risk-Based Analysis Modeling
    Question 1. The TSA is in the process of developing a risk-based 
analysis model for identifying critical infrastructure gaps and risks. 
This modeling will also be used for identifying security threats for 
the transport of hazardous materials. Once TSA's analysis is completed 
and the model has been tested and found viable, they will provide their 
analysis to each modal administration identifying significant risks 
within the transportation infrastructure. Although, TSA is developing 
this risk-based model, they are extremely understaffed and are still in 
the early stages of development and implementation. For example, risk 
threat assessment pilot studies have only occurred in two areas in the 
New York Metropolitan area and the results from these studies have not 
been completed or released to state and local authorities. When will 
this risk-based analysis model be totally operational and be 
implemented throughout the United States?
Standardization of Security Protocols Across all Transportation Modes
    Question 1. There are no widely accepted standards or guidelines 
for physical, procedural, and personnel security that cut across all 
transportation modes. How is the Department of Homeland Security 
dealing with the need for a standardization methodology that would work 
in all transportation modes and when will the methodology be 
implemented?
Pipeline Security
    The security of the nation's liquid and gas pipeline infrastructure 
is critical to America's economy and energy stability. A terrorist 
attack on pipeline infrastructure could be catastrophic to the health 
and well being of the surrounding public and severely damage the local 
economy.

    Question 1. What parameters has the Department of Homeland Security 
put in place to rectify security threats that could breach pipeline 
infrastructure?
    Question 2. Has the pipeline industry assisted in the development 
of security plans for their infrastructure, or has the Department of 
Homeland Security instituted requirements for the industry to follow?
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Hon. Tom Ridge

    Question 1. According to press reports and the EPA, the President 
intends to follow a program of chemical industry voluntary compliance 
and self-policing, as he did when he was Governor of Texas. I consider 
myself one of that industry's best friends in Congress, but I do not 
think that this is a prudent policy choice. I met with industry leaders 
in my state after the September 11th attacks, and I was dismayed at the 
seeming unwillingness of many of these very intelligent people to see 
their plants, and the freight railroads that serve them, as potential 
targets of future terror attacks. It occurred to me that their views 
were not really about safety and security at all, but in essence, were 
driven by cost-containment. What are you willing to do as Secretary of 
Homeland Security, what steps might your department be willing to take, 
and what policies are you willing to advocate for, to adequately 
address the security needs for our nation's chemical plants and the 
nearly 150,000 miles of our freight rail network?
    Answer. We are currently working with both industries to enhance 
efforts already underway to identify their critical assets, the 
vulnerabilities of these assets and protective measures that are 
appropriate for threat environment. We are also identifying ``high 
value targets'' that are current priority for resources to immediately 
implement protective measures to reduce vulnerabilities. DHS will work 
with industry as well as local government officials to develop security 
buffer zone planning modules for chemical sites and rail bridges that 
were identified during Operation LIBERTY SHEILD.

        a. A ballpark estimate of the total costs involved would 
        certainly be in the tens of billions of dollars, and quite 
        possibly in the hundreds of billions. Are you prepared to go to 
        the President and tell him that your department's budget must 
        be increased to make up at least a share of these costs?
        Answer. The budget request addresses best known protection 
        needs for all infrastructure sectors, both physical and cyber. 
        We are not planning to request an increase.

    Question 2. Let's assume that the President prevails, and chemical 
plant security is left to the companies themselves with little or no 
guidance or regulation from the Federal Government. If this does come 
to pass, I will be very concerned that matters besides safety could 
creep into the decision-making process when security measures are being 
considered. Are you, as Secretary of Homeland Security, concerned that 
some plant manager, struggling to run his or her piece of a huge and 
highly competitive corporation more efficiently, might scrimp a little 
on security to improve the bottom line? If not, why not?
    Answer. As the result of recent cooperative efforts with the 
American Chemical Council (ACC) and the Chlorine Institute, DHS has 
recognized a proactive effort within the chemical industry to address 
security needs. Following the guidelines of the ACC, chemical companies 
are conducting rigorous self-assessments and developing mitigation 
plans, resulting in a set of best practices that fits the needs of the 
chemical industry. This demonstrates a good-will effort that is based 
in the recognition of terrorist activities and public responsibility, 
and suggests a tendency that includes security in the profit equation. 
If this effort is encouraged and supported, DHS could be reasonably 
confident that a satisfactory security profile would result.

    Question 3. Have you and your staff analyzed the transportation of 
various chemicals by truck, rail, and barge, and come away confident 
that everything that has to be done to make this activity safe has been 
done?
    Answer. The need for this effort is recognized and plans are being 
developed in cooperation with the chemical and rail industries to 
conduct this analysis.

        a. I recognize that many of the most highly dangerous chemicals 
        manufactured in this country and transported by rail and truck, 
        such as chlorine, are also absolutely necessary to our way of 
        life. I acknowledge that the chemical industry is knowledgeable 
        about the manufacture of these chemicals and the railroad 
        industry is knowledgeable about transporting them. However, if 
        you support the President's decision to allow industries 
        involved with these products to self-police, explain to the 
        Committee the basis for your confidence that either of these 
        industries currently possesses or can rapidly acquire the 
        relevant technical and practical knowledge of terrorist threats 
        and capabilities to adequately protect the health and lives of 
        millions of Americans living or working near chemical plants or 
        largely unprotected railways?
        Answer. We are concerned with the state of private industry's 
        ability to measure the risk of exposure outside of its fences. 
        One of the basic functions of IAIP is to correct this 
        situation. In addition, past efforts to measure the effects of 
        chemical releases have been based on safety and emergency 
        preparedness assumptions, rather than terrorist activities. 
        Future efforts in this area, led by IAIP, will move to 
        appropriately refocus those efforts. This, combined with 
        training and identification of best practices, is intended to 
        ensure that industry can implement appropriate preventive 
        measures and security programs.

    Question 4. IAIP/State & Local (?)--This is not, strictly speaking, 
a question about transportation security; but it is another area which 
your undoubtedly difficult role as Secretary makes you the point person 
for the Administration. I would like to ask you a few questions about 
other critical infrastructure--like municipal water and sewer systems--
that despite not fitting into the topic of today's hearing, are 
vulnerable and important to safeguard all the same. Currently, the 
Administration has provided nothing in the way of grants or technical 
assistance to improve the security of these facilities, but we know 
that if a terrorist breached the minimal security at a rural water 
system in West Virginia and contaminated a town's water supply, CNN and 
MSNBC would be carrying the story worldwide in the next few hours. The 
end result would be Americans, no matter where they live, would begin 
to fear what was coming out of their faucets. What policies have you 
advocated for to protect municipal water supplies in this country?
    Answer. The IAIP Directorate, in cooperation with the Environmental 
Protection Agency and other relevant agencies, works to protect U.S. 
water utilities by conducting threat assessments of the sector and 
providing warning products directly to them when required.
    This is accomplished by monitoring national level intelligence 
sources, including the Terrorist Threat Integration Center, for 
international and domestic threats against the nation's water supply 
and wastewater treatment facilities. IAIP also collects water industry 
physical and cyber incident reports to constantly review for 
assessment. IAIP has analysts with ``sector expertise'' and a trusted 
information-sharing relationship with the private sector which allows 
us to make rapid assessments of all threats against the water sector. 
Part of this communication structure with the private sector includes 
close and constant interaction with the Water Information Sharing and 
Analysis Center (ISAC) which also provides the means for dissemination 
of warning products.
    The need for this effort is recognized and plans are being 
developed in cooperation with the water industry.
    Question 5. Assuming you recognize the potential severity of the 
problem, will you encourage the President to work with Congress to 
develop programs to provide grants, as well as technical assistance, to 
municipalities to dramatically improve the security of these 
facilities?
    Answer. The U.S. Department of Homeland Security, Office for 
Domestic Preparedness (ODP) has worked with all fifty-six states and 
territories to assess overall threats, vulnerabilities, capabilities 
and needs, and to develop comprehensive homeland security strategic 
plans for addressing the shortfalls identified. This process was 
completed in November of 2002. ODP used the information to develop 
tailored state assistance plans that match ODP, and to the extent 
possible, other federal resources to the needs identified by the states 
for equipment, training, exercises and technical assistance. ODP also 
used this information to hone its programs to better meet the specific 
needs identified by the nation's emergency responders as part of this 
process. States will be required to update this information by December 
31, 2003, to ensure that funding continues to be appropriately 
targeted.
    ODP also worked directly with the Transportation Security 
Administration, Coast Guard, Customs, the Maritime Administration, 
Federal Highway Administration, and the Port Authority of New York and 
New Jersey (PANYNJ) to develop a process specifically tailored to the 
needs of large, multi-modal transportation agencies that will allow 
them to develop resource allocation plans that maximize scarce 
preparedness dollars.
    In addition, as part of the FY 2003 supplemental funding, Congress 
has appropriated an additional $200 million for grants to address 
critical infrastructure protection.
    Question 6. Mr. Secretary, having served on the Committee on 
Veterans' Affairs in the House, I am sure you understand, as I do, the 
enormous resources contained within the VA medical system, the largest 
integrated health care system in the Nation. Yet, while VA shares the 
federal responsibility for preserving public health during domestic 
crises as a partner, along with DoD, FEMA and HHS, in the National 
Disaster Medical System (NDMS), I remain concerned that our Federal 
Response Plan does not always make the best use of each support 
agency's potential resources and particularly VA. Please tell me what 
formal mechanism has been put in place by the Department of Homeland 
Security to fully integrate the medical resources of both VA and DoD 
into the NDMS planning and activation processes?
    Answer. Currently there are agreements between the Department of 
Homeland Security (DHS), Department of Veterans Affairs (VA), 
Department of Health and Human Services (HHS), and Department of 
Defense (DoD), which describe the structure, functions and governance 
of the National Disaster Medical System (NDMS). DoD and the VA have 
responsibility to provide patient movement, bed counting and definitive 
care. DoD and the VA are also named as support agencies within the 
Emergency Support Function (ESF--#8) within the Federal Response Plan 
(FRP) and provide a variety of support during disasters and 
emergencies.
    DHS has a number of agreements in place with the VA for the 
maintenance and purchase of pharmaceuticals. DHS also utilizes DoD and 
VA personnel to support field response activity and operation support 
centers.
    DoD's and VA's statutory responsibilities to provide services to 
veterans, active duty personnel, and reserve forces precludes them from 
making all of their resources available to support the NDMS. For 
example, the conflicts in Iraq and Afghanistan have severely limited 
the availability of DoD resources such as medical personnel and 
strategic airlift capabilities.

    Question 7. How is DHS making certain that our first line 
responders are aware of these resources, and what guidance is given 
first line responders about when and how they can tap into them to 
prevent unnecessary delay during a national crisis?
    Answer. DHS conducts periodic Regional Interagency Steering 
Committee (RISC) meetings with state emergency management officials and 
regional NDMS representatives to discuss federal medical response 
capabilities. It is through this mechanism that the states are trained 
in the Federal Response Plan (FRP), the various Emergency Support 
Functions (ESFs) and the federal disaster declaration process. States 
in turn provide training and awareness on available resources to local 
emergency management organizations.

    Question 8. Testimony before the Joint Intelligence Committees' 
Inquiry on the September 11th attacks indicated that significant 
information in the possession of intelligence and law enforcement 
agencies was not fully shared with other agencies and that intelligence 
on potential terrorist threats against the United States was not fully 
exploited. Congress took several steps to address this issue. For 
example, the Aviation and Security Act sought to improve this 
information sharing by creating a Transportation and Oversight Board to 
coordinate critical intelligence and data sharing among federal 
agencies. I am very interested in the work of this Board. How would you 
characterize the process of implementation of the Board?
    Answer. The Transportation Security Oversight Board (TSOB) was 
initiated under the leadership of Secretary of Transportation Mineta 
and Deputy Secretary of Transportation Michael Jackson. As Director of 
the Office of Homeland Security, my office was one of seven Departments 
and offices that comprised the original membership of the Board. The 
Homeland Security Act of 2002 transferred the TSOB from the Department 
of Transportation to the Department of Homeland Security. We are 
currently working with the Transportation Security Administration in 
the Border and Transportation Security Directorate to convene the first 
meeting under my stewardship.

    Question 9. To follow up, how would you characterize the Board's 
effectiveness?
    Answer. The TSOB has been effective in raising timely and cross-
governmental issues that require extensive coordination from various 
agencies within the executive branch. At the last several meetings, the 
Board has discussed the standup of the Transportation Security 
Administration and the progress being made on critical issues, such as 
transportation credentials and intelligence matters.

    Question 10. Could you tell the Committee how the work of the Board 
is going, and how you think we in Congress can help you in this 
activity?
    Answer. The first meeting of the Board under Department of Homeland 
Security leadership is currently being planned. The Department looks 
forward to Congress's continued support and interest in the activities 
of the Board.

    Question 11. I hope you will agree with me that TSA should not and 
cannot function independently of other DHS security functions and the 
intelligence community. Without revealing sensitive information, can 
you give the Committee examples of how DHS is coordinating its 
activities--both among its component agencies, and with the law 
enforcement and intelligence communities?
    Answer. DHS has two coordinating points in its Information Analysis 
and Infrastructure Protection (IAIP) Directorate in which such 
activities are managed. The IAIP is the primary focal point for both 
receipt of incoming information and intelligence related to threats to 
the homeland, as well as the focal point for output of information 
usable by a wide variety of federal, state, local and private 
customers. The first is the Homeland Security Operations Center (HSOC) 
which is a 24-hour operation. It is staffed by representatives from DHS 
component organizations, the Intelligence Community, DHS headquarters, 
and selected other agencies, e.g., FBI, State and local law 
enforcement. Representatives in the HSOC have connectivity to their 
respective organizations. The HSOC is the primary initial entry point 
for information into DHS and one of the primary exit points for 
information back out to DHS and its wide customer base, e.g., State 
Homeland Security Advisors, State and local officials, local law 
enforcement, and the Intelligence Community. The other coordination 
point is the Fusion Office of the IAIP which is not a sustained 24-hour 
operation. That office is responsible for conducting detailed analysis 
of threat information, mapping threats to capability and potential 
impact, and it is this analysis which serves as the basis for 
particular warnings, advisories, preventive and protective measures and 
other information issued by the IAIP to DHS partners.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                             Hon. Tom Ridge

    Question 1. What assistance can Whatcom County and other border 
areas like it expect from the Department?
    Answer. To date, the Office for Domestic Preparedness (ODP) has 
trained 52 responders from Whatcom County, WA. In addition, $186,732 in 
equipment money has been allocated to Whatcom County by the state from 
ODP's FY99 State Domestic Preparedness Program grant to Washington.
    ODP has worked with all 56 states and territories to assess overall 
threats, vulnerabilities, capabilities and needs, and to develop 
comprehensive homeland security strategic plans for addressing the 
shortfalls identified. This process was completed in November 2002. ODP 
used the information to develop tailored state assistance plans that 
match ODP, and to the extent possible, other federal resources to the 
needs identified by the states for equipment, training, exercises and 
technical assistance. ODP also used this information to hone its 
programs to better meet the specific needs identified by the nation's 
emergency responders as part of this process. States will be required 
to update this information by December 31, 2003, to ensure that funding 
continues to be appropriately targeted. In Fiscal Year (FY) 2003, 
Congress appropriated over $566 million for grants to state and local 
jurisdictions, $39.74 million of which is allocated specifically to 
cover costs associated with updating and implementing the needs 
assessments and strategies for each state.
    ODP also worked directly with the Transportation Security 
Administration, Coast Guard, U.S. Customs and Border Protection, the 
Maritime Administration, Federal Highway Administration, and the Port 
Authority of New York and New Jersey (PANYNJ) to develop a process 
specifically tailored to the needs of large, multi-modal transportation 
agencies that will allow them to develop resource allocation plans that 
maximize scarce preparedness dollars.
    In addition, as part of the FY 2003 supplemental appropriations 
funding, ODP will be distributing an additional $200 million in grants 
to address critical infrastructure protection.

    Question 2. The effects of immigration and border related crimes 
have long been felt on the southern border, straining the budgets and 
resources of prosecutors' offices located in that area. The Federal 
Government has provided funding to assist these communities because, as 
one Washington State prosecutor pointed out to me, border security 
benefits not just the communities along the border, but the entire 
nation. I will soon introduce legislation that would provide similar 
funding for reimbursement of prosecutors in northern border counties. 
Will the Department support this effort?
    Answer. The Administration will consider the legislation once it 
has been thoroughly reviewed.

                                  <all>

</pre></body></html>
